<html>
<title> - ONLINE PORNOGRAPHY: CLOSING THE DOOR ON PERVASIVE SMUT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



         ONLINE PORNOGRAPHY: CLOSING THE DOOR ON PERVASIVE SMUT

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                COMMERCE, TRADE, AND CONSUMER PROTECTION

                                 of the

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 6, 2004

                               __________

                           Serial No. 108-90

                               __________

      Printed for the use of the Committee on Energy and Commerce


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________
                    ------------------------------  

                    U.S. GOVERNMENT PRINTING OFFICE
93-980                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                    COMMITTEE ON ENERGY AND COMMERCE

                      JOE BARTON, Texas, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
RALPH M. HALL, Texas                   Ranking Member
MICHAEL BILIRAKIS, Florida           HENRY A. WAXMAN, California
FRED UPTON, Michigan                 EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida               RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                EDOLPHUS TOWNS, New York
JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
CHRISTOPHER COX, California          SHERROD BROWN, Ohio
NATHAN DEAL, Georgia                 BART GORDON, Tennessee
RICHARD BURR, North Carolina         PETER DEUTSCH, Florida
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
CHARLIE NORWOOD, Georgia             ANNA G. ESHOO, California
BARBARA CUBIN, Wyoming               BART STUPAK, Michigan
JOHN SHIMKUS, Illinois               ELIOT L. ENGEL, New York
HEATHER WILSON, New Mexico           ALBERT R. WYNN, Maryland
JOHN B. SHADEGG, Arizona             GENE GREEN, Texas
CHARLES W. ``CHIP'' PICKERING,       KAREN McCARTHY, Missouri
Mississippi, Vice Chairman           TED STRICKLAND, Ohio
VITO FOSSELLA, New York              DIANA DeGETTE, Colorado
STEVE BUYER, Indiana                 LOIS CAPPS, California
GEORGE RADANOVICH, California        MICHAEL F. DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire       CHRISTOPHER JOHN, Louisiana
JOSEPH R. PITTS, Pennsylvania        TOM ALLEN, Maine
MARY BONO, California                JIM DAVIS, Florida
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
LEE TERRY, Nebraska                  HILDA L. SOLIS, California
MIKE FERGUSON, New Jersey            CHARLES A. GONZALEZ, Texas
MIKE ROGERS, Michigan
DARRELL E. ISSA, California
C.L. ``BUTCH'' OTTER, Idaho
JOHN SULLIVAN, Oklahoma

                      Bud Albright, Staff Director

                   James D. Barnette, General Counsel

      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

        Subcommittee on Commerce, Trade, and Consumer Protection

                    CLIFF STEARNS, Florida, Chairman

FRED UPTON, Michigan                 JANICE D. SCHAKOWSKY, Illinois
ED WHITFIELD, Kentucky                 Ranking Member
BARBARA CUBIN, Wyoming               CHARLES A. GONZALEZ, Texas
JOHN SHIMKUS, Illinois               EDOLPHUS TOWNS, New York
JOHN B. SHADEGG, Arizona             SHERROD BROWN, Ohio
  Vice Chairman                      PETER DEUTSCH, Florida
GEORGE RADANOVICH, California        BOBBY L. RUSH, Illinois
CHARLES F. BASS, New Hampshire       BART STUPAK, Michigan
JOSEPH R. PITTS, Pennsylvania        GENE GREEN, Texas
MARY BONO, California                KAREN McCARTHY, Missouri
LEE TERRY, Nebraska                  TED STRICKLAND, Ohio
MIKE FERGUSON, New Jersey            DIANA DeGETTE, Colorado
DARRELL E. ISSA, California          JIM DAVIS, Florida
C.L. ``BUTCH'' OTTER, Idaho          JOHN D. DINGELL, Michigan,
JOHN SULLIVAN, Oklahoma                (Ex Officio)
JOE BARTON, Texas,
  (Ex Officio)

                                  (ii)




                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Allen, Ernie, President and Chief Executive Officer, National 
      Center for Missing and Exploited Children..................    53
    Beales, J. Howard, III, Director, Bureau of Consumer 
      Protection, U.S. Federal Trade Commission..................    12
    Catlett, Charles E., Senior Fellow, Computation Institute, 
      Argonne National Laboratory................................    42
    Dunkel, Norbert W., Director of Housing and Residence 
      Education, University of Florida...........................    47
    Koontz, Linda, Director for Management Issues, U.S. General 
      Accounting Office..........................................    23
    Lafferty, Martin C., Chief Executive Officer, Distributed 
      Computing Industry Association.............................    60
    Lourdeau, Keith, Deputy Assistant Director, Federal Bureau of 
      Investigation, Cyber Division..............................    18
    Nance, Penny Young, President, Kids First Coalition..........    57

                                 (iii)



 
         ONLINE PORNOGRAPHY: CLOSING THE DOOR ON PERVASIVE SMUT

                              ----------                              


                         THURSDAY, MAY 6, 2004

              House of Representatives,    
              Committee on Energy and Commerce,    
                       Subcommittee on Commerce, Trade,    
                                   and Consumer Protection,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2322, Rayburn House Office Building, Hon. Cliff Stearns 
(chairman) presiding.
    Members present: Representatives Stearns, Whitfield, 
Shimkus, Shadegg, Bass, Pitts, Terry, Ferguson, Issa, Otter, 
Sullivan, Barton (ex officio), Schakowsky, McCarthy, and 
Strickland.
    Also present: Representative John.
    Staff present: Chris Leahy, majority counsel; David 
Cavicke, majority counsel, Shannon Jacquot, majority counsel; 
Brian McCullough, majority professional staff; Will Carty, 
lecislative Clerk; Gregg Rothschild, minority counsel; and 
Ashley Groesbeck, staff assistant.
    Mr. Stearns. Good morning, everybody. I think we'll start 
our hearing.
    I'm pleased to welcome all of you to the committee, the 
Subcommittee on Commerce, Trade, and Consumer Protection 
hearing on online pornography. My colleagues online 
pornography, both legal and illegal, is a growing problem for 
legitimate Internet users and in particular, for the most 
vulnerable among our nation, the children. The explosion growth 
of online pornography material including the most revolting 
child pornography continues to be a major issue for all of us.
    According to a 2003 report done by the General Accounting 
Office, there were over 400,000 commercial pornography websites 
at that time. A subsequent private survey estimated that the 
number of commercial pornography websites grew from 88,000 in 
2000 to 1.6 million today. Now this rapid growth of online 
pornography on the web becomes even more disturbing when we 
learn that outright deception and fraud are frequently the 
means used to dupe legitimate Internet users into exposure, 
especially when those users are children.
    Web pornographers are increasingly using online deception 
and trickery to lure visitors to their websites. Domain names 
are being manipulated to appear benign and mousetrap their 
victims. Spam and fraudulent advertising are being employed to 
lure unsuspecting visitors, and many of them are children, to 
obscene material. And now distributed computing technology like 
file sharing software applications known as peer-to-peer or P2P 
software are quickly becoming a favorite medium, particularly 
to lure our children from the perceived, safety of the family 
living room out into the dangers of this Internet wilderness.
    Especially popular with the most tech savvy, our kids, P2P 
networks are similar in concept to web browsers, but rather 
than enabling users to communicate and share information 
through a central server or website, P2P allows network users 
access to each others' computers hard drives to share files. 
While this is an ingenious and a legitimate technology, the 
chilling fact is that pornographers are now using these P2P 
applications to target children and young adults with 
pornographic materials by distributing files with deceptive 
names that disguise a pornographic file, by labeling it with an 
entity popular with children or young adults such as an example 
would be Cinderella or Britney Spears.
    According to the Center for Missing and Exploited Children, 
who will be testifying before us today, from 2001 to 2002 there 
was a fourfold increase in pornographic material being 
distributed through P2P networks. This finding, coupled with 
the fact that many P2P users are children and young adults, 
makes the risk of inadvertent exposure of pornographic material 
to children a very significant issue.
    As several of our witnesses today will explain, it is very 
important to recognize that distributed computing technology 
that enables P2P software is legitimate and frankly a neutral 
technology with tremendous potential to do good. But it also 
spawned exciting new applications and it also spawns exciting 
new applications for legitimate activity. For example, it can 
enable the establishment of online communities, complete online 
communities, enhance grid computing and in short, make the 
market of ideas and information more accessible and obviously 
more affordable to all Americans.
    The power of P2P networks has already led to some 
outstanding success in the sciences and in mathematics. I'd 
like to commend my colleague, Mr. Pitts from Pennsylvania, for 
his leadership in helping cast some light on the very real 
problems of P2P technology and what it poses, including the 
ways in which it can facilitate the illegal and disgusting 
behavior of those that prey upon our children.
    I would also like to especially welcome Mr. Norb Dunkel and 
Mr. Rob Bird who were kind enough to travel from the University 
of Florida to testify before us today. I am honored to 
represent the University of Florida, an institution that is 
innovative on many levels. And particularly, the University of 
Florida has taken a novel approach to dealing with this misuse 
of peer-to-peer technology by instituting a system called 
Integrated Computer Application for Recognizing User Services 
or ICARUS. ICARUS has successfully harnessed technology to 
restrict illegal file sharing while preserving P2P for 
legitimate academic and social activity over the University of 
Florida's network.
    And finally, my colleagues, I look forward to further 
exploring ways we can ensure the doors to the Internet 
wilderness remain locked for the sake of our children, unless 
extreme care is exercised and proper safeguards are in place.
    There is clearly no open door policy in cyberspace. As we 
have seen open doors can also allow infestation by malicious 
computer viruses, secret spyware downloads, as we learned last 
week, and now the distribution of online pornography, 
particularly child pornography.
    And as we will learn from the Federal Bureau of 
Investigation and the Federal Trade Commission, apart from our 
parental responsibility to carefully supervise our children's 
Internet activities, there's also need for vigilant and 
aggressive enforcement measures and prosecution for those who 
seek to victimize and exploit our children.
    I welcome the witnesses today and I look forward to the 
testimony.
    With that, I'm very pleased to recognize Ranking Member 
Schakowsky.
    Ms. Schakowsky. Thank you, Chairman Stearns, for holding 
this hearing on children being able to access pornography on 
the Internet by using peer-to-peer or P2P networking. I'm 
particularly glad this morning to see that there are a number 
of young people. I want to point out there are some empty seats 
for people to sit down, so if you ever wonder whether or not 
anything we do here in this capital directly affects your 
lives, this is a good example of one of them that does.
    Like you, Mr. Chairman, I'm very concerned about protecting 
children from the violation and abuse of child pornography and 
when the Child Sex Crimes Wiretapping Act and the Child 
Obscenity and Pornography Prevention Act were on the House 
floor in the last Congress, I voted for them. I believe that 
these bills would go a long way to safeguard our children from 
pornography. And I'm also concerned about children's exposure 
to pornography, in general. I believe that parents should be 
able to guard against their children stumbling across it on the 
Internet, but in ways that do not violate the first amendment.
    As the testimony demonstrates, the user of P2P traffic and 
child pornography continues to grow. And it is certainly 
appropriate for the subcommittee to investigate and address 
this problem. However, peer-to-peer networking is not the main 
source for child pornography. As the National Center for 
Missing and Exploited Children CyberTipline found in 2003, 
there were 840 reports of P2P being the source of child 
pornography out of 62,369 tips received; websites with the 
source of 45,035 of the reports.
    Since 1998, P2P has been the source for only 1 percent of 
online child pornography. P2P systems and the distributed 
competing technologies behind it do not much more than serve 
as--do much more than serve as access to pornography. Some uses 
are interesting and innovative like using it for environmental 
and biomedical research as Dr. Catlett from the University of 
Chicago and Argonne Lab explains in his testimony. Other uses 
are seriously distressing like the unauthorized downloading of 
copyrighted materials and the spreading of spyware and viruses. 
When discussing P2P, we cannot ignore these uses. I'm glad that 
we have a number of witnesses here today who will go over these 
points as well.
    P2P is a lot like other issues we've had to deal with in 
our subcommittee as with the data base bill and spyware, we 
have to find ways to balance concerns. With P2P, we must make 
sure that artists are compensated for their work and that 
copyrights are not infringed upon. At the same time we should 
examine the possibility of P2P as a legitimate way for artists 
to distribute and market their work when they cannot get play 
on the stations owned by mega conglomerates.
    We also have to look at how to protect our children without 
making the regulations of a potentially useful technology so 
onerous that we could lose an innovative system. Although I 
don't know, I don't have a suggestion at the moment where this 
balance will fall, I'm very glad that we're here today 
beginning a discussion on how best to approach the problems 
that inevitably surface with evolving technologies.
    Thank you.
    Mr. Stearns. I thank the gentlelady and we have the 
chairman of the Energy and Commerce Committee, Mr. Barton, the 
gentleman from Texas.
    Chairman Barton. Thank you, Mr. Stearns, and thank you for 
hosting this hearing. I want to commend you and Congressman 
Pitts for your efforts in this area. It's an important and 
timely topic as new technologies offer quicker and easier 
channels for distributing pornographic images over the 
Internet. Those involved in delivering pornography through 
deceptive means have used many mechanisms to facilitate their 
scams. This committee, along with the Committee on the 
Judiciary has worked very hard to prevent the viewing of 
pornographic content by unwitting e-mail users by developing 
brown paper wrapper provisions in the CAN-SPAM Act. I 
understand those provisions are going to be taking effect later 
this summer. I expect that enforcement will receive significant 
attention by both the FTC and the FBI.
    What is less well known is the use of peer-to-peer networks 
in distributing pornography. Children, as large numbers of 
users of peer-to-peer networks are at significant risk of 
inadvertent exposure to pornographic images. Some of the 
pornographic content is disguised as files that look like 
popular files that children might access. The GAO has reported 
that searches on key words that might be used by children or 
young adults have produced a high number of pornographic 
images, specifically searches retrieved 56 percent pornography. 
Less than half produced legitimate content sought by children 
and most disturbing of all, a small, but not insignificant 
percentage even contained child pornography.
    These results highlight three issues that are significant 
regarding pornography over peer-to-peer networks. Before I 
close, I want to comment that I believe that the pornography 
problem over the peer-to-peer network is a problem of illegal 
behavior related to content, not necessarily the technology 
itself. Distributed computing is more than just peer-to-peer 
file sharing of music and other pop culture type files. It's an 
exciting area with scientific benefits and medical benefits 
that will accrue to our country's benefit for many years to 
come.
    I look forward to hearing about the other positive uses of 
distributed computing and hope that this committee can weigh 
the benefits of distributed computing as we look at ways to 
solve the peer-to-peer sharing of pornographic files to 
children.
    I again want to thank Congressman Pitts for his attention 
to this issue and I want to commend Chairman Stearns for your 
willingness to hold a hearing on this important issue and I 
yield back the balance of my time.
    Mr. Stearns. I thank the chairman and now the author of a 
bill dealing with this subject from which we're having the 
hearing, Mr. Pitts is recognized.
    Mr. Pitts. Thank you, Mr. Chairman, for convening this 
important hearing on the dangers to our children from peer-to-
peer file sharing software. Before I start, I'd like to insert 
into the record a letter.
    Mr. Stearns. By unanimous consent, so ordered.
    [The letter follows:]

                               United States Senate
                                       Washington, DC 20510
                                                        May 4, 2004
The Honorable Timothy J. Muris, Chairman
The Honorable Mozelle W. Thompson, Commissioner
The Honorable Orson Swindle, Commissioner
The Honorable Thomas B. Leary, Commissioner
The Honorable Pamela Jones Harbour, Commissioner
Federal Trade Commission
600 Pennsylvania Avenue, N.W.
Washington, DC 20580
    Dear Mr. Chairman and Commissioners:
    We write to request that the Federal Trade Commission (the 
``Commission'') determine whether various provisions of the Federal 
Trade Commission Act (the ``Act'') are being violated by the designers, 
publishers, distributors and operators of certain iterations of 
software commonly known as ``peer-to-peer file-sharing software.'' 
These parties have distributed this software widely and for free--
frequently to unsupervised children. In fact, nearly half of the users 
of this software may be children. This software not only enables 
children and others to make ``free'' infringing copies of copyrighted 
music, movies, software and games for their own use, but also may 
unwittingly turn each user into an illegal re-distribution center for 
both copyrighted works and child pornography.
    Recently, a federal court found that certain publishers and 
distributors of filesharing software ``may have intentionally 
structured their businesses to avoid secondary liability for copyright 
infringement, while benefiting financially from the illicit draw of 
their wares.'' If this is true, then those distributing P2P software to 
consumers and children may be failing to disclose profound risks 
associated with foreseen, widespread uses of their products. If so, 
then the Commission should consider the appropriate steps it may take 
to protect our citizens and children from potentially unfair and 
deceptive trade practices that mislead and endanger.
    This software inarguably poses dangers even when it is used as 
intended in ways that were foreseeable and have become common practice. 
Many children use this software to download popular songs: They risk 
significant civil penalties for copyright infringement and criminal 
convictions for re-distributing infringing works to pirates around the 
world. Many adults use this software to download adult pornography for 
their own private viewing: They may risk criminal convictions for 
distributing this pornography to minors. Something is horribly wrong 
when millions use a product in ways that are illegal, dangerous to 
them, and dangerous to others.
    We stress that risks like them are not inherent in the use of 
computers, the Internet, or even most software that can transfer files 
between ``peer'' computers. Instead, they appear to arise when 
particular file-sharing software is distributed with default settings 
and other attributes that seem designed to facilitate widespread, 
ongoing copyright piracy and trafficking in pornography. Two features 
of such designs seem to generate these unusual risks.
    First such software enables what might be called ``dark-alley file-
sharing'': Through a combination of unenforced use ``limitations'' and 
licenses, pseudo-anonymity, and automatic program features that operate 
without the user's intervention or knowledge, this type of software 
creates shadowy ``dark alleys'' in cyberspace. In those dark alleys, 
you can get things--though you aren't sure what they really are--from 
strangers who cannot be later identified or held accountable. 
Unsurprisingly, these dark alleys tend to become havens for piracy, 
pornography and computer viruses.
    Second, such software enables so-called ``viral'' redistribution: 
By default, users of the software make all files downloaded available 
for redistribution to other users. This ``viral'' redistribution can 
thwart enforcement of the rights of artists because one infringing copy 
of a popular work can quickly multiply over a network. ``Viral'' 
redistribution works by turning more consumers of content into 
international distributors of content. As a result, people seeking 
content to use at home can inadvertently incur all the complex and 
unfamiliar risks of managing an international content-distribution 
operation.
    We cannot detail all of the risks to consumers that arise when 
dark-alley file-sharing combines with ``viral'' redistribution. We 
summarize only some of these risks, which may be grouped into three 
broad categories: pornography, piracy and data security.
    Pornography and Child Pornography: Recent research suggests that 
pornography downloading has joined music piracy as a leading use of 
much dark-alley file-sharing software. Much of this pornography is 
disturbing and potentially obscene. It may depict hardcore sex, sadism, 
masochism, violence, bestiality, or rape. The prevalence and nature of 
this pornography endangers users of this software in at least three 
ways.
    First, filesharing is based on searchable lists, which may contain 
deceiving file names, with the result that the program delivers graphic 
pornography even to children searching for innocent content. Unenforced 
end-user licenses frequently let the worst pornography link itself to 
innocent subjects. For example, the Government Accounting Office (GAO) 
reported to Congress that ``searches on innocuous keywords likely to be 
used by juveniles'' retrieved images including adult pornography (34%), 
cartoon pornography (14%), child pornography (1%) and child erotica 
(7%). Searching some networks for terms like ``Olsen twins'' and 
``Harry Potter'' will return files whose very names describe sex 
crimes. ``Pokemon'' cartoons, music, and movies are designed to attract 
young children--yet one search for ``Pokemon'' returned files 
purporting to depict the rape of Pokemon's child-stars.
    Some file-sharing software promotes ``keyword'' filters as a means 
to protect file-sharing children from pornography. But``keyword'' 
filters can only prevent children from searching for pornography--not 
from exposure to the pornography responsive even to innocuous searches. 
For example, when one such ``Family Filter'' was engaged, a search for 
the term ``horse'' returned images of graphic bestiality. Such can also 
be easily disabled, even by children, In any event, unaccountable 
pornographers can circumvent these filters by mislabeling pornographic 
files with misleading filenames and metadata.
    Second, file-sharing can expose unwitting children or adults to 
profoundly disturbing child pornography that is illegal to possess, 
view, or redistribute. Pedophiles use filesharing to distribute illegal 
child pornography. Searches of popular filesharing networks have 
returned files with names like ``13-year-old lolita raped and crying.'' 
Suffolk County District Attorney Thomas Spota told the Senate Committee 
on the Judiciary that one popular network distributed the videotaped 
rape of a toddler in diapers. GAO has confirmed that some of this 
illegal child pornography is mislabeled so it will appear in response 
to innocuous searches.
    Third, ``viral'' redistribution of any pornography can endanger not 
only children, but also adults who want to view adult pornography. For 
example, imagine a college student, who uses file-sharing software as 
intended to download for private use a violent adult pornographic 
image. Automatically, however, the P2P program itself makes the image 
accessible for downloading by every other user of the file-sharing 
software, including children or users who live in different areas of 
the country with different community standards. As a result, this 
student may redistribute violent pornography to children and others--
and risk criminal prosecution under state or federal criminal laws 
governing pornography distribution. Both Congress and the Department of 
Justice have advised prosecutors to target obscenity prosecutions 
toward pornography distributors--particularly those who distribute to 
minors.
    Unfortunately, this is no hypothetical. It is happening now. 
Otherwise law-abiding adults who may only have meant to view 
pornography privately are--intentionally, negligently or unknowingly--
becoming pornography distributors who distribute worldwide, to children 
and adults. We doubt that most such adults realize how ``viral'' 
redistribution of any pornography endangers both adults and children.
    Copyright Infringement: File-sharing can also expose children and 
consumers to severe penalties for copyright infringement. The enduring 
prevalence of this piracy strongly suggests that some who profit from 
it have failed to educate their users about the many dangers of 
infringing copyrights.
    Testimony and news reports show that some users of file-sharing 
software--particularly children--do not yet realize that downloading 
popular music or movies ``for free'' is usually unlawful. Many users 
may not realize that downloading or redistributing infringing works can 
be a federal crime, and may not know the severity of the penalties for 
copyright infringement. These users cannot be adequately educated by 
vague warnings to ``obey the law'': Review of the Copyright Act will 
not disclose which files may be illegal to download, the prevalence of 
infringing works on a network, or the risks of letting a clever 
designer limit his own risks of liability by using your home computer 
to house network search indices much like those that exposed the 
original Napster to staggering secondary liability for infringement.
    Data Security: Most dark-alley file-sharing software can 
redistribute any kind of file, including audio, images, documents and 
video. Such software can thus compromise the safety of any data stored 
on the hard drive of a personal computer. People now use their 
computers to store highly sensitive data, including personal finances, 
tax returns, photographs, correspondence, business documents, and 
emails. Much of this data--if broadcast to millions of other Internet 
users--could facilitate identity theft.
    Resarch by computer scientists Nathaniel Good and Aaron Kreckelberg 
has revealed that (1) thousands of people seem to have inadvertently 
shared profoundly personal data over filesharing networks, and (2) 
malicious users are accessing files that seem to contain sensitive data 
like credit card numbers. Other research conducted by the Committee on 
Government Affairs of the House of Representatives reveals that 
thousands are sharing data files that probably contain detailed records 
of their personal finances, including account numbers, credit card 
numbers, and individual financial transactions. Indeed, last year, PC 
Magizine reported that downloading the inadvertently shared personal 
data of others had become the latest filesharing ``fad.''
    In addition to inadvertently sharing sensitive personal, business, 
or government data, users may also compromise their security and risk 
identity theft by downloading files that contain malicious viruses, 
Trojan-horse programs or backdoors. New research by the security 
company TruSecure has revealed that about 60% of the nearly 5000 
executable files downloaded with popular filesharing software contained 
such viruses, Trojan-Horse programs or backdoors. Some were concealed 
in games popular among children. PC Magazine also recently reported 
that one of the most recent widespread infections, the ``MyDoom [virus] 
seems to have started on KaZaA, the popular peer-to-peer filesharing 
service.'' PC Magazine also reported potential problems with the 
antivirus program Kazaa that may have rendered it largely useless 
during the MyDoom outbreak.
    Finally, too much dark-alley file-sharing software helps its 
creators profit from piracy and pornography by installing so-called 
``adware'' or ``spyware'' programs. These programs can compromise the 
privacy of every person who uses a given computer--even if they never 
use filesharing software or consent to its installation. We commend the 
Commission for opening an investigation of this issue.
    In sum, the dangers of file-sharing software are real, and 
consumers need to be protected. The Act directs the Commission to 
protect consumers from ``unfair or deceptive acts or practices'' that 
affect commerce. 15 U.S.C.A.  45(a)(1). If the designers, publishers, 
and distributors of file-sharing have not adequately warned users about 
the risk of using their software, and are intentionally distributing 
the software in a manner that increases risks to end-users, then they 
have endangered their customers--and our children. These entities--many 
of whom profit primarily through adverting or sales of 
``premium''versions--from illicit uses of their software--must 
effectively educate even their youngest users about the dangers of 
their software.
    We request that the Commission investigate these issues during its 
upcoming hearings. We further request that the Commission report back 
on (1) the results of its investigation, (2) how it intends to redress 
any problems disclosed under existing law, and (3) whether existing law 
provides adequate authority to redress any and all problems disclosed. 
We also request that the Commission commence and prosecute any 
enforcement actions justified by any potential violations of the Act 
disclosed.
            Sincerely,
                                              Patrick Leahy
                                              United States Senator
                                             Orrin G. Hatch
                                              United States Senator
                                              Barbara Boxer
                                              United States Senator
                                                Ted Stevens
                                              United States Senator
                                               Gordon Smith
                                              United States Senator

    Mr. Pitts. Thank you. There are millions of people using 
peer-to-peer software at any given time. Approximately 40 
percent of the users are children. Our children download peer-
to-peer software in hopes that they can get their hands on free 
music or movies, but I'm not here to talk about copyrights or 
what artists or musicians are entitled to. That's an important 
and necessary discussion to have. But I'm afraid it has become 
a smokescreen for a very real danger facing our children in the 
use of peer-to-peer software. Kids log on to Kazaa or LimeWire 
looking music. Instead, when they search for songs by their 
favorite music group or pictures of their favorite baseball 
player, they get porn, a lot of it illegal child pornography.
    A search for files relating to children's characters such 
as Elmo or Snow White, therefore yields an alarming amount of 
pornography. One has to ask why are these files misnamed? An 
adult looking for pornography isn't going to search for Elmo. 
Maybe he would if he's a pedophile and it's code talk for 
illegal material. Perhaps our friends at Kazaa would like to 
let us know if that is happening. Children are the only 
possible target of this false labeling.
    I have a printout here, some printouts and they represent 
the results of searches done on Kazaa on these topics and the 
results are shocking. These searches were done using the adult 
filter that Kazaa offers. If members want to see it for 
themselves, I'll let you see this. If a child accidentally 
downloads a file containing child pornography, the pedophile 
distributing it has instant access to the child. He can easily 
communicate with the child over the Internet, drawing the child 
into his web. And that's exactly what they want. Pedophiles 
often lure children into viewing pornography to encourage their 
victims to engage in sex. This is the way pedophiles operate in 
the real and cyber world.
    As evidence of this trend, Suffolk County, New York last 
year arrested 12 individuals in a sting operation. They used 
Kazaa to distribute their child pornography. The confiscated 
files that were distributed showed children being raped. One 
had an audio with a child screaming ``stop, Daddy, stop.''
    Now some proponents of peer-to-peer say that in proportion 
to the Internet at large the amount of pornography on peer-to-
peer networks is meager. I agree that pornography is rampant on 
the Internet, but this finger pointing is a pretty bad way to 
pass the buck. If you go to the most popular search engine, 
Google, and type in the same words, you don't get child porn. 
You get what you ask for. You type in Cinderella or Pokeyman, 
Snow White, baseball, you get information on Cinderella, 
Pokeyman, Snow White and baseball.
    Even if pornography comes up in these searches, it's far 
down the list. And parents can rely on filters to block much of 
that material from ever appearing on a computer screen. This is 
not the case with peer-to-peer software. If you enter these 
terms in your peer-to-peer search window, the results are 
primarily pornographic material. Any time you have millions of 
children having easy access to such horrible material, I don't 
care if you claim someone else has more, if your product 
facilitates or encourages illegal activity, if your product 
allows predators, pornographers, pedophiles to prey on children 
and leads to the abuse of just one child, while you stand idly 
by, you have no excuse.
    This is not about the recording industry. It's about the 
peer-to-peer industry. Peer-to-peer distributors should be held 
accountable for the smut that they actively put into the hands 
of our children. They should be expected to allow parents to 
protect their children, not ridicule their efforts to do so.
    Now we'll hear today about peer-to-peer software's filters 
and parents' passwords. They don't work. They do not protect 
children from receiving pornography. This is because they are 
key word filters that only prevent children from searching for 
pornography. Just look at these printouts, these searches are 
proof. They were done with the adult filter on and the results 
are shocking because pornographers rename their files to sound 
innocent. The filters are ineffective.
    Further, parents think that they have existing Internet 
filters that protect their children, but they don't work on 
peer-to-peer software either. Netnanny doesn't work. 
CyberPatrol doesn't work. And peer-to-peer filters don't work. 
In fact, not only are they ineffective, they're easy to 
circumvent. Any 13-year-old can turn them off. We need to 
protect the millions of children using peer-to-peer software 
and that is why last year my colleague, Chris John, and I 
introduced H.R. 2885, Protecting Children from Peer-to-Peer 
Pornography Act. This bill raises awareness of the dangers of 
peer-to-peer software. It calls on the FTC to hold peer-to-peer 
distributors accountable for the smut that they actively put 
into the hands of our children and peer-to-peer networks may 
not want to stop this because it means less users or less 
material or less revenue.
    Our bill would empower parents by giving them the tools 
they need to cutoff the flow of harmful information into their 
homes and it would aid the development of technology to block 
peer-to-peer installation. This is a threat that harms our 
kids. It's time to do something about it.
    Again, thank you, Mr. Chairman, for the hearing. I look 
forward to hearing the testimony of the witnesses.
    Mr. Stearns. I thank my colleague and if you don't mind I 
think you could circulate that to the members so that they have 
an opportunity to see it. And the gentleman from Nebraska, Mr. 
Terry.
    Mr. Terry. Thank you, Mr. Chairman, I'm anxious to hear 
from our witnesses today. This is an important issue and I'll 
just give you a story. Over the weekend, last week my son who 
is 9 years old is becoming darn proficient in exploration of 
the Internet with my supervision, said that he wanted to 
download some music. He wanted some Aerosmith songs. That in 
and of itself made me rather proud of him. Not Britney Spears, 
Aerosmith, that's my boy. So I said all right, let's go on and 
we're going to do this right. And so went to Real Music. We 
paid for the four Aerosmith songs that I knew didn't have 
sexually explicit language in them which even Aerosmith makes 
some sexual references in their songs so we had a few, Sweet 
Emotion, Dream On, not Love in an Elevator. But we did it the 
right way. I wanted to make sure he did it the right way by 
paying for this music. By the way, for the four songs he had to 
sweep the patio and earn it. But the value of that these 
artists and record companies have invested and their rights to 
this music should be protected.
    But also, I wanted to make sure that he wasn't on other 
sites like Kazaa because even at 9 years of age his friends 
know what Kazaa is and have gone on Kazaa. And when I see what 
Mr. Pitts, my colleague from Pennsylvania has introduced here, 
about how easy it would be for a 9-year-old boy to access hard 
core pornography, in trying to do something as simple as 
download a song for free.
    When I talk to high school classes, and just like the 
ranking member from Chicago mentioned, that we have a lot of 
youth here and this is one of the areas that we show Congress 
actually can effect, I ask high school students when I speak to 
their class, how many of them download music? Inevitably about 
80 percent of the class, no matter where I am in Omaha or my 
District, 80 percent of the class will raise their hand. Then I 
ask for those raising their hands, how many have paid for that 
music? Probably two or three hands out of that entire class 
will remain up which means this is what our high school 
students are seeing on a daily basis.
    And most of them are probably savvy enough to choose the 
music versus the some rather explicit nature of the title here 
for the pornography. But what also concerns me is not only the 
volume of what our students are being exposed to, but also just 
in the very fact that they disguise this and you don't have a 
way like on some of the legitimate music, when you buy it, you 
can click on it and they'll give you a 30 second demo so you 
know what you're buying before you click on it. Here, you have 
to click on it and download it before you know. So if they've 
disguised it as a Britney Spears song, you don't know that 
until you open up the file after it's been downloaded. Those 
are some of the dangers that we're here to explore.
    So I appreciate, Mr. Chairman, you holding this because 
this is an important protection of our children in the cyber 
age.
    Mr. Stearns. I thank my colleague. The gentleman from New 
Jersey, Mr. Ferguson.
    Mr. Ferguson. Thank you, Mr. Chairman. Thanks for holding 
this hearing on a matter that's of great concern to families 
like mine and families as we've heard across this country. The 
scourge of online pornography has allowed sexual predators bent 
on luring our children into their perverse world to enter our 
homes through our computers and the open doors of an Internet 
connection.
    A March 2003 GAO study found over 400,000 commercial 
pornography sites on the Internet and more recent estimates 
have found that the number is increasing exponentially. But 
even more disturbing than the sheer volume of Internet 
pornography outlets are the increasingly bold and pervasive 
practices by sexual predators who attempt to lure children onto 
their dangerous websites and we've heard some examples of that 
already this morning.
    As a father of three young kids, we have our fourth due 
this summer. I'm concerned. Our kids don't use the Internet 
yet, but they will. They'll have to if they're to operate in 
our world today. I'm concerned about our children's ability to 
use the Internet without being targeted by people who have 
malicious intent. I mean I have AOL. Anybody who has AOL knows 
that you get e-mails, unsolicited e-mails, you get spam e-mails 
every day with unbelievable titles and subjects and trying to 
lure you to these various sites.
    I really look forward to hearing from our witnesses today 
about what's currently being done, but really more importantly 
about what can be done, what needs to be done in the future and 
what we can do to protect our children from this kind of 
menace.
    I want to thank you again, Mr. Chairman, for holding this 
hearing. I know we have some very distinguished panelists here 
today, some of whom we know and we appreciate their work 
outside of this committee room, but certainly appreciate them 
being here today to share some of their experiences with us and 
what we can be doing in the Congress to protect our children 
across this country.
    Thanks again, Mr. Chairman, I yield back.
    Mr. Stearns. I thank my colleagues. The gentleman from New 
Hampshire, Mr. Bass.
    Mr. Bass. No opening statement.
    Mr. Stearns. No opening statement. The gentleman from 
Idaho, Mr. Otter.
    Mr. Otter. I will submit my statement.
    Mr. Stearns. By unanimous consent, so ordered.
    [Additional statement submitted for the record follow:]

Prepared Statement of Hon. Barbara Cubin, a Representative in Congress 
                       from the State of Wyoming

    Thank you, Mr. Chairman, for holding this timely hearing. Over the 
past several weeks, this subcommittee has delved into several 
concerning issues indirectly related to the constantly developing 
technology available on the Internet. Today's hearing will provide us 
with an excellent opportunity to examine what steps have been and 
should be taken to limit the availability of pornographic material via 
the Internet.
    I would also like to thank the distinguished panelists who have 
joined us today. The ladies and gentlemen who have agreed to appear 
today are top experts in their fields. I look forward to their 
testimony and first-hand insight to help this subcommittee shape a 
better understanding of what role Congress may be able to play in 
eliminating the spread of pornography via peer-to-peer file sharing 
programs.
    In the preceding weeks, this subcommittee has acquired an in-depth 
understanding of the invasive and intrusive ways our families and 
businesses can be affected by the Internet. The deceptive and 
misleading tactics pornographic websites employ to attract unwitting 
visitors to their sites cannot be tolerated, particularly when they 
seek to victimize children. Congress has acted to make the pornographic 
exploitation of children illegal, but the ever-increasing technology of 
the Internet makes the enforcement of these laws exceptionally 
difficult.
    I look forward today to uncovering what steps are being taken to 
regulate the dispersal of pornography via peer-to-peer applications. 
Similar to the issues this subcommittee has addressed in previous 
weeks, we must find a way to balance the valid, useful functions of 
peer-to-peer networking with the need to regulate the illegal and 
inappropriate uses of this technological infrastructure. I am certain 
that the experts joining us today will impart valuable insight on how 
Congress may be able to properly legislate in an effort to better 
protect America's youth.
    Thank you chairman and I yield back the balance of my time.

                                 ______
                                 
Prepared Statement of Hon. John Sullivan, a Representative in Congress 
                       from the State of Oklahoma

    Thank you Chairman for holding this hearing. This is a most 
important topic.
    Pedophiles and Internet obscenity addicts are swapping thousands of 
hardcore images of sexual abuse of women and children in a new form of 
computer obscenity that police believe is feeding a demand for more 
real-time victims of abuse.
    Children are abused. Millions of children worldwide are abused 
sexually, and then exploited further by having images and videos of the 
abuse sold online. This is abuse of the most detestable kind. Both 
obscenity and child pornography are illegal, and should be prosecuted 
to the fullest extent of the law.
    Women are exploited. Worldwide, women are trafficked across borders 
for use in this material. They are brought to the U.S. and other 
countries to be used in prostitution and for online obscenity, with 
proceeds lining the pockets of criminals and no hope in sight for their 
release from what is bondage, or modern slavery.
    This is the very definition of evil.
    Obscenity is illegal under federal law. Title 18 of the U.S. Code 
clearly states that obscenity is illegal. Further, the Supreme Court 
delineated in the landmark Miller vs. California ruling that obscenity 
is both definable and illegal under federal law.
    But resources available to police to tackle peer-to-peer obscenity 
and child porn are limited and though they are catching some offenders, 
it may take months or even years to track down the location of some 
victims. In such cases, officers monitoring the images can only watch 
as the women and children grow older and continue to be abused.
    Americans continue to believe that the Federal laws against 
Internet obscenity should be vigorously enforced, according to results 
of a recent poll conducted by Wirthlin Worldwide for Morality in Media. 
72% of Americans from all political perspectives strongly agreed that 
obscenity laws should be vigorously enforced.
    I have introduced H. Con. Res 298, a resolution stating the sense 
of the Congress that federal obscenity laws should be vigorously 
enforced throughout the United States. It is important that the House 
go on the record against this hideous abuse, as the Senate has already 
done. I will continue to work with my colleagues to see that the abuse 
of women and children through pornography and obscenity, ENDS.
    I yield back the balance of my time.

    Mr. Stearns. I think we've finished with our opening 
statements and we'll go to our first panel of witnesses. We 
have Mr. Howard Beales, Director, Bureau of Consumer 
Protection, the U.S. Federal Trade Commission, welcome. We've 
had you quite a number of times recently. We appreciate your 
attending. Mr. Keith Lourdeau, Deputy Assistant Director, 
Federal Bureau of Investigation, Cyber Division, welcome. And 
Ms. Linda Koontz, Director for Information Management Issues, 
U.S. General Accounting Office.
    And Mr. Beales, we'll start with you with your opening 
statement. Thank you.

    STATEMENTS OF J. HOWARD BEALES III, DIRECTOR, BUREAU OF 
 CONSUMER PROTECTION, U.S. FEDERAL TRADE COMMISSION; KEITH L. 
    LOURDEAU, DEPUTY ASSISTANT DIRECTOR, FEDERAL BUREAU OF 
 INVESTIGATION, CYBER DIVISION; AND LINDA D. KOONTZ, DIRECTOR 
     FOR MANAGEMENT ISSUES, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Beales. Thank you, Mr. Chairman, it's always a pleasure 
to be here. And thank you for providing the FTC with this 
opportunity to submit testimony. My written testimony 
represents the views of the Federal Trade Commission and my 
comments orally do not necessarily reflect the views of the 
Commission or any individual Commissioner.
    I'm here today to discuss the Commission's law enforcement 
efforts combatting Internet fraud and to discuss examples of 
Internet fraud cases where the fraud involves tricking 
consumers into viewing online pornography. Although the 
Internet has empowered consumers with instant access to a 
breadth of information about products and services that would 
have been unimaginable 20 years ago, fraud artists have proven 
adept at exploiting this new technology for their own gain. 
They are the ultimate early adopters of new technology and 
they've seized on the Internet as a ready vehicle to find 
victims for their scams.
    To combat these new frauds, the FTC has brought over 300 
Internet-related enforcement actions. A number of these actions 
were against alleged purveyors of online pornography. For 
example, the Commission sued John Zuccarini who registered some 
6,000 domain names that were misspellings of popular websites 
for mousetrapping consumers. In a ploy designed to capture 
teenaged and younger Internet users, Zuccarini registered, for 
example, 15 variations of the popular children's cartoonsite, 
cartoon
network.com. For example, if you typed in cartoon netwok 
instead of network, you ended at one of his sites. He also 
registered 41 variations in the name of teen pop star Britney 
Spears. Surfers who looked for a site, but misspelled the web 
address were taken to Zuccarini's sites. Once there, he took 
control of their Internet browsers and forced the consumers to 
views explicit advertisements for pornographic websites, as 
well as websites advertising gambling and psychic services. The 
obstruction was so severe in this case that consumers were 
often forced to choose between taking up the 20 minutes to 
close all the windows that opened or restarting their computer 
and losing their pre-mousetrap work.
    Mr. Zuccarini faced both our civil lawsuit as well as 
criminal prosecution by the U.S. Attorney for the Southern 
District of New York. The U.S. Attorney charged Zuccarini with 
violations of the Truth in Domain Names Act which is part of 
the Amber Alert law Congress enacted last spring. Mr. Zuccarini 
pled guilty to 49 counts of violating the act and the one count 
concerning the possession of child pornography. In February 
2004, the Court sentenced Mr. Zuccarini to 30 months in prison. 
In addition, the Commission obtained a permanent injunction 
barring Zuccarini from engaging in mousetrapping and imposing a 
$1.8 million judgment.
    Similarly, unsolicited commercial e-mail, or spam, is a 
nuisance, but is also a ready source of fraud, including 
fraudulent methods that expose children to pornography. In a 
recent case against a spammer, the Commission alleged that the 
defendant sent e-mail messages claiming that the consumer had 
won a free Sony PlayStation 2 or other prize through a 
promotion that was purportedly sponsored by Yahoo. It was 
another ploy that was particularly attractive to children. 
Instead, in five mouse clicks you ended up on a pornographic 
website connected to a 900 number and being charged $4 a 
minute. The Commission obtained a Court order to end this 
practice.
    As the name of the CAN-SPAM Act implies addressing the 
abuses inflicted on the American public by purveyors of 
pornography was one of Congress' primary purposes in passing 
the legislation.
    The Act directed the FTC to adopt a rule requiring a mark 
or notice to be included in spam containing sexually oriented 
material. The purpose of the notice is to inform recipients and 
to make it easier to filter out messages that recipients do not 
wish to receive.
    Our final rule requires that the phrase ``sexually 
explicit:'' to be included in spam that includes either visual 
images or written descriptions of sexually explicit conduct. 
The rule requires this phrase both in the subject line and in 
the electronic equivalent of a brown paper wrapper in the body 
of the message. This brown paper wrapper must be viewed before 
the user if it encounters any other information or images.
    The rule's effective date is May 19 of this year, so 
starting then failure to include the warning will result in 
fines for violating the FTC AcT or Federal criminal 
prosecution.
    As documented by reports from the General Accounting Office 
and the House Committee on Government Reform, another source of 
pornographic content online is peer-to-peer file sharing 
software. P2P file sharing software enables users to exchange 
files with other users. The FTC has engaged in educational 
efforts to assist consumers in protecting themselves from the 
risk of harm when they're downloading and using this 
technology.
    To warn consumers, and particularly parents, about the risk 
that P2P software can pose, in July 2003, the FTC issued a 
consumer alert. In this alert, the Commission warned consumers 
that file sharing software may be used to exchange pornography 
as well as games, videos and music that may be inappropriate 
for children. The FTC also alerted consumers to the security 
risks of improperly configuring P2P file sharing software 
including the risk that sensitive personal files inadvertently 
may be disclosed.
    We will continue to take action against fraud artists who 
use technology to trap consumers into viewing sexually explicit 
content. In just a few weeks, the CAN-SPAM rulemaking requiring 
clear notice to consumers will take effect and those who use e-
mail to send such content had better take notice themselves.
    Thank you, and I look forward to answering any questions.
    [The prepared statement of J. Howard Beales III follows:]

   Prepared Statement of Howard Beales, Director, Bureau of Consumer 
                  Protection, Federal Trade Commission
 
   Mr. Chairman and members of the Committee, I am Howard Beales, 
Director of the Bureau of Consumer Protection, Federal Trade Commission 
(``Commission'' or ``FTC'').<SUP>1</SUP> I appreciate this opportunity 
to provide the Commission's views on peer-to-peer file-sharing and 
protecting consumers online. This testimony, among other things, 
addresses the Commission's law enforcement actions against fraud 
artists whose deceptive or unfair practices involve exposing consumers, 
including children,<SUP>2</SUP> to unwanted pornography on the 
Internet.<SUP>3</SUP> The testimony also recognizes that some peer-to-
peer file sharing services, as opposed to other content providers that 
operate their own networks, may not provide sufficient opportunities 
for labeling or other controls that parents may find useful in 
protecting their children from objectionable content.
---------------------------------------------------------------------------
    \1\ The written statement presents the views of the Federal Trade 
Commission. Oral statements and responses to questions reflect my views 
and not necessarily those of the Commission or any individual 
Commissioner.
    \2\ As the Committee is aware, the Commission also enforces the 
Children's Online Privacy Protection Rule, which requires Web sites, 
primarily those directed to children, to obtain parental consent before 
collecting personal information from children under the age of 13. Our 
enforcement and education efforts under this Rule are not addressed in 
the testimony.
    \3\ The Commission has brought cases involving unfair or deceptive 
acts or practices related to the dissemination of online pornography to 
adults. See, e.g., FTC v. Brian D. Westby (FTC File No. 032 3030; Case 
No. 03 C 2540; ND IL; filed Apr. 15, 2003; released Apr. 17, 2003).
---------------------------------------------------------------------------
    The Federal Trade Commission is the federal government's principal 
consumer protection agency. Congress has directed the Commission, under 
the FTC Act, to take law enforcement action against ``unfair or 
deceptive acts or practices'' in almost all sectors of the economy and 
to promote vigorous competition in the marketplace.<SUP>4</SUP> With 
the exception of certain industries and activities, the FTC Act 
provides the Commission with broad investigative and enforcement 
authority over entities engaged in, or whose business affects, 
commerce.<SUP>5</SUP> The FTC Act also authorizes the Commission to 
conduct studies and collect information, and, in the public interest, 
to publish reports on the information it obtains.<SUP>6</SUP>
---------------------------------------------------------------------------
    \4\ 15 U.S.C.  45.
    \5\ In addition to the FTC Act, the Commission also has 
responsibility under 46 additional statutes governing specific 
industries and practices.
    \6\ 15 U.S.C.  46(b) and (f). Section 46(f) of the FTC Act 
provides that ``the Commission shall also have the power . . . to make 
public from time to time such portions of the information obtained by 
it hereunder as are in the public interest; and to make annual and 
special reports to Congress . . .''
---------------------------------------------------------------------------
    Although the Internet has empowered consumers with instant access 
to a breadth of information about products and services that would have 
been unimaginable 20 years ago, fraud artists also have proven adept at 
exploiting this new technology for their own gain. They are the 
ultimate ``early adopters'' of new technology. And, they have seized on 
the Internet as a ready vehicle to find victims for their scams. In 
fact, the Commission's consumer complaint data show that consumers 
increasingly report the Internet as the initial point of contact for 
fraud, and that the Internet has now outstripped the telephone as the 
source of first contact for fraud.
    Many of these frauds are simply online variations of familiar, 
offline scams. To combat these new frauds, the FTC has brought over 300 
Internet-related enforcement actions, including actions against alleged 
purveyors of online pornography. For example, the Commission sued John 
Zuccarini, who registered some 6,000 domain names that were 
misspellings of popular Web sites, for ``mousetrapping'' 
consumers.<SUP>7</SUP> In a ploy designed to capture teenaged and 
younger Internet users, Zuccarini registered 15 variations of the 
popular children's cartoon site, www.cartoon
network.com, (e.g., ``cartoon netwok'' instead of ``cartoon network'') 
and 41 variations on the name of teen pop star, Britney Spears. The 
Commission alleged in its complaint that surfers who looked for a site, 
but misspelled its Web address, were taken to the defendant's sites. 
Once consumers arrived, Zuccarini's Web sites were programmed to take 
control of their Internet browsers and force the consumers to view 
explicit advertisements for pornographic Web sites, as well as Web 
sites advertising gambling and psychic services. The obstruction 
allegedly was so severe in this case that consumers often were forced 
to choose between taking up to twenty minutes to close out all of the 
Internet windows, or turning off their computers, and losing all of 
their ``pre-mousetrap'' work.
---------------------------------------------------------------------------
    \7\ FTC v. John Zuccarini, No. 01-CV-4854 (E.D. Pa. 2002).
---------------------------------------------------------------------------
    After being sued, Mr. Zuccarini disappeared. Fortunately, as a 
result of a cooperative working relationship between the FTC and the 
United States Attorney's Office for the Southern District of New York, 
Mr. Zuccarini was arrested in a south Florida hotel room.<SUP>8</SUP> 
The U.S. Attorney's Office issued an indictment charging Zuccarini with 
violations of the Truth in Domain Names Act.<SUP>9</SUP> He pled guilty 
to 49 counts of violating the Act and to one count concerning the 
possession of child pornography. In February 2004, the court sentenced 
Mr. Zuccarini to 30 months in prison. In addition, the Commission 
obtained a permanent injunction barring Zuccarini from engaging in 
mousetrapping and imposing a $1.8 million judgment.<SUP>10</SUP>
---------------------------------------------------------------------------
    \8\ Benjamin Weiser, Spelling It `Dinsey,' Children on Web Got XXX, 
N.Y. Times, Sept. 4, 2003,  B (Late Edition), at 1. At the time of his 
arrest, Mr. Zuccarini was surrounded by computer equipment and cash, 
all of which was seized by criminal authorities. A United States Postal 
Inspector served him with the Final Court Order in the Commission's 
case.
    \9\ The Truth in Domain Names Act makes it unlawful to knowingly 
use a misleading domain name with the intent to attract a minor into 
viewing a visual depiction of sexually explicit conduct on the 
Internet. See 18 U.S.C.  2252(B)(b). This Act is contained in the new 
``Amber Alert'' law enacted in 2003.
    \10\ See www.ftc.gov/opa/2002/05/cupcake.htm.
---------------------------------------------------------------------------
    Similarly, unsolicited commercial email, or spam, is a nuisance, 
but it is also a ready source of fraud, including the fraudulent means 
to expose children to pornography. In a recent case against a spammer, 
the Commission alleged that the defendant sent email messages claiming 
that consumers had won a free Sony PlayStation 2 or other prize through 
a promotion purportedly sponsored by Yahoo, Inc., another ploy 
particularly attractive to children.<SUP>11</SUP> The Commission 
alleged that the Web site link contained in the email instead directed 
consumers first to a Web page that imitated the authentic Yahoo Web 
page. The imitation Yahoo Web site instructed consumers to download a 
program that supposedly would allow them to connect ``toll-free'' to a 
Web site where they could enter their name and address to claim their 
PlayStation 2. Consumers who followed the instructions were connected 
to a pornographic Web site through a 900-number, where they incurred 
charges of up to $3.99 per minute. The Commission obtained orders 
barring the spammers from sending any email that misrepresents the 
identity of the sender or the subject of the email. The Commission also 
obtained a settlement with the company that created the modem software 
used by the spammers in this scheme which includes the requirement that 
it pay $25,000 in alleged ill-gotten gains.<SUP>12</SUP>
---------------------------------------------------------------------------
    \11\ FTC v. BTV Industries, No. CV S-03-1306-LRH-RJJ (D. Nev. 
2004).
    \12\ Id. The FTC's complaint against the software company, BTV 
Industries, and its principals, Rik Covell and Adam Lewis, alleges that 
the defendants violated the FTC's 900-Number Rule by failing to 
disclose clearly to consumers using their software that they would be 
connected to the Internet through a 900-number and would incur charges 
of up to $3.99 per minute. The settlement permanently bars the 
defendants from failing to disclose the cost of accessing any 900-
number pay-per-call service, as well as from misrepresenting that 
consumers have won a prize, that consumers will be connected to any Web 
site toll-free, and that any of BTV's products or services are 
associated with a third party.
---------------------------------------------------------------------------
    As the name of the CAN-SPAM Act implies (Controlling the Assault of 
Non-Solicited Pornography and Marketing Act), addressing the abuses 
inflicted on the American public by purveyors of pornography was one of 
Congress' primary purposes in passing that legislation.
    Section 5(d) of the CAN-SPAM Act <SUP>13</SUP> directed the Federal 
Trade Commission to adopt a rule requiring a mark or notice to be 
included in spam that contains sexually oriented material. The purpose 
of the notice is to inform recipients that a spam message contains 
sexually oriented material and to make it easier to filter out messages 
that recipients do not wish to receive.
---------------------------------------------------------------------------
    \13\ 15 U.S.C.  7704(d).
---------------------------------------------------------------------------
    The FTC's final rule prescribes the phrase ``SEXUALLY-EXPLICIT:'' 
as the mark or notice mandated by the CAN-SPAM Act <SUP>14</SUP> to be 
included in spam that includes either visual images or written 
descriptions of sexually explicit conduct.<SUP>15</SUP> The final rule 
follows the intention of the CAN-SPAM Act to protect email recipients 
from exposure to unwanted sexual images in spam, by requiring this mark 
to be included both in the subject line of any email message that 
contains sexually oriented material and in the electronic equivalent of 
a ``brown paper wrapper'' in the body of the message. This ``brown 
paper wrapper'' is what a recipient initially will see when opening a 
message containing sexually oriented material. The ``brown paper 
wrapper'' will include the prescribed mark or notice, certain other 
specified information, and no other information or images.
---------------------------------------------------------------------------
    \14\ The Commission published a notice of proposed rulemaking in 
the Federal Register on January 29, 2004, and accepted comments until 
February 17, 2004. The Commission received 89 comments, mostly from 
individual consumers applauding the Commission's proposal and 
expressing their concern about pornographic email to which they and 
their children were being subjected. The final rule also excludes 
sexually oriented materials from the subject line of a sexually 
explicit email message.
    \15\ CAN-SPAM defines ``sexually explicit conduct'' by reference to 
the Sexual Exploitation and Other Abuse of Children Act (``Abuse of 
Children Act''), 18 U.S.C. Section 2256, which in turn defines this 
phrase to mean ``actual or simulated--(i) sexual intercourse, including 
genital-genital, oral-genital, anal-genital, or oral-anal, whether 
between persons of the same or opposite sex; (ii) bestiality; (iii) 
masturbation; (iv) sadistic or masochistic abuse; or (v) lascivious 
exhibition of the genitals or pubic area of any person.''
---------------------------------------------------------------------------
    The Rule's effective date is May 19, 2004, so starting then, 
senders of spam email that contains sexually oriented material must 
include the warning ``SEXUALLY-EXPLICIT: '' in the subject line or face 
fines for violating the FTC Act or federal criminal law.<SUP>16</SUP>
---------------------------------------------------------------------------
    \16\ 18 U.S.C. Section 2256. The Department of Justice enforces 
Section 2256.
---------------------------------------------------------------------------
    As documented by reports from the General Accounting Office and the 
House Committee on Government Reform,<SUP>17</SUP> another distribution 
channel for pornographic content online is Peer-to-Peer (P2P) file-
sharing software. P2P file-sharing software enables individual users to 
exchange files with other users. The FTC has engaged in educational 
efforts to assist consumers in protecting themselves from the risk of 
harm when they are downloading and using P2P file-sharing technology.
---------------------------------------------------------------------------
    \17\ See infra note 27.
---------------------------------------------------------------------------
    To warn consumers, including parents, about the risk that P2P 
software can pose, including the risk of exposure to online 
pornography, in July 2003, the FTC issued a consumer alert entitled, 
``File-Sharing: A Fair Share? Maybe Not.'' <SUP>18</SUP> In this alert, 
the Commission warned consumers that P2P file-sharing software may be 
used to exchange pornography, as well as games, videos, and music that 
may be inappropriate for children. The FTC also alerted consumers to 
the security risks of improperly configuring P2P file-sharing software, 
including the risk that sensitive personal files inadvertently may be 
disclosed.<SUP>19</SUP>
---------------------------------------------------------------------------
    \18\ See ``File-Sharing: A Fair Share? Maybe Not,'' at www.ftc.gov/
bcp/conline/pubs/alerts/share
alrt.htm.
    \19\ In April 2004, the Commission likewise alerted businesses to 
the potential security risks of P2P file-sharing programs. The Council 
of Better Business Bureaus, with the cooperation of the Commission and 
the National Cyber Security Alliance, produced and widely distributed a 
brochure that provides a checklist of recommendations to help large and 
small businesses improve their computer security, and specifically 
alerts businesses to the possible risks associated with file-sharing 
programs.
---------------------------------------------------------------------------
    The Commission also recently examined other implications of P2P 
file-sharing software at its workshop entitled ``Monitoring Software on 
Your PC: Spyware, Adware, and Other Software'' held on April 19, 
2004.<SUP>20</SUP> This workshop was designed to provide us with 
information about the nature and extent of the problems related to 
spyware.<SUP>21</SUP>
---------------------------------------------------------------------------
    \20\ 69 Fed. Reg. 8538 (Feb. 24, 2004), at www.ftc.gov/os/2004/02/
040217spywareworkshop
frn.pdf.
    \21\ For the purposes of the workshop, the FTC staff tentatively 
described spyware as ``software that aids in gathering information 
about a person or organization without their knowledge and which may 
send such information to another entity without the consumer's consent, 
or asserts control over a computer without the consumer's knowledge.'' 
69 Fed. Reg. 8538 (Feb. 24, 2004), at www.ftc.gov/os/2004/02/
040217spywareworkshopfrn.pdf.
---------------------------------------------------------------------------
    The testimony at the workshop and the public comments received 
provide us with some insight concerning the relationship between P2P 
file-sharing technology and the distribution of spyware.<SUP>22</SUP> 
Workshop participants generally agreed that spyware often is bundled 
with free software applications, including P2P file-sharing software. 
In addition, participants noted that distributors of the free 
software--including the disseminators of P2P file-sharing 
applications--may not adequately disclose the bundling of spyware with 
the free software.
---------------------------------------------------------------------------
    \22\ The FTC received 200 comments about spyware by the time of the 
workshop, and public comment on this topic will be accepted until May 
21, 2004. Public comments are posted on the FTC's Web site at 
www.ftc.gov/bcp/workshops/spyware/index.htm#comments.
---------------------------------------------------------------------------
    Some have suggested restricting the downloading of P2P file-sharing 
software applications to combat the distribution of spyware. 
Participants at the workshop, however, emphasized that P2P file-sharing 
technology itself is neutral--but some participants argued that 
software applications may create harms for consumers. Accordingly, 
participants generally expressed the view that government and industry 
responses should focus on the spyware software that itself has adverse 
effects on consumers.
    The Commission will continue to review the information from the 
workshop and related comments. Later this year, the FTC will issue a 
comprehensive report addressing spyware, including the relationship 
between P2P file-sharing software and spyware.
    The FTC also has studied the effect of P2P file-sharing software in 
connection with its long-standing oversight of the marketing of violent 
entertainment to children. Since September 2000, the Commission has 
monitored the marketing of violent entertainment products to children 
by the motion picture, music recording, and electronic games 
industries. The FTC has issued four reports setting forth its 
findings.<SUP>23</SUP>
---------------------------------------------------------------------------
    \23\ See, e.g., ``Marketing Violent Entertainment to Children: A 
Review of Self-Regulation and Industry Practices in the Motion Picture, 
Music Recording & Electronic Game Industries'' (Sept. 2000). To date, 
the Commission has issued three follow-up reports--in April and 
December of 2001, and in June of 2002.
---------------------------------------------------------------------------
    In connection with its ongoing review of these industries, the 
Commission staff recently examined four popular P2P file-sharing 
services to assess what online disclosures, if any, were made regarding 
the content of individual files shared by users of these 
services.<SUP>24</SUP> The four services examined offer consumers the 
ability to download free software that enables them to share files, 
including music downloads, with other users.<SUP>25</SUP> The files do 
not reside in a central location, but rather are stored on the hard 
drives of the users of the software. None of the P2P file-sharing 
services themselves label or otherwise provide notice about the content 
of any file. Instead, each user of a particular P2P file-sharing 
program places files in a shared folder on his or her own hard drive 
and thus can label or designate the file in any manner he or she 
chooses. Accordingly, each file, if labeled or otherwise described as 
having explicit content, would have been labeled by the individual 
user.
---------------------------------------------------------------------------
    \24\ These file-sharing software services reviewed were Kazaa, 
Morpheus, LimeWire, and Overnet.
    \25\ Such services may enable users to upload or download 
copyrighted recordings without first obtaining permission from the 
copyright holder.
---------------------------------------------------------------------------
    Each of the P2P file-sharing programs offered some type of filter 
to exclude unwanted content. Kazaa and LimeWire provided filters that 
blocked access to materials that contained offensive or otherwise 
adult-content related words in the description of the file. In 
addition, all four services gave users the ability to create their own 
filters by manually entering all the words that they wanted blocked 
from search results. All of these filters, however, operate by only 
examining language found in the title or descriptor of the file, rather 
than the content of the file.<SUP>26</SUP> Moreover, these filters may 
not be effective when users label files inaccurately, which can result 
in the transfer of files with pornographic or other unwanted 
content.<SUP>27</SUP>
---------------------------------------------------------------------------
    \26\ For example, music recordings that have been designated with a 
parental advisory by a recording company would be blocked by the filter 
only if a word in the title or descriptor of the file happened to be 
offensive. A recording company may have decided to apply the Parental 
Advisory Label to a particular recording for any number of reasons 
other than the presence of offensive words in the title.
    \27\ See, e.g., ``File-Sharing Programs: Peer-to-Peer Networks 
Provide Ready Access to Child Pornography,'' General Accounting Office 
Report to the Chairman and Ranking Minority Member, Committee on 
Government Reform, U.S. House of Representatives (Feb. 2003); and 
``Children's Access to Pornography Through Internet File-Sharing 
Programs,'' prepared for Rep. Henry A. Waxman and Rep. Steve Largent by 
Minority Staff, Special Investigations Division, Committee on 
Government Reform, U.S. House of Representatives (July 27, 2001).
---------------------------------------------------------------------------
                               CONCLUSION

    The FTC thanks the Subcommittee for this opportunity to describe 
how the Commission has used its authority under of Section 5 of the FTC 
Act to attack deceptive and unfair practices in the distribution of 
online pornography.

    Mr. Stearns. I thank the gentleman. Welcome and your 
opening statement.

                 STATEMENT OF KEITH L. LOURDEAU

    Mr. Lourdeau. Good morning, Chairman Stearns, and other 
members of the subcommittee. On behalf of the FBI, I would like 
to thank you for this opportunity to address the FBI's role in 
combatting the exploitation of children from the use of peer-
to-peer networks.
    The FBI's Innocent Images National Initiative is comprised 
of 2800 undercover operations. These operations involve FBI 
Agents online in an undercover capacity to seek child predators 
and individuals responsible for production and dissemination 
and possession of child pornography. This is accomplished by 
using a variety of techniques to include purchasing child 
pornography from commercial websites, creating online personas 
to chat in predator chat rooms and co-opting predators e-mail 
accounts. The Innocent Images has grown exponentially between 
fiscal year 1996 and 2003 with a 2,050 percent increase in 
cases opened.
    Between fiscal year 1996 and 2003, Innocent Images has 
recorded over 10,510 cases opened. Recently peer-to-peer 
networks were identified as a growing problem in dissemination 
of child pornography. A GAO report published in September of 
2003 indicated a fourfold increase in reports complaining of 
child pornography in peer-to-peer networks. In 2001, the FBI 
received 156 complaints about child pornography in peer-to-peer 
networks. By 2002, the number of complaints had risen to 757.
    This increase may be attributable among other things, the 
popularity of peer-to-peer networks, as well as the overall 
increase of child pornography available on the Internet. These 
programs are free and are easy to install. In May of 2003, 
Sharman Networks, a developer of a very popular file sharing 
program reported that their software had been downloaded more 
than 230 million times. This software and other file sharing 
programs like it allow users to share files with anyone on the 
network. This creates an environment of relative anonymity 
among users. However, this anonymity is also perceived. Users 
are not truly anonymous. Using peer-to-peer software users' 
computers connect directly to one another to share files 
without going through a central server.
    Mr. Stearns. Mr. Lourdeau, just push the microphone a 
little closer to you. There are some real nuances that you're 
saying we want to make sure we get. Go ahead, thanks.
    Mr. Lourdeau. Nevertheless, each time a computer accesses 
the Internet it is associated with an Internet protocol or IP 
address. Therefore, despite the fact that a peer-to-peer 
connection is not facilitated by a central server, users can 
still be identified in real time by the IP addresses associated 
with their computers. IP addresses are the only way to 
definitely identify a particular user on a peer-to-peer 
network. In this environment, users of peer-to-peer often 
believe they are anonymous. There is some degree of truth in 
this assertion as peers in the networks are anonymous to each 
other. That being said, they are not anonymous to law 
enforcement. Through the use of covert investigative 
techniques, administrative subpoenas, Agents can determine 
which individual users possess and distribute child pornography 
over these networks. Utilizing search warrants, interviews and 
computer forensic tools, Agents can strengthen their cases and 
these individuals are eventually indicted and prosecuted.
    During the initial phases of several peer-to-peer 
investigations, Agents have determined peer-to-peer networks 
are one of many Internet havens for the open distribution of 
child pornography. Several of the individuals using peer-to-
peer networks to distribute child pornography, openly describe 
content of the material they share as illegal. This further 
contributes to the feeling of anonymity in these networks and 
leads users to become even more brazen in their conduct.
    To combat this, the FBI has created an investigative 
protocol for peer-to-peer investigations to begin aggressively 
apprehending offenders. After developing peer-to-peer 
investigative protocol, the Department of Justice's Child 
Exploitation and Obscenity Section, a number of cases were 
initiated to determine the technique's viability. Detailed 
discussion of these cases could possibly jeopardize on-going 
investigations, however, I'd like to assure the subcommittee 
that the FBI is aggressively pursuing the trade of child 
pornography on peer-to-peer networks.
    In these investigations, Agents have found child 
pornography to be readily available using most basic of search 
terms. Often child pornography was easily available when 
innocuous search terms were used such as Britney Spears, or the 
word young. The FBI recently started a new initiative with 
America's Most Wanted where photographs of unidentified 
subjects involving child pornography are aired on the program. 
John Doe arrest warrants are obtained and the unknown subjects 
when located are arrested for their crimes. The FBI has 
received outstanding support from the public in this 
initiative.
    The FBI, along with our law enforcement and private 
industry partners, continue to combat the crime problem of 
child pornography over the Internet. We have and continue to 
target websites which host child pornography, Internet news 
groups, file servers and subjects who utilize peer-to-peer file 
sharing programs who exchange child pornography.
    In closing, the FBI looks forward to working with other law 
enforcement agencies, private industry and the Department of 
Justice in continuing to combat this major crime problem. The 
protection of our children requires the combined efforts of all 
sectors of our society.
    I would like to thank Chairman Stearns and the committee 
for the privilege to be here before you and I'll answer any 
questions. Thank you.
    [The prepared statement of Keith L. Lourdeau follows:]

  Prepared Statement of Keith L. Lourdeau, Deputy Assistant Director, 
                    Federal Bureau of Investigation

                  INNOCENT IMAGES NATIONAL INITIATIVE

    The Innocent Images National Initiative (IINI), a component of 
FBI's Cyber Crimes Program, is an intelligence driven, proactive, 
multi-agency investigative initiative to combat the proliferation of 
child pornography/child sexual exploitation (CP/CSE) facilitated by an 
online computer. The IINI provides centralized coordination and 
analysis of case information that by its very nature is national and 
international in scope, requiring unprecedented coordination with 
state, local, and international governments, and among FBI field 
offices and Legal Attaches.
    Today computer telecommunications have become one of the most 
prevalent techniques used by pedophiles to share illegal photographic 
images of minors and to lure children into illicit sexual 
relationships. The Internet has dramatically increased the access of 
the preferential sex offenders to the population they seek to victimize 
and provides them greater access to a community of people who validate 
their sexual preferences.
    The mission of the IINI is to reduce the vulnerability of children 
to acts of sexual exploitation and abuse which are facilitated through 
the use of computers; to identify and rescue witting and unwitting 
child victims; to investigate and prosecute sexual predators who use 
the Internet and other online services to sexually exploit children for 
personal or financial gain; and to strengthen the capabilities of 
federal, state, local, and international law enforcement through 
training programs and investigative assistance.

        THE HISTORY OF THE INNOCENT IMAGES NATIONAL INITIATIVE:

    While investigating the disappearance of a juvenile in May 1993, 
FBI Special Agents and Prince George's County, Maryland, Police 
detectives identified two suspects who had sexually exploited numerous 
juveniles over a 25-year period. Investigation into these activities 
determined that adults were routinely utilizing computers to transmit 
sexually explicit images to minors, and in some instances to lure 
minors into engaging in illicit sexual activity. Further investigation 
and discussions with experts, both within the FBI and in the private 
sector, revealed that the utilization of computer telecommunications 
was rapidly becoming one of the most prevalent techniques by which some 
sex offenders shared pornographic images of minors and identified and 
recruited children into sexually illicit relationships. In 1995, based 
on information developed during this investigation, the Innocent Images 
National Initiative was started to address the illicit activities 
conducted by users of commercial and private online services and the 
Internet.
    The IINI is managed by the Innocent Images Unit within the FBI's 
Cyber Division at FBI Headquarters in Washington, DC. Innocent Images 
field supervisors and investigative personnel work closely with the 
Innocent Images Unit regarding all IINI investigative, administrative, 
policy, and training matters. The IINI provides a coordinated FBI 
response to this nationwide crime problem by collating and analyzing 
information obtained from all available sources.
    Today the FBI's Innocent Images National Initiative focuses on:

 Online organizations, enterprises, and communities that exploit 
        children for profit or personal gain.
 Individuals who travel, or indicate a willingness to travel, for the 
        purpose of engaging in sexual activity with a minor.
 Producers of child pornography.
 Major distributors of child pornography, such as those who appear to 
        have transmitted a large volume of child pornography via an 
        online computer on several occasions to several other people.
 Possessors of child pornography.
    The FBI and the Department of Justice review all files and select 
the most egregious subjects for prosecution. In addition, the IINI 
works to identify child victims and obtain appropriate services/
assistance for them and to establish a law enforcement presence on the 
Internet that will act as a deterrent to those who seek to sexually 
exploit children.

         THE GROWTH OF THE INNOCENT IMAGES NATIONAL INITIATIVE:

    Over the last several years, the FBI, local and state law 
enforcement, and the public has developed an increased awareness of the 
CP/CSE crime problem and more incidents of online CP/CSE are being 
identified for investigation than ever before. In fact, currently more 
personnel resources are expended towards violations worked under the 
IINI than any other program within the FBI's Cyber Division. Between 
fiscal years 1996 and 2003, there was a 2050% increase in the number of 
IINI cases opened (113 to 2430) throughout the FBI. It is anticipated 
that the number of cases opened and the resources utilized to address 
the crime problem will continue to rise.
    The increase in Innocent Images investigations demonstrated the 
need for a mechanism to track subject transactions and to correlate the 
seemingly unrelated activities of thousands of subjects in a cyberspace 
environment. As a result, the Innocent Images case management system 
was developed and has proven to be an effective system to archive and 
retrieve the information necessary to identify and target priority 
subjects. All relevant data obtained during an undercover session is 
loaded into the Innocent Images case management system where it is 
updated, reviewed, and analyzed on a daily basis to identify priority 
subjects.

          INNOCENT IMAGES NATIONAL INITIATIVE INVESTIGATIONS:

    IINI undercover operations are being conducted in several FBI field 
offices by task forces that combine the resources of the FBI with other 
federal, state and local law enforcement agencies. Each of the FBI's 56 
field offices has worked investigations developed by the IINI. 
International investigations are coordinated through the FBI's Legal 
Attache program, which coordinates investigations with the appropriate 
foreign law enforcement. IINI investigations are also coordinated with 
Internet Crimes Against Children (ICAC) Task Forces, which are funded 
by the Department of Justice. Furthermore, IINI training is provided to 
all law enforcement involved in these investigations, including 
federal, state, local, and foreign law enforcement agencies.
    During the early stages of Innocent Images, a substantial amount of 
time was spent conducting investigations on commercial online service 
providers that provide numerous easily accessible ``chat rooms'' in 
which teenagers and pre-teens can meet and converse with each other. By 
using chat rooms, children can chat for hours with unknown individuals, 
often without the knowledge or approval of their parents. Investigation 
revealed that computer-sex offenders utilized the chat rooms to contact 
children as a child does not know whether he or she is chatting with a 
14-year-old or a 40-year-old. Chat rooms offer the advantage of 
immediate communication around the world and provide the pedophile with 
an anonymous means of identifying and recruiting children into sexually 
illicit relationships.
    Innocent Images has expanded to include investigations involving 
all areas of the Internet and online services including:

 Internet websites that post child pornography
 Internet News Groups
 Internet Relay Chat (IRC) Channels
 File Servers (``FServes'')
 Bulletin Board Systems (BBSs)
 Peer-to-Peer (P2P) file-sharing programs
    FBI Agents and task force officers go online undercover into 
predicated locations utilizing fictitious screen names and engaging in 
real-time chat or E-mail conversations with subjects to obtain evidence 
of criminal activity. Investigation of specific online locations can be 
initiated through:

 A citizen complaint
 A complaint by an online service provider
 A referral from a law enforcement agency
 The name of the online location (such as a chat room) can suggest 
        illicit activity
    The FBI has taken the necessary steps to ensure that the Innocent 
Images National Initiative remains viable and productive through the 
use of new technology and sophisticated investigative techniques, 
coordination of the national investigative strategy and a national 
liaison initiative with a significant number of commercial and 
independent online service providers. The Innocent Images National 
Initiative has been highly successful. It has proven to be a logical, 
efficient and effective method to identify and investigate individuals 
who are using the Internet for the sole purpose of sexually exploiting 
children.
    The National Center for Missing and Exploited Children (NCMEC) 
operates a CyberTipline at www.cybertipline.com that allows parents and 
children to report child pornography and other incidents of sexual 
exploitation of children by submitting an online form. The NCMEC also 
maintains a 24-hour hotline of 1-800-THE-LOST and a website at 
www.missingkids.com.
    Complaints received by the NCMEC that indicate a violation of 
federal law are referred to the FBI for appropriate action. A FBI 
Supervisory Special Agent and four Investigative Analysts (IA) are 
assigned full-time at the NCMEC to assist with these complaints. The 
IAs review and analyze information received by the NCMEC's 
CyberTipline. The IAs conduct research and analysis in order to 
identify individuals suspected of any of the following: possession, 
manufacture and/or distribution of child pornography; online enticement 
of children for sexual acts; child sexual tourism; and/or other sexual 
exploitation of children. The IAs utilize various Internet tools and 
Administrative Subpoenas in their efforts to identify individuals who 
prey on children. Once a potential suspect has been identified, the IAs 
compile an investigative packet that includes the applicable 
CyberTipline reports, subpoena results, public records search results, 
the illegal images associated with the suspect, and a myriad of other 
information that is forwarded to the appropriate FBI field office.

              INNOCENT IMAGES STATISTICAL ACCOMPLISHMENTS:

    Between fiscal years 1996-2004 (2nd Quarter), the Innocent Images 
National Initiative has recorded the following statistical 
accomplishments:

Number of Cases Opened.....................................      11,855
Number of Informations/Indictments.........................       3,358
Number of Arrests/Locates/Summons..........................       3,682
Number of Convictions/Pretrial Diversions..................       3,316
 

    The FBI's Innocent Images National Initiative is comprised of 
twenty-eight Under-Cover Operations. These operations involve FBI 
Agents on-line in an undercover capacity to seek child predators and 
individuals responsible for the production, dissemination, and 
possession of child pornography. This is accomplished by using a 
variety of techniques, to include purchasing child pornography from 
commercial web sites, creating on-line personas to chat in predicated 
chat rooms, and co-opting predators' e-mail accounts. Innocent Images 
has grown exponentially between fiscal year 1996 and 2003 with a 2050% 
increase in cases opened (113 to 2430). Between fiscal year 1996 and 
2003, Innocent Images has recorded over 10,510 cases opened.
    Recently, Peer-to-Peer networks were identified as a growing 
problem in the dissemination of child pornography. A GAO report 
published in September of 2003 indicated a four-fold increase in 
reports complaining of child pornography in Peer-to-Peer networks. In 
2001, the FBI received 156 complaints about child pornography in Peer-
to-Peer networks. By 2002, the number of complaints had risen to 757. 
This increase may be attributable to, among other things, the 
popularity of Peer-to-Peer networks, as well as the overall increase in 
child pornography available on the Intenet. These programs are free and 
are easy to install. In May of 2003, Sharman Networks, the developer of 
a very popular file sharing program, reported that their software had 
been downloaded more than 230 million times. This software and other 
file sharing programs like it, allow users to share files with anyone 
on the network. This creates an environment of relative anonymity 
amongst users however, this anonymity is only perceived, users are not 
truly anonymous.
    Using Peer-to-Peer software, users' computers connect directly to 
one another to share files, without going through a central server. 
Nevertheless, each time a computer accesses the Internet, it is 
associated with an internet protocol, or ``IP'' address. Therefore, 
despite the fact that a Peer-to-Peer connection is not facilitated by a 
central server, users can still be identified in real time by the IP 
addresses associated with their computers.
    IP addresses are the only way to definitively identify a particular 
user on a Peer-to-Peer network. In this environment, users of Peer-to-
Peer often believe they are anonymous. There is some degree of truth in 
this assertion as peers in these networks are anonymous to each other. 
That being said, they are NOT anonymous to law enforcement. Through the 
use of covert investigative techniques and administrative subpoenas, 
Agents can determine which individual users possess and distribute 
child pornography over these networks. Utilizing search warrants, 
interviews, and computer forensic tools, Agents can strengthen their 
cases and these individuals are eventually indicted and prosecuted.
    Agents have determined Peer-to Peer networks are one of many 
Internet havens for the open distribution of child pornography. Several 
of the individuals using Peer-to-Peer networks to distribute child 
pornography openly describe the content of the material they share as 
``illegal''. This further contributes to the feeling of anonymity in 
these networks and leads users to become even more brazen in their 
conduct.
    To combat this, the FBI has created an investigative protocol for 
Peer-to-Peer investigations to begin aggressively apprehending 
offenders. After developing a Peer-to-Peer investigative protocol with 
the Department of Justice's Child Exploitation and Obscenity Section , 
a number of cases were initiated to determine the techniques viability. 
Detailed discussion of these cases could possible jeopardize ongoing 
investigations, however, I would like to assure this subcommittee that 
the FBI is aggressively pursuing the trading of child pornography on 
Peer-to-Peer networks.
    In these investigations, Agents have found child pornography to be 
readily available using the most basic of search terms. Often, child 
pornography was easily available when innocuous search terms were used, 
such as 'Brittney Spears' or the word 'young'.
    Additionally, the FBI is exploring the possibility of working with 
Peer-to-Peer software clients to allow them to more effectively warn 
users against the possession, distribution, or production of child 
pornography. These industry members may also be interested in placing 
icons or a pop-up link from their home page regarding subjects wanted 
by the FBI for exploitation of children by use of the Internet.
    While these efforts may not prevent someone from downloading the 
material in question, it will put the user on notice that they are, 
more than likely, violating the law. These efforts will also assist 
investigations as it will eliminate the ability of the subject to claim 
ignorance of the law.
    In closing, the FBI looks forward to working with other Law 
Enforcement agencies, private industry, and the Department of Justice 
in continuing to combat this major crime problem. The protection of our 
children requires the combined efforts of all sectors of our society. I 
would like to thank Chairman Stearns and the committee for the 
privilege to appear before you and for your interest in this major 
crime problem.

    Mr. Stearns. Thank you.
    Ms. Koontz?

                  STATEMENT OF LINDA D. KOONTZ

    Ms. Koontz. Mr. Chairman, members of the committee, thank 
you for inviting us to discuss our work on the availability of 
pornography on peer-to-peer networks. As it's been discussed, 
pornography, including child pornography, has become 
increasingly available as it has migrated from magazines, 
photographs and videos to the worldwide web. As you know, a 
great strength of the Internet is that it provides a wide range 
of search and retrieval technologies that make finding 
information fast and easy. However, this capability also makes 
it easy to access, disseminate and trade pornographic images 
and videos.
    Today, I would like to discuss work we conducted last year 
at the request of the House Committee on Government Reform. Our 
results were summarized in a February 2003 report. This work 
focused on the availability of child pornography on peer-to-
peer networks and on the risk of inadvertent exposure of 
juvenile users of peer-to-peer networks to pornography 
including child pornography.
    In this work, we found that child pornography, as well as 
other types of pornography, is widely available and accessible 
through peer-to-peer networks. We used Kazaa, a popular peer-
to-peer file sharing program to search for image files using 12 
key words that were known to be associated with child 
pornography on the Internet. Of over 1200 items identified in 
our search, about 42 percent of the file names were associated 
with child pornography images and about 34 percent with adult 
pornography images.
    In another Kazaa search, we worked with Customs 
CyberSmuggling Center to use three key words to search for and 
download child pornography image files. This search identified 
341 image files of which about 44 percent were classified as 
child pornography and 29 percent as adult pornography.
    More disturbing, we found that there is a significant risk 
that juvenile users can be inadvertently exposed to pornography 
including child pornography. In searches on three innocuous key 
words likely to be used by juveniles, we obtained images that 
included a high proportion of pornography. Almost half of the 
177 retrieved images were classified as pornography, including 
a small amount of child pornography.
    Mr. Chairman, Internet file sharing programs continue to be 
popular and while there are no hard statistics, it is thought 
that a large proportion of these users are juveniles. These 
programs provide easy access to pornography, including child 
pornography. Further, our work shows that the networks put even 
the youngest users at significant risk of being inadvertently 
exposed to pornography. In light of these factors, it will be 
important for law enforcement to continue to devote effort to 
peer-to-peer networks and for policymakers to continue to 
highlight this issue to parents and to the public and to lead 
the debate on possible strategies for dealing with it.
    That concludes my statement. I would be happy to answer 
questions.
    [The prepared statement of Linda D. Koontz follows:]

Prepared Statement of Linda D. Koontz, Director, Information Management 
                 Issues, U.S. General Accounting Office

    Mr. Chairman and Members of the Subcommittee: Thank you for 
inviting us to discuss our work on the availability of child 
pornography on peer-to-peer networks.
    In recent years, child pornography has become increasingly 
available as it has migrated from magazines, photographs, and videos to 
the World Wide Web. As you know, a great strength of the Internet is 
that it includes a wide range of search and retrieval technologies that 
make finding information fast and easy. However, this capability also 
makes it easy to access, disseminate, and trade pornographic images and 
videos, including child pornography. As a result, child pornography has 
become accessible through Web sites, chat rooms, newsgroups, and the 
increasingly popular peer-to-peer technology, a form of networking that 
allows direct communication between computer users so that they can 
access and share each other's files (including images, video, and 
software).
    My testimony today is based on our report on the availability of 
child pornography on peer-to-peer networks.<SUP>1</SUP> As requested, I 
will summarize the results of our work to determine
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, File-Sharing Programs: Peer-to-
Peer Networks Provide Ready Access to Child Pornography, GAO-03-351 
(Washington, D.C.: Feb. 20, 2003).

 the ease of access to child pornography on peer-to-peer networks;
 the risk of inadvertent exposure of juvenile users of peer-to-peer 
        networks to pornography, including child pornography; and
 the extent of federal law enforcement resources available for 
        combating child pornography on peer-to-peer networks.
    We also include an attachment that briefly discusses how peer-to-
peer file sharing works.
    It is easy to access and download child pornography over peer-to-
peer networks. We used KaZaA, a popular peer-to-peer file-sharing 
program,<SUP>2</SUP> to search for image files, using 12 keywords known 
to be associated with child pornography on the Internet.<SUP>3</SUP> Of 
1,286 items identified in our search, about 42 percent were associated 
with child pornography images. The remaining items included 34 percent 
classified as adult pornography and 24 percent as nonpornographic. In 
another KaZaA search, the Customs CyberSmuggling Center used three 
keywords to search for and download child pornography image files. This 
search identified 341 image files, of which about 44 percent were 
classified as child pornography and 29 percent as adult pornography. 
The remaining images were classified as child erotica <SUP>4</SUP> (13 
percent) or other (nonpornographic) images (14 percent). These results 
are consistent with observations of the National Center for Missing and 
Exploited Children, which has stated that peer-to-peer technology is 
increasingly popular for the dissemination of child pornography. Since 
2001, when the center began to track reports of child pornography on 
peer-to-peer networks, such reports have increased more than fivefold--
from 156 in 2001 to 840 in 2003.
---------------------------------------------------------------------------
    \2\ Other popular peer-to-peer applications include Gnutella, 
BearShare, LimeWire, and Morpheus.
    \3\ The U.S. Customs CyberSmuggling Center assisted us in this 
work. Because child pornography cannot be accessed legally other than 
by law enforcement agencies, we relied on Customs to download and 
analyze image files. We performed analyses based on titles and file 
names only.
    \4\ Erotic images of children that do not depict sexually explicit 
conduct.
---------------------------------------------------------------------------
    When searching and downloading images on peer-to-peer networks, 
juvenile users can be inadvertently exposed to pornography, including 
child pornography. In searches on innocuous keywords likely to be used 
by juveniles, we obtained images that included a high proportion of 
pornography: in our searches, the retrieved images included adult 
pornography (34 percent), cartoon pornography <SUP>5</SUP> (14 
percent), and child pornography (1 percent); another 7 percent of the 
images were classified as child erotica.
---------------------------------------------------------------------------
    \5\ Images of cartoon characters depicting sexually explicit 
conduct.
---------------------------------------------------------------------------
    We could not quantify the extent of federal law enforcement 
resources available for combating child pornography on peer-to-peer 
networks. Law enforcement agencies that work to combat child 
exploitation and child pornography do not track their resource use 
according to specific Internet technologies. However, law enforcement 
officials told us that, as they receive more tips concerning child 
pornography on peer-to-peer networks, they are focusing more resources 
in this area.
    Child pornography is prohibited by federal statutes, which provide 
for civil and criminal penalties for its production, advertising, 
possession, receipt, distribution, and sale.<SUP>6</SUP> Defined by 
statute as the visual depiction of a minor--a person under 18 years of 
age--engaged in sexually explicit conduct,<SUP>7</SUP> child 
pornography is unprotected by the First Amendment,<SUP>8</SUP> as it is 
intrinsically related to the sexual abuse of children.
---------------------------------------------------------------------------
    \6\ See chapter 110 of Title 18, United States Code.
    \7\ See 18 U.S.C.  2256(8).
    \8\ See New York v. Ferber, 458 U.S. 747 (1982).
---------------------------------------------------------------------------
    In the Child Pornography Prevention Act of 1996,<SUP>9</SUP> 
Congress sought to prohibit images that are or appear to be ``of a 
minor engaging in sexually explicit conduct'' or are ``advertised, 
promoted, presented, described, or distributed in such a manner that 
conveys the impression that the material is or contains a visual 
depiction of a minor engaging in sexually explicit conduct.'' In 2002, 
the Supreme Court struck down this legislative attempt to ban 
``virtual'' child pornography <SUP>10</SUP> in Ashcroft v. The Free 
Speech Coalition, ruling that the expansion of the act to material that 
did not involve and thus harm actual children in its creation is an 
unconstitutional violation of free speech rights. According to 
government officials, this ruling may increase the difficulty of 
prosecuting those who produce and possess child pornography. Defendants 
may claim that pornographic images are of ``virtual'' children, thus 
requiring the government to establish that the children shown in these 
digital images are real. Recently, Congress enacted the PROTECT 
Act,<SUP>11</SUP> which attempts to address the constitutional issues 
raised in The Free Speech Coalition decision.<SUP>12</SUP>
---------------------------------------------------------------------------
    \9\ Section 121, P.L. 104-208, 110 Stat. 3009-26.
    \10\ According to the Justice Department, rapidly advancing 
technology has raised the possibility of creating images of child 
pornography without the use of a real child (``virtual'' child 
pornography). Totally virtual creations would be both time-intensive 
and, for now, prohibitively costly to produce. However, the technology 
has led to a ready defense (the ``virtual'' porn defense) against 
prosecution under laws that are limited to sexually explicit depictions 
of actual minors. Because the technology exists today to alter images 
to disguise the identity of the real child or make the image seem 
computer-generated, producers and distributors of child pornography may 
try to alter depictions of actual children in slight ways to make them 
appear to be ``virtual'' (as well as unidentifiable), thereby 
attempting to defeat prosecution. Making such alterations is much 
easier and cheaper than building an entirely computer-generated image.
    \11\ Public Law No. 108-21 (Apr. 30, 2003).
    \12\ S. Rep. No. 108-2, at 13 (2003).
---------------------------------------------------------------------------
  THE INERNET HAS EMERGED AS THE PRINCIPAL TOOL FOR EXCHAMGING CHILD 
                              PORNOGRAPHY

    Historically, pornography, including child pornography, tended to 
be found mainly in photographs, magazines, and videos.<SUP>13</SUP> 
With the advent of the Internet, however, both the volume and the 
nature of available child pornography have changed significantly. The 
rapid expansion of the Internet and its technologies, the increased 
availability of broadband Internet services, advances in digital 
imaging technologies, and the availability of powerful digital graphic 
programs have led to a proliferation of child pornography on the 
Internet.
---------------------------------------------------------------------------
    \13\ John Carr, Theme Paper on Child Pornography for the 2nd World 
Congress on Commercial Sexual Exploitation of Children, NCH Children's 
Charities, Children & Technology Unit (Yokohama, 2001). (http://
www.ecpat.net/eng/Ecpat--inter/projects/monitoring/wc2/yokohama--
theme--child--pornography.pdf)
---------------------------------------------------------------------------
    According to experts, pornographers have traditionally exploited--
and sometimes pioneered--emerging communication technologies--from the 
dial-in bulletin board systems of the 1970s to the World Wide Web--to 
access, trade, and distribute pornography, including child 
pornography.<SUP>14</SUP> Today, child pornography is available through 
virtually every Internet technology (see table 1).
---------------------------------------------------------------------------
    \14\ Frederick E. Allen, ``When Sex Drives Technological Innovation 
and Why It Has to,'' American Heritage Magazine, vol. 51, no. 5 
(September 2000), p. 19. (http://www.planned
parenthood.org/education/updatearch.html) Allen notes that 
pornographers have driven the development of some of the Internet 
technologies, including the development of systems used to verify on-
line financial transactions and that of digital watermarking technology 
to prevent the unauthorized use of on-line images.

  Table 1: Internet Technologies Providing Access to Child Pornography
------------------------------------------------------------------------
                Technology                        Characteristics
------------------------------------------------------------------------
World Wide Web...........................  Web sites provide on-line
                                            access to text and
                                            multimedia materials
                                            identified and accessed
                                            through the uniform resource
                                            locator (URL).
Usenet...................................  A distributed electronic
                                            bulletin system, Usenet
                                            offers over 80,000
                                            newsgroups, with many
                                            newsgroups dedicated to
                                            sharing of digital images.
Peer-to-peer file-sharing programs.......  Internet applications
                                            operating over peer-to-peer
                                            networks enable direct
                                            communication between users.
                                            Used largely for sharina of
                                            diaital music, images, and
                                            video, peer-to-peer
                                            applications include
                                            BearSharig, Gndtella,
                                            LimeWire, and KaZaA. KaZaA
                                            is the most popular, with
                                            over 3 million KaZaA users
                                            sharing files at any time.
E-mail...................................  E-mail allows the
                                            transmission of messages
                                            over a network or the
                                            Internet. Users can send E-
                                            mail to a single recipient
                                            or broadcast it to multiple
                                            users. E-mail supports the
                                            delivery of attached files,
                                            including image files.
Instant messaging........................  Instant messaging is not a
                                            dial-up system like the
                                            telephone; it requires that
                                            both parties be on line at
                                            the same time. AOL's Instant
                                            Messenger and Microsoft's
                                            MSN Messenger and Internet
                                            Relay Chat are the major
                                            instant messaging services.
                                            Users may exchange files,
                                            including image files.
Chat and Internet Relay Chat.............  Chat technologies allow
                                            computer conferencing using
                                            the keyboard over the
                                            Internet between two or more
                                            people.
------------------------------------------------------------------------
Source: GAO

    Among the principal channels for the distribution of child 
pornography are commercial Web sites, Usenet newsgroups, and peer-to-
peer networks.<SUP>15</SUP>
---------------------------------------------------------------------------
    \15\ According to Department of Justice officials, other forums and 
technologies are used to disseminate pornography on the Internet. These 
include Web portal communities such as Yahoo! Groups and MSN Groups, as 
well as file servers operating on Internet Relay Chat channels.
---------------------------------------------------------------------------
    Web sites. According to recent estimates, there are about 400,000 
commercial pornography Web sites worldwide,<SUP>16</SUP> with some of 
the sites selling pornographic images of children. The child 
pornography trade on the Internet is not only profitable, it has a 
worldwide reach: recently a child pornography ring was uncovered that 
included a Texas-based firm providing credit card billing and password 
access services for one Russian and two Indonesian child pornography 
Web sites. According to the U.S. Postal Inspection Service, the ring 
grossed as much as $1.4 million in just 1 month selling child 
pornography to paying customers.
---------------------------------------------------------------------------
    \16\ Dick Thornburgh and Herbert S. Lin, editors, Youth, 
Pornography, and The Internet, National Academy Press (Washington, 
D.C.: 2002). (http://www.nap.edu/html/youth--internet/)
---------------------------------------------------------------------------
    Usenet. Usenet newsgroups also provide access to pornography, with 
several of the image-oriented newsgroups being focused on child erotica 
and child pornography. These newsgroups are frequently used by 
commercial pornographers who post ``free'' images to advertise adult 
and child pornography available for a fee from their Web sites.
    Peer-to-peer networks. Although peer-to-peer file-sharing programs 
are largely known for the extensive sharing of copyrighted digital 
music,<SUP>17</SUP> they are emerging as a conduit for the sharing of 
pornographic images and videos, including child pornography. In a 
recent study by congressional staff,<SUP>18</SUP> a single search for 
the term ``porn'' using a file-sharing program yielded over 25,000 
files. In another study, focused on the availability of pornographic 
video files on peer-to-peer sharing networks, a sample of 507 
pornographic video files retrieved with a file-sharing program included 
about 3.7 percent child pornography videos.<SUP>19</SUP>
---------------------------------------------------------------------------
    \17\ According to the Yankee Group, a technology research and 
consulting firm, Internet users aged 14 and older downloaded 5.16 
billion audio files in the United States via unlicensed file-sharing 
services in 2001.
    \18\ Minority Staff, Children's Access to Pornography through 
Internet File-Sharing Programs, Special Investigations Division, 
Committee on Government Reform, U.S. House of Representatives (July 27, 
2001). (http://www.house.gov/reform/min/pdfs/pdf_inves/
pdf_pornog_rep.pdf)
    \19\ Michael D. Mehta, Don Best, and Nancy Poon, ``Peer-to-Peer 
Sharing on the Internet: An Analysis of How Gnutella Networks Are Used 
to Distribute Pornographic Material,'' Canadian Journal of Law and 
Technology, vol. 1, no. 1 (January 2002). (http://cjlt.dal.ca/vol1_no1/
articles/01_01_MeBePo_gnutella.pdf)
---------------------------------------------------------------------------
    Table 2 shows the key national organizations and agencies that are 
currently involved in efforts to combat child pornography on peer-to-
peer networks.

  Table 2: Organizations and Agencies Involved with Peer-to-Peer Child
                           Pornography Efforts
------------------------------------------------------------------------
             Agency                      Unit                Focus
------------------------------------------------------------------------
Nonprofit
National Center for Missing and   Exploited Child     Works with the
 Exploited Children.               Unit.               Customs Service,
                                                       Postal Service,
                                                       and the FBI to
                                                       analyze and
                                                       investigate child
                                                       pornography
                                                       leads.
Federal entities
Department of Justice...........  Federal Bureau of   Proactively
                                   Investigation a.    investigates
                                                       crimes against
                                                       children.
                                                       Operates a
                                                       national
                                                       ``Innocent Images
                                                       Initiative'' to
                                                       combat Internet-
                                                       related sexual
                                                       exploitation of
                                                       children.
                                  Criminal Division,  Is a specialized
                                   Child               group of
                                   Exploitation and    attorneys who,
                                   Obscenity Section.  among other
                                                       things, prosecute
                                                       those who
                                                       possess,
                                                       manufacture, or
                                                       distribute child
                                                       pornography. Its
                                                       High Tech
                                                       Investigative
                                                       Unit actively
                                                       conducts on-line
                                                       investigations to
                                                       identify
                                                       distributors of
                                                       obscenity and
                                                       child
                                                       pornography.
Department of Homeland Security.  U.S. Customs        Conducts
                                   Service             international
                                   CyberSmuggling      child pornography
                                   Center a,b.         investigations as
                                                       part of its
                                                       mission to
                                                       investigate
                                                       international
                                                       criminal activity
                                                       conducted on or
                                                       facilitated by
                                                       the Internet.
Department of the Treasury......  U.S. Secret         Provides forensic
                                   Service a.          and technical
                                                       assistance in
                                                       matters involving
                                                       missing and
                                                       sexually
                                                       exploited
                                                       children.
------------------------------------------------------------------------
Source: GAO.
a Agency has staff assigned to NCMEG.
b At the time of our review, the Customs Service was under the
  Department of the Treasury. Under the Homeland Security Act of 2002,
  it became part of the new Department of Homeland Security on March 1,
  2003.

    The National Center for Missing and Exploited Children (NCMEC), a 
federally funded nonprofit organization, serves as a national resource 
center for information related to crimes against children. Its mission 
is to find missing children and prevent child victimization. The 
center's Exploited Child Unit operates the CyberTipline, which receives 
child pornography tips provided by the public; its CyberTipline II also 
receives tips from Internet service providers. The Exploited Child Unit 
investigates and processes tips to determine if the images in question 
constitute a violation of child pornography laws. The CyberTipline 
provides investigative leads to the Federal Bureau of Investigation 
(FBI), U.S. Customs, the Postal Inspection Service, and state and local 
law enforcement agencies. The FBI and the U.S. Customs also investigate 
leads from Internet service providers via the Exploited Child Unit's 
CyberTipline II. The FBI, Customs Service, Postal Inspection Service, 
and Secret Service have staff assigned directly to NCMEC as 
analysts.<SUP>20</SUP>
---------------------------------------------------------------------------
    \20\ According to the Secret Service, its staff assigned to NCMEC 
also includes an agent.
---------------------------------------------------------------------------
    Two organizations in the Department of Justice have 
responsibilities regarding child pornography: the FBI and the Justice 
Criminal Division's Child Exploitation and Obscenity Section 
(CEOS).<SUP>21</SUP>
---------------------------------------------------------------------------
    \21\ Two additional Justice agencies are involved in combating 
child pornography: the U.S. Attorneys Offices and the Office of 
Juvenile Justice and Delinquency Prevention. The 94 U.S. Attorneys 
Offices can prosecute federal child exploitation-related cases; the 
Office of Juvenile Justice and Delinquency Prevention funds the 
Internet Crimes Against Children Task Force Program, which encourages 
multijurisdictional and multiagency responses to crimes against 
children involving the Internet.
---------------------------------------------------------------------------
    The FBI investigates various crimes against children, including 
federal child pornography crimes involving interstate or foreign 
commerce. It deals with violations of child pornography laws related to 
the production of child pornography; selling or buying children for use 
in child pornography; and the transportation, shipment, or distribution 
of child pornography by any means, including by computer.
    CEOS prosecutes child sex offenses and trafficking in women and 
children for sexual exploitation. Its mission includes prosecution of 
individuals who possess, manufacture, produce, or distribute child 
pornography; use the Internet to lure children to engage in prohibited 
sexual conduct; or traffic in women and children interstate or 
internationally to engage in sexually explicit conduct.
    Two other organizations have responsibilities regarding child 
pornography: the Customs Service (now part of the Department of 
Homeland Security) and the Secret Service in the Department of the 
Treasury.
    The Customs Service targets illegal importation and trafficking in 
child pornography and is the country's front line of defense in 
combating child pornography distributed through various channels, 
including the Internet. Customs is involved in cases with international 
links, focusing on pornography that enters the United States from 
foreign countries. The Customs CyberSmuggling Center has the lead in 
the investigation of international and domestic criminal activities 
conducted on or facilitated by the Internet, including the sharing and 
distribution of child pornography on peer-to-peer networks. Customs 
maintains a reporting link with NCMEC, and it acts on tips received via 
the CyberTipline from callers reporting instances of child pornography 
on Web sites, Usenet newsgroups, chat rooms, or the computers of users 
of peer-to-peer networks. The center also investigates leads from 
Internet service providers via the Exploited Child Unit's CyberTipline 
II.
    The U.S. Secret Service does not investigate child pornography 
cases on peer-to-peer networks; however, it does provide forensic and 
technical support to NCMEC, as well as to state and local agencies 
involved in cases of missing and exploited children.

   PEER-TO-PEER APPLICATIONS PROVIDE EASY ACCESS TO CHILD PORNOGRAPHY

    Child pornography is easily shared and accessed through peer-to-
peer file-sharing programs. Our analysis of 1,286 titles and file names 
identified through KaZaA searches on 12 keywords <SUP>22</SUP> showed 
that 543 (about 42 percent) of the images had titles and file names 
associated with child pornography images.<SUP>23</SUP> Of the remaining 
files, 34 percent were classified as adult pornography, and 24 percent 
as nonpornographic (see fig. 1). No files were downloaded for this 
analysis.
---------------------------------------------------------------------------
    \22\ The 12 keywords were provided by the Cybersmuggling Center as 
examples known to be associated with child pornography on the Internet.
    \23\ We categorized a file as child pornography if one keyword 
indicating a minor and one word with a sexual connotation occurred in 
either the title or file name. Files with sexual connotation in title 
or name but without age indicators were classified as adult 
pornography.
---------------------------------------------------------------------------
    The ease of access to child pornography files was further 
documented by retrieval and analysis of image files, performed on our 
behalf by the Customs CyberSmuggling Center. Using 3 of the 12 keywords 
that we used to document the availability of child pornography files, a 
CyberSmuggling Center analyst used KaZaA to search, identify, and 
download 305 files, including files containing multiple images and 
duplicates. The analyst was able to download 341 images from the 305 
files identified through the KaZaA search.
    The CyberSmuggling Center analysis of the 341 downloaded images 
showed that 149 (about 44 percent) of the downloaded images contained 
child pornography (see fig. 2). The center classified the remaining 
images as child erotica (13 percent), adult pornography (29 percent), 
or nonpornographic (14 percent).
    These results are consistent with the observations of NCMEC, which 
has stated that peer-to-peer technology is increasingly popular for the 
dissemination of child pornography. However, it is not the most 
prominent source for child pornography. As shown in table 3, since 
1998, most of the child pornography referred by the public to the 
CyberTipline was found on Internet Web sites. Since 1998, the center 
has received over 139,000 reports of child pornography, of which 76 
percent concerned Web sites, and only 1 percent concerned peer-to-peer 
networks. Web site referrals have grown from about 1,400 in 1998 to 
over 45,000 in 2003--or about a thirty-two-fold increase. NCMEC did not 
track peer-to-peer referrals until 2001. Between 2001 and 2003, peer-
to-peer referrals increased more than fivefold, from 156 to 840, 
reflecting the increased popularity of file-sharing programs.

            Table 3: NCMEC CyberTipline Referrals to Law Enforcement Agencies, Fiscal Years 1998-2003
----------------------------------------------------------------------------------------------------------------
                                                                               Number of tips
                        Technology                         -----------------------------------------------------
                                                              1998     1999     2000     2001     2002     2003
----------------------------------------------------------------------------------------------------------------
Web sites.................................................    1,393    3,830   10,629   18,052   26,759   45,035
E-mail....................................................      117      165      120    1,128    6,245   12,403
Peer-to-peer..............................................        -        -        -      156      757      840
Usenet newsgroups & bulletin boards.......................      531      987      731      990      993    1,128
Unknown...................................................       90      258      260      430      612    1,692
Chat rooms................................................      155      256      176      125      234      786
Instant Messaging.........................................       27       47       50       80       53      472
File transfer protocol....................................       25       26       58       64       23       13
Total.....................................................    2,338    5,569   12,024    1,025   35,676   62,369
----------------------------------------------------------------------------------------------------------------
Source: Exploited Child Unit, National Center for Missing and Exploited Children.

   JUVENILE USERS OF PEER-TO-PEER APPLICATIONS MAY BE INADVERTENTLY 
                         EXPOSED TO PORNOGRAPHY

    Juvenile users of peer-to-peer networks face a significant risk of 
inadvertent exposure to pornography when searching and downloading 
images. In a search using innocuous keywords likely to be used by 
juveniles searching peer-to-peer networks (such as names of popular 
singers, actors, and cartoon characters), almost half the images 
downloaded were classified as adult or cartoon pornography. Juvenile 
users may also be inadvertently exposed to child pornography through 
such searches, but the risk of such exposure is smaller than that of 
exposure to pornography in general.
    To document the risk of inadvertent exposure of juvenile users to 
pornography, the Customs CyberSmuggling Center performed KaZaA searches 
using innocuous keywords likely to be used by juveniles. The center's 
image searches used three keywords representing the names of a popular 
female singer, child actors, and a cartoon character. A center analyst 
performed the search, retrieval, and analysis of the images. These 
searches produced 157 files, some of which were duplicates. From these 
157 files, the analyst was able to download 177 images.
    Figure 3 shows our analysis of the CyberSmuggling Center's 
classification of the 177 downloaded images. We determined that 61 
images contained adult pornography (34 percent), 24 images consisted of 
cartoon pornography (14 percent), 13 images contained child erotica (7 
percent), and 2 images (1 percent) contained child pornography. The 
remaining 77 images were classified as nonpornographic.

 FEDERAL LAW ENFORCEMENT AGENCIES ARE BEGINNING TO FOCUS RESOURCES ON 
               CHILD PORNOGRAPHY ON PEER-TO-PEER NETWORKS

    Because law enforcement agencies do not track the resources 
dedicated to specific technologies used to access and download child 
pornography on the Internet, we were unable to quantify the resources 
devoted to investigations concerning peer-to-peer networks. These 
agencies (including the FBI, CEOS, and Customs) do devote significant 
resources to combating child exploitation and child pornography in 
general. Law enforcement officials told us, however, that as tips 
concerning child pornography on the peer-to-peer networks increase, 
they are beginning to focus more law enforcement resources on this 
issue. Table 4 shows the levels of funding related to child pornography 
issues that the primary organizations reported for fiscal year 2002, as 
well as a description of their efforts regarding peer-to-peer networks 
in particular.

  Table 4: Respurces Related to Combating Child Pornography on Peer-to-
                          Peer Networks in 2002
------------------------------------------------------------------------
                                                       Efforts regarding
          Organization                Resourcesa         peer-to-peer
                                                           networks
------------------------------------------------------------------------
National Center for Missing and   $12 million to act  NCMEC referred 913
 Exploited Children.               as national         tips concerning
                                   resource center     peer-to-peer
                                   and clearinghouse   networks to law
                                   for missing and     enforcement
                                   exploited           agencies.
                                   children.
                                  $10 million for
                                   law enforcement
                                   training
                                  $3.3 million for
                                   the Exploited
                                   Child Unit and
                                   the CyberTipline.
                                  $916,000 allocated
                                   to combat child
                                   pornography.
Federal Bureau of Investigation.  $38.2 million and   According to FBI
                                   228 agents and      officials, they
                                   support personnel   have efforts
                                   for Innocent        under way to work
                                   Images Unit.        with some of the
                                                       peer-to-peer
                                                       companies to
                                                       solicit their
                                                       cooperation in
                                                       dealing with the
                                                       issue of child
                                                       pornography.
Justice Criminal Division, Child  $4.38 million and   The High Tech
 Exploitation and Obscenity        28 personnel        Investigative
 Section.                          allocated to        Unit deals with
                                   combating child     investigating any
                                   exploitation and    Internet medium
                                   obscenity           that distributes
                                   offenses.           child
                                                       pornography,
                                                       including peer-to-
                                                       peer networks.
U.S. Customs Service              $15.6 million       The center is
 CyberSmuggling Center.            (over 144,000       beginning to
                                   hours) allocated    actively monitor
                                   to combating        peer-to-peer
                                   child               networks for
                                   exploitation and    child
                                   obscenity           pornography,
                                   offenses b.         devoting one half-
                                                       time investigator
                                                       to this effort.
                                                       As of December
                                                       16, 2002, the
                                                       center had sent
                                                       21 peer-to-peer
                                                       investigative
                                                       leads to field
                                                       offices for
                                                       follow-up.
------------------------------------------------------------------------
Sources: GAO and agencies mentioned.
a Dollar amounts are approximate.
b Customs was unable to separate the staff hours devoted or funds
  obligated to combating child pornography from those dedicated to
  combating child exploitation in general.

    An important new resource to facilitate the identification of the 
victims of child pornographers is the National Child Victim 
Identification Program, run by the CyberSmuggling Center. This resource 
is a consolidated information system containing seized images that is 
designed to allow law enforcement officials to quickly identify and 
combat the current abuse of children associated with the production of 
child pornography. The system's database is being populated with all 
known and unique child pornographic images obtained from national and 
international law enforcement sources and from CyberTipline reports 
filed with NCMEC. It will initially hold over 100,000 images collected 
by federal law enforcement agencies from various sources, including old 
child pornography magazines.<SUP>24</SUP> According to Customs 
officials, this information will help, among other things, to determine 
whether actual children were used to produce child pornography images 
by matching them with images of children from magazines published 
before modern imaging technology was invented. Such evidence can be 
used to counter the assertion that only virtual children appear in 
certain images.
---------------------------------------------------------------------------
    \24\ According to federal law enforcement agencies, most of the 
child pornography published before 1970 has been digitized and made 
widely available on the Internet.
---------------------------------------------------------------------------
    The system, which became operational in January 2003,<SUP>25</SUP> 
is housed at the Customs CyberSmuggling Center and can be accessed 
remotely in ``read only'' format by the FBI, CEOS, the U.S. Postal 
Inspection Service, and NCMEC.
---------------------------------------------------------------------------
    \25\ One million dollars has already been spent on the system, with 
an additional $5 million needed for additional hardware, the expansion 
of the image database, and access for all involved agencies. The 10-
year lifecycle cost of the system is estimated to be $23 million.
---------------------------------------------------------------------------
    In summary, Mr. Chairman, our work shows that child pornography as 
well as adult pornography is widely available and accessible on peer-
to-peer networks. Even more disturbing, we found that peer-to-peer 
searches using seemingly innocent terms that clearly would be of 
interest to children produced a high proportion of pornographic 
material, including child pornography. The increase in reports of child 
pornography on peer-to-peer networks suggests that this problem is 
increasing. As a result, it will be important for law enforcement 
agencies to follow through on their plans to devote more resources to 
this technology and continue their efforts to develop effective 
strategies for addressing this problem.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions that you or other Members of the Subcommittee may 
have at this time.

                      CONTACT AND ACKNOWLEDGEMENTS

    If you should have any questions about this testimony, please 
contact me at (202) 512-6240 or by E-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d2b9bdbdbca6a8be92b5b3bdfcb5bda4fc">[email&#160;protected]</a> Key 
contributors to this testimony were Barbara S. Collier, Mirko Dolak, 
James M. Lager, Neelaxi V. Lakhmani, James R. Sweetman, Jr., and Jessie 
Thomas.

                               Attachment

    Peer-to-peer file-sharing programs represent a major change in the 
way Internet users find and exchange information. Under the traditional 
Internet client/server model, access to information and services is 
accomplished by interaction between clients--users who request 
services--and servers--providers of services, usually Web sites or 
portals. Unlike this traditional model, the peer-to-peer model enables 
consenting users--or peers--to directly interact and share information 
with each other, without the intervention of a server. A common 
characteristic of peer-to-peer programs is that they build virtual 
networks with their own mechanisms for routing message 
traffic.<SUP>26</SUP>
---------------------------------------------------------------------------
    \26\ Matei Ripenau, Ian Foster, and Adriana Iamnitchi, ``Mapping 
the Gnutella Network: Properties of Large Scale Peer-to-Peer Systems 
and Implication for System Design,'' IEEE Internet Computing, vol. 6, 
no. 1 (January-February 2002). (people.cs.uchicago.edu/matei/PAPERS/
ic.pdf)
---------------------------------------------------------------------------
    The ability of peer-to-peer networks to provide services and 
connect users directly has resulted in a large number <SUP>27</SUP> of 
powerful applications built around this model.<SUP>28</SUP> These range 
from the <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5d0e1809141d35323038">[email&#160;protected]</a> network (where users share the computing power of 
their computers to search for extraterrestrial life) to the popular 
KaZaA file-sharing program (used to share music and other files).
---------------------------------------------------------------------------
    \27\ Zeropaid.com, a file-sharing portal, lists 88 different peer-
to-peer file-sharing programs available for download. (http://
www.zeropaid.com/php/filesharing.php)
    \28\ Geoffrey Fox and Shrideep Pallickara, ``Peer-to-Peer 
Interactions in Web Brokering Systems,'' Ubiquity, vol. 3, no. 15 (May 
28-June 3, 2002) (published by Association of Computer Machinery). 
(http://www.acm.org/ubiquity/views/g_fox_2.html)
---------------------------------------------------------------------------
    As shown in figure 4,<SUP>29</SUP> there are two main models of 
peer-to-peer networks: (1) the centralized model, in which a central 
server or broker directs traffic between individual registered users, 
and (2) the decentralized model, based on the Gnutella <SUP>30</SUP> 
network, in which individuals find each other and interact directly.
---------------------------------------------------------------------------
    \29\ Illustration adapted by Lt. Col. Mark Bontrager from original 
by Bob Knighten, ``Peer-to-Peer Computing,'' briefing to Peer-to-Peer 
Working Groups (August 24, 2000), in Mark D. Bontrager, Peering into 
the Future: Peer-to-Peer Technology as a Model for Distributed Joint 
Battlespace Intelligence Dissemination and Operational Tasking, Thesis, 
School of Advanced Airpower Studies, Air University, Maxwell Air Force 
Base, Alabama (June 2001).
    \30\ According to LimeWire LLC, the developer of a popular file-
sharing program, Gnutella was originally designed by Nullsoft, a 
subsidiary of America Online. The development of the Gnutella protocol 
was halted by AOL management shortly after the protocol was made 
available to the public. Using downloads, programmers reverse-
engineered the software and created their own Gnutella software 
packages. (http://www.limewire.com/index.jsp/p2p)
---------------------------------------------------------------------------
    As shown in figure 4, in the centralized model, a central server/
broker maintains directories of shared files stored on the computers of 
registered users. When Bob submits a request for a particular file, the 
server/broker creates a list of files matching the search request by 
checking it against its database of files belonging to users currently 
connected to the network. The broker then displays that list to Bob, 
who can then select the desired file from the list and open a direct 
link with Alice's computer, which currently has the file. The download 
of the actual file takes place directly from Alice to Bob.
    This broker model was used by Napster, the original peer-to-peer 
network, facilitating mass sharing of material by combining the file 
names held by thousands of users into a searchable directory that 
enabled users to connect with each other and download MP3 encoded music 
files. Because much of this material was copyrighted, Napster as the 
broker of these exchanges was vulnerable to legal 
challenges,<SUP>31</SUP> which eventually led to its demise in 
September 2002.
---------------------------------------------------------------------------
    \31\ A&M Records v. Napster, 114 F.Supp.2d 896 (N.D. Cal. 2000).
---------------------------------------------------------------------------
    In contrast to Napster, most current-generation peer-to-peer 
networks are decentralized. Because they do not depend on the server/
broker that was the central feature of the Napster service, these 
networks are less vulnerable to litigation from copyright owners, as 
pointed out by Gartner.<SUP>32</SUP>
---------------------------------------------------------------------------
    \32\ Lydia Leong, ``RIAA vs.Verizon, Implications for ISPs,'' 
Gartner (Oct. 24, 2002).
---------------------------------------------------------------------------
    In the decentralized model, no brokers keep track of users and 
their files. To share files using the decentralized model, Ted starts 
with a networked computer equipped with a Gnutella file-sharing program 
such as KaZaA or BearShare. Ted connects to Carol, Carol to Bob, Bob to 
Alice, and so on. Once Ted's computer has announced that it is 
``alive'' to the various members of the peer network, it can search the 
contents of the shared directories of the peer network members. The 
search request is sent to all members of the network, starting with 
Carol; members will, in turn, send the request to the computers to 
which they are connected, and so forth. If one of the computers in the 
peer network (say, for example, Alice's) has a file that matches the 
request, it transmits the file information (name, size, type, etc.) 
back through all the computers in the pathway towards Ted, where a list 
of files matching the search request appears on Ted's computer through 
the file-sharing program. Ted can then open a connection with Alice and 
download the file directly from Alice's computer.<SUP>33</SUP>
---------------------------------------------------------------------------
    \33\ LimeWire, Modern Peer-to-Peer File Sharing over the Internet. 
(http://www.limewire.com/index.jsp/p2p)
---------------------------------------------------------------------------
    The file-sharing networks that result from the use of peer-to-peer 
technology are both extensive and complex. Figure 5 shows a map, or 
topology, of a Gnutella network whose connections were mapped by a 
network visualization tool.<SUP>34</SUP> The map, created in December 
2000, shows 1,026 nodes (computers connected to more than one computer) 
and 3,752 edges (computers on the edge of the network connected to a 
single computer). This map is a snapshot showing a network in existence 
at a given moment; these networks change constantly as users join and 
depart them.
---------------------------------------------------------------------------
    \34\ Mihajlo A. Jovanovic, Fred S. Annexstein, and Kenneth A. 
Berman, Scalability Issues in Large Peer-to-Peer Networks: A Case Study 
of Gnutella, University of Cincinnati Technical Report (2001). (http://
www.ececs.uc.edu/mjovanov/Research/paper.html)
---------------------------------------------------------------------------
    One of the key features of many peer-to-peer technologies is their 
use of a virtual name space (VNS). A VNS dynamically associates user-
created names with the Internet address of whatever Internet-connected 
computer users happen to be using when they log on.<SUP>35</SUP> The 
VNS facilitates point-to-point interaction between individuals, because 
it removes the need for users and their computers to know the addresses 
and locations of other users; the VNS can, to a certain extent, 
preserve users' anonymity and provide information on whether a user is 
or is not connected to the Internet at a given moment. Peer-to-peer 
users thus may appear to be anonymous; they are not, however. Law 
enforcement agents may identify users' Internet addresses during the 
file-sharing process and obtain, under a court order, their identities 
from their Internet service providers.
---------------------------------------------------------------------------
    \35\ S. Hayward and R. Batchelder, ``Peer-to-Peer: Something Old, 
Something New,'' Gartner (Apr. 10, 2001). 

[GRAPHIC] [TIFF OMITTED] T3980.001

[GRAPHIC] [TIFF OMITTED] T3980.002

[GRAPHIC] [TIFF OMITTED] T3980.003

    Mr. Stearns. I thank you. By unanimous consent, Mr. John is 
recognized for an opening statement.
    Mr. John. Mr. Chairman, thank you very much. I certainly 
appreciate the latitude of Ranking Member Schakowsky and also 
Chairman Stearns for providing me an opportunity to give an 
opening statement. As a former member of this subcommittee and 
the lead sponsor of the legislation to protect children from 
online pornography, I really appreciate the opportunity to say 
just a few words.
    I want to thank my fellow colleague, Congressman Pitts, for 
his leadership on this issue and offer my continued support for 
his efforts to combat child pornography. I also want to thank 
the panel. This is a little bit out of order to give an opening 
statement after the panel, but I certainly appreciate the 
remarks and a lot of the remarks that I have in my opening 
statement were addressed or at least connected to some of your 
statements, so I certainly appreciate that.
    As a parent of twin 5-year-old boys, I know the challenges 
that are faced by parents these days as kids go and log on to 
the Internet. In fact, my boys love to go on and log and look 
at Bay Blades and Yuggio cards and Power Rangers and a whole 
host of other kinds of kids-related shows and merchandise that 
are on these websites. And for the parents, it's a little 
difficult to keep up with some of these toys that kids today go 
a little crazy over. I guess what disturbs me more is the 
proliferation of pornography online that uses these very same 
kids' games, kids' toys, kids' characters to direct Internet 
users to pornography sites and a lot of the testimony cited 
that.
    And it's all the more problematic when the kids are using 
the P2P or peer-to-peer file sharing programs because the names 
of these games and cartoons are often misspelled or look very 
similar in a lot of ways to some of these sites. We probably 
could spend an entire hearing, Mr. Chairman, on peer-to-peer 
file network, file sharing, as a digital means of stealing 
copyrighted material, but that battle will come and that's for 
another time.
    But today, I appreciate the witnesses addressing some of 
the concerns that I have and I will continue my fight with Mr. 
Pitts on this issue and I thank the chairman and ranking 
member.
    Mr. Stearns. I thank the gentleman for his attendance. I'll 
start with my questions.
    I guess the first question when you hear this, this is for 
the Federal Trade Commission, seeing what Mr. Pitts has showed 
us and going through some of the testimony on the panel, and 
hearing your example, I guess the question is do you have 
enough people? Do you need additional law enforcement support 
to curb the spread of online pornography via the Internet or 
the P2P?
    Mr. Beales. We can always do more with more resources. We 
have a very active program and I think one that's been very 
effective in addressing a wide variety of problems. It is--we 
don't have a particular request for additional resources. We'll 
address that through the appropriations process.
    Mr. Stearns. So you can say today that you think you have 
sufficient resources to handle this problem?
    Mr. Beales. Well, I think there is no amount of resources 
that would eliminate this problem.
    Mr. Stearns. We're not saying eliminate, but that you can 
get to the bad actors, that you feel comfortable that you can 
quickly and effectively get to these bad actors?
    It seems to me if he puts up 6,000 sites, that's going to 
take a lot of research on your part and that's just one 
individual.
    Mr. Beales. Well, it's the way a lot of these cases work. 
He's got 6,000 sites registered under one name and once you're 
on to the basic scheme, tracking down all the other names he's 
registered is not that difficult. What's hard in some cases is 
finding the scheme in the first place.
    Mr. Stearns. Do you think there's anything we, as 
legislators, that you would recommend that we do?
    Mr. Beales. We don't have any legislative recommendations 
at this point.
    Mr. Stearns. So you have no opinion on the Pitts Bill?
    Mr. Beales. We have no position on the Pitts Bill. We have 
worked with Mr. Pitts' staff on technical issues and we look 
forward to continuing that.
    Mr. Stearns. Okay. Ms. Koontz, Mr. Lafferty has submitted 
written testimony. He's on the second panel. He stated that in 
using family filters at their maximum level, ``no files 
retrieved on searches for popular terms like Britney, Pokeyman 
and the Olsen Twins will contain pornography.''
    Based on your work in this area, do you confirm his 
statement?
    Ms. Koontz. I can't confirm that that's the case. We 
haven't done a study of the availability of pornography on the 
larger Internet sort of situation. So--and we have not studied 
the efficacy of filters either, although I would submit that we 
know that filters, although they can be helpful, are rarely 
perfect and usually do not eliminate all kinds of objectionable 
files.
    Mr. Stearns. Mr. Lourdeau or Mr. Beales, can you comment on 
that, the fact that Mr. Lafferty says basically the family 
filters work and they will prevent the pornography?
    Mr. Lourdeau. I have not checked out the filters to see if 
they work or not. I can't answer that.
    Mr. Stearns. Mr. Beales?
    Mr. Beales. We've not explored them in any detail either.
    Mr. Stearns. Let me ask the FBI, in which of the follow 
areas is child pornography most prevalent: Internet websites, 
Internet news groups, chat rooms, file servers, bulletin board 
systems or peer-to-peer file sharing programs? And also, to 
which area is it trending, if you can tell us that?
    Mr. Lourdeau. For the FBI, we have a priority listing of 
how we attack child pornography and as you said, Mr. Chairman, 
the websites is our No. 1 priority because of the international 
and national flavor of the websites. We think that the FBI's 
role is to try to go after organized groups that profit from 
child pornography and that occurs in the websites, where you 
can go into the websites and purchase child pornography and 
people make money from that.
    Is it more pervasive than the other sites? I can give you 
countless examples of chat rooms where people go into chat 
rooms and discuss luring young children, girls and boys, to 
have sex with adults. So is it prevalent there? It's very 
prevalent there. I don't know if there's any one site or one--
--
    Mr. Stearns. Trending in any way?
    Mr. Lourdeau. [continuing] or trend that is more prevalent 
than the other. We know that there is a lot of legal file 
sharing of pornography over peer-to-peer networks and that's 
why we started our new initiative to address that crime 
problem.
    Mr. Stearns. Mr. Beales, the last question, are the P2P 
files traceable so that the illegal pornographers can be 
prosecuted? Is it easily traceable and has P2P software 
hastened the spread of spyware and adware?
    Mr. Beales. We have not been involved in circumstances 
where we needed to track back P2P files. That is not something 
that's come up in any of our cases and so I don't really know. 
We did learn at our spyware workshop that a great deal of 
spyware and adware is distributed bundled with P2P networks. 
There are other distribution channels for it as well.
    Mr. Stearns. My time has expired.
    Ms. Schakowsky. I'm afraid I don't really understand the 
technology, so you'll forgive me a little bit if I ask 
questions that are silly.
    I'm looking now at Mr. Pitts' handout and when I look at 
Google which searches websites, am I correct about that? Okay, 
that when you search a website and the filter is in place, we 
find that there's no pornographic websites when you search for 
Cinderella.
    When we look at Cinderella on this P2P network, I don't 
know what you call it, P2P file sharing, we get a lot of these 
pornographic information. So what I'm trying to understand is 
it a problem with the filtering system, I don't know what that 
implies, that there could be better blocking on the P2P or that 
the technology itself precludes that kind of blocking? And I 
wondered if one of you could answer that.
    Mr. Lourdeau. If I could just answer, maybe I could help 
out is that with peer-to-peer, when you share the files that go 
between one computer and another computer, individual 
computers, so it's not a file server that goes between. So to 
block out or use filters that would block one message from your 
computer to my computer that would not work.
    Ms. Schakowsky. There's no possibility for doing that kind 
of filter?
    Mr. Lourdeau. I can't address if there is a possibility or 
not. I'm not a real technical person. So there might be some 
way to do that and again, I think that's private industry's 
position to come up with some type of block or filter to make 
that work.
    Ms. Schakowsky. Let me ask you the question that the 
Chairman asked Mr. Beales. Are you able though to identify, I 
thought I heard you say that in your testimony, that you can 
identify the individual who does have this porn on their 
computer, on their e-mail that e-mails it. You can identify 
those individuals?
    Mr. Lourdeau. We've come up with a protocol and 
investigative technique that will identify individuals that are 
sharing child pornography through peer-to-peer. Again, that's 
part of our new initiative that we have on-going now, so I 
don't want to get into too much of that, that would jeopardize 
those investigations.
    Ms. Schakowsky. Well, then let me ask you the question of 
whether you think there are enough legislative tools, legal 
tools for you to use or if you do think that we need more 
legislation that would help?
    Mr. Lourdeau. That's something I can review and get back 
with the subcommittee, if you allow me to. We're always looking 
for ways that would assist law enforcement in legislation and 
I'd be more than happy to again review anything that the 
subcommittee could help through legislation.
    Ms. Schakowsky. Ms. Koontz, did you find that P2P is 
necessarily more risky than other means of accessing pron on 
the web? Or were you not comparing?
    Ms. Koontz. Our study was focused on the availability of 
child pornography on peer-to-peer networks as well as the risk 
of inadvertent exposure to juvenile users. But that focused 
solely on the peer-to-peer networks. We did not try to compare 
either availability or inadvertent use to the Internet, to news 
groups or to any other kinds of technology. This was beyond the 
scope of what we were doing. However, we do note that we know 
that pornography is pervasive on these other mediums and that 
there is a risk of inadvertent exposure on them as well, but we 
can't do the quantitative comparison that you're asking about.
    Ms. Schakowsky. Let me ask you this, do any of you feel 
that this will be the method of choice? You said that there's 
been, I think everyone said there's been an increase in the 
amount of pornography available through this P2P networks, but 
I'm wondering if that is not also true of all the others, of 
the websites, etcetera, or if we're seeing a trend now, this is 
going to be the way that seems easiest or most desirable for 
child predators or for purveyors of porn.
    Mr. Beales. Congresswoman, I think the factor that will 
limit expansion through this channel as opposed to others is 
that it's a lot harder to make money from it in the peer-to-
peer context. In the website context, or in the e-mail context, 
you can try to sell people something and that's often a lot of 
the incentive to engage in the practice. You can't do that in 
the same way over the peer-to-peer networks and that's not to 
say it doesn't happen there, but it happens at a more 
individual level and not at a commercial level.
    Ms. Schakowsky. The motivation though for someone then to 
use peer-to-peer might, in fact, be more the predators, rather 
than people who are seeking a profit might go there. Is that 
true?
    Mr. Lourdeau. I think it is true. Predators get on peer-to-
peer networks and they know the terms to put in to obtain child 
pornography images, so that is true.
    Ms. Schakowsky. I have a lot more to learn. Thank you.
    Mr. Stearns. Thank the gentlelady. The gentleman from 
Pennsylvania, Mr. Pitts.
    Mr. Pitts. Thank you, Mr. Chairman. First of all, I want to 
thank the witnesses for their testimony. I want to thank the 
FTC for all they do and resources they offer to help consumers, 
especially parents, better understand the problems of 
pornography on the Internet and peer-to-peer.
    Regarding the filters on the peer-to-peer systems in your 
opinion, Mr. Beales, do the filters provide clear and 
conspicuous information on how the filters work, filtering 
searches rather than content?
    Mr. Beales. I don't know that we've looked at that in 
detail as to exactly how they describe the use of the filter. 
We have looked at some of the filters and what we found is the 
way they work, as we understand it, is they just filter based 
on the file title or description, rather than on the full 
content of the file. I mean that would be unlike a web search 
engine which can look at the whole webpage and look at the 
content and not just the description.
    Mr. Pitts. The FTC mission is to protect consumers against 
unfair and deceptive practices in commerce. According to the 
FTC an act is unfair if, among other things, the practice 
causes injury to consumers. Does a child inadvertently 
downloading pornography or even child pornography qualify as 
harm to a consumer?
    Mr. Beales. What we would typically focus on is how it 
happened. Tricking a child into doing that, there's no question 
that that's an unfair and deceptive act or practice and there's 
an injury in that kind of a context.
    The nature of the injury that's involved in child 
pornography per se is really more of a criminal issue than 
something that's a typical FTC issue.
    Mr. Stearns. One of the dangers of peer-to-peer is when a 
person or a child accidentally downloads a pornographic file, 
if he or she immediately closes the file, but does not delete 
it, he or she becomes a distributor of that file, therefore a 
person can unknowingly become a distributor of child 
pornography. This, of course, could lead to legal problems for 
that individual.
    Has the FTC looked into this aspect of peer-to-peer 
technology? Does this meet the threshold of an unfair practice?
    Mr. Beales. We have not looked into that at this point. It 
is again, if we're talking about something systematic where 
somebody is doing this on a large scale, to get kids to 
download images, that would certainly be something that we 
would be interested in that we think would be a violation.
    There's one of our other recent spam cases is the Westby 
case and what it involved, and I think it's a good example of 
the kinds of things we're looking for in addressing this 
problem. This case involves spam with deceptive subject lines 
that try to trick you into opening the message and when you 
did, there were pornographic images. We think that was a 
deceptive practice. We think that's an unfair practice. We 
think it's a fairly straight forward case for us to make and it 
was in that particular instance, we prevailed in Court.
    Mr. Pitts. Thank you. Mr. Lourdeau, with that illustration 
I gave, could you speak to how this complicates law enforcement 
efforts? There are probably thousands of people who are 
unknowingly distributing pornography out there.
    Mr. Lourdeau. And you're correct, sir. We have to prove 
intent and for the violation of the crime and for--that's one 
reason why the Bureau came out with a consumer letter that's 
posted on our website notifying the public of the dangers of 
peer-to-peer because of the bad potential, that if they are on 
the network sharing files between each other, that they are 
opening their systems up where somebody could come in and dump 
child pornography on their computers and that's one of the 
dangers of using the peer-to-peer programs.
    Mr. Pitts. I think in your testimony you reference peer-to-
peer software industry members that were considering placing 
icons or popups from home pages regarding subjects wanted by 
the FBI for exploitation of child on the Internet. Could you 
explain this concept a little bit more in detail?
    Mr. Lourdeau. Again, we work with a lot of different 
private industry companies because we have to because the 
technology is moving ahead so quickly, we need the cooperation 
of a lot of different private industries. We work with 
financial sectors. We work with ISPs. We work with companies 
involved in peer-to-peer software, just to help educate the 
public, also to give us the information we need to identify 
individuals that are using peer-to-peer.
    We're in preliminary discussions with a number of different 
companies on how to again be more proactive and not just react 
to cases that come to the attention of individuals sharing 
child pornography and again, those are preliminary discussions 
and we haven't confirmed those yet.
    Mr. Pitts. Thank you, Mr. Chairman, my time is up.
    Mr. Stearns. Mr. Terry.
    Mr. Terry. Mr. Beales, can you help me work through and 
explain the brown paper wrapper, in essence, putting some type 
of a mark out there that I would understanding that that 
particular file is--contains explicit images or content? Can 
you tell me how that would work in the area of peer-to-peer? Is 
there any overlap between our CAN-SPAM Act? Does it apply to 
the peer-to-peer fields that are posted? Is there something 
else that we need to do legislatively that would empower the 
FTC to force these peer-to-peer fields to be forthcoming in 
what the content is?
    Mr. Beales. I think the thing that's difficult about the 
peer-to-peer context is you're dealing with individual files 
labeled by individuals. And to go after those one at a time or 
to try to enforce brown paper wrapper kind of requirement one 
at a time, is something that would be exceedingly difficult to 
say the least. It's not like--because what you have is a single 
file or maybe a set of files, but it's from a single user who's 
posting those files on the Internet. And you'd be dependent on 
that individual to take the steps to comply with that 
requirement.
    Mr. Terry. Mr. Lourdeau, do you have anything to add from 
the FBI--do you agree that it is just too cumbersome, too large 
to go after individually? Is there anything that the FBI in 
that regard would require from us?
    Mr. Lourdeau. It is a massive problem and again, our new 
peer-to-peer initiative that we have underway addresses some of 
that and it's going to go after individuals who are sharing 
child pornography between each other and that's the initiative 
and again, in about 2 weeks I can speak more on that 
initiative.
    Mr. Terry. All right, in the Washington Post today there 
was a nice article that helped educate the public about peer-
to-peer and its hazards. It also mentioned that the FBI is 
working with the BearShare, I think was mentioned and Kazaa had 
a whole separate paragraph to itself, which it should, 
considering that's probably one of the largest peer-to-peer 
sites or software.
    Are there, is it true that Kazaa is quote unquote 
cooperating to make sure that you can find those who are 
sharing child pornography and are you able to tell us if there 
are some of those sites that aren't cooperating with you?
    Mr. Lourdeau. Again, we do cooperate with a lot of our 
industry partners because we have to. We need the cooperation 
of private industry to identify some of the subjects that are 
sharing files. The technology that the industry has and the 
access to information they have, the government does not have, 
so we need to cooperate with private industry.
    We have had discussions with private industry on this 
technology and we welcome the shared knowledge that they have 
to help us address this crime problem. And to get into 
discussions of which industry partners are more cooperative 
than others, I don't know if this is the right forum for that.
    Mr. Pitts. Okay. Is there a private forum that you would 
let us know which ones are not?
    Mr. Lourdeau. I'd be more than happy to give your staffers 
and yourself a briefing, yes sir.
    Mr. Pitts. I appreciate that.
    Mr. Stearns. The gentleman yields back. Going to Mr. 
Ferguson, the gentleman from new Jersey.
    Mr. Ferguson. I have no questions, Mr. Chairman.
    Mr. Stearns. No questions. Next, Mr. Bass is not here. Go 
to Mr. Otter. No questions. Mr. Whitfield.
    Mr. Whitfield. Mr. Chairman, I'll just ask one brief 
question. I was just curious, Ms. Koontz, whether or not you 
all had followed up since your 2003 report to look specifically 
at any new technologies incorporated into the P2P software?
    Ms. Koontz. We have not.
    Mr. Whitfield. Have not, okay. Thank you.
    Mr. Stearns. Thank the gentleman. Mr. Sullivan?
    Pass. And Mr. Shadegg. Pass.
    Before we go, I just want to ask Ms. Koontz, just a 
question. I understand the title of your GAO audit was ``File 
Sharing Programs, Users of Peer-to-Peer Networks Can Readily 
Access Child Pornography.'' Is that correct?
    Ms. Koontz. That's correct.
    Mr. Stearns. Is the risk of inadvertent exposure to 
pornography to children increasing on the Internet today? Just 
yes or no?
    Ms. Koontz. I don't know.
    Mr. Stearns. Can you tell us is child pornography 
increasing on peer-to-peer, yes or no?
    Ms. Koontz. It appears to be the case based on the number 
of tips forwarded to the National Center for Missing and 
Exploited Children. It appears to be the case, yes.
    Mr. Stearns. But in your actual study that you did, the GAO 
study, did not show that there's a trend increasing on peer-to-
peer?
    Ms. Koontz. Our study was at a point in time. We would have 
to sample at another point in time to tell you what that 
comparison was.
    Mr. Stearns. Do you intend to do that or not?
    Ms. Koontz. If we are asked to do so, we will.
    Mr. Stearns. Okay. All right, I thank panel 1 and we'll now 
call for panel 2.
    We have Mr. Charles Catlett, Senior Fellow, Computation 
Institute of Argonne National Laboratory. Mr. Martin Lafferty, 
Chief Executive Officer of Distributed Computing Industry 
Association. Mr. Norbert Dunkel, he's Director of Housing and 
Residence Education, University of Florida in Gainesville. Mr. 
Ernie Allen, President and Chief Executive Officer of the 
National Center for Missing and Exploited Children; and last, 
we have Ms. Penny Nance, President of Kids First Coalition.
    So I welcome the second panel and thank you for your 
patience and time and we look forward to your opening 
statements and I think we'll start with Mr. Catlett, if you're 
ready to go.
    Mr. Catlett has a demonstration for us, so I think we might 
need to turn down the lights a little bit, so that we can see 
it clearly on the television.

  STATEMENT OF CHARLES E. CATLETT, SENIOR FELLOW, COMPUTATION 
  INSTITUTE, ARGONNE NATIONAL LABORATORY; NORBERT W. DUNKEL, 
  DIRECTOR OF HOUSING AND RESIDENCE EDUCATION, UNIVERSITY OF 
 FLORIDA; ERNIE ALLEN, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
NATIONAL CENTER FOR MISSING AND EXPLOITED CHILDREN; PENNY YOUNG 
NANCE, PRESIDENT, KIDS FIRST COALITION; AND MARTIN C. LAFFERTY, 
    CHIEF EXECUTIVE OFFICER, DISTRIBUTED COMPUTING INDUSTRY 
                          ASSOCIATION

    Mr. Catlett. Thank you, Mr. Chairman.
    Mr. Stearns. Get it right close to you. Sometimes these 
people drop their voice and then you can't hear them.
    Mr. Catlett. I've been working in the Internet for 20 years 
and I'm honored to be here and talk to you today about this. 
I'm also a father of three and these are things that concern me 
quite a bit, inappropriate material on the Internet.
    I want to spent a little bit of time as a software and 
Internet expert telling you about some of the interesting 
things that we're doing on the Internet and specifically with 
distributed computing. I'm speaking as the Executive Director 
of the TeraGrid project which is funded by the National Science 
Foundation. We're building a distributed system with about 10 
universities across the country. And I'm also the chair of an 
international group called the Global Grid Forum and this is 
about 200 organizations, 75 companies, worldwide. We develop 
specifications and standards for distributed software primarily 
for commercial and science applications.
    Speaking of software, it's very difficult to classify 
software. We talk about distributed systems and that's any 
computer software that talks to another piece of software 
across a network. There are three kinds of distributed systems 
we generally talk about. One is client server. A client server 
system is like a web browser talking to a website.
    Grid computing is what we talk about in the sciences 
because we want to combine resources that are not all available 
in one location, to be able to do an advanced application. I'll 
speak a little bit about three such applications.
    And peer-to-peer tends to be desktop computers talking to 
one another and these tend to be much larger networks than the 
other, than the grid computing types.
    One of the partners that we work with with our TeraGrid 
project is from the University of Oklahoma. This is the Center 
for Analysis and Prediction of Storms. And the goal of this 
project is to combine weather sensors that are Internet 
connected, doppler radar and things like that with super 
computers and data bases to be able to take our weather models 
and accelerate or increase the amount of time that citizens 
have available to them to take shelter in the case of a tornado 
or severe storms.
    I live in Illinois. I'm told that the average time between 
a warning and the time you actually have to hit the cellar is 
13 minutes. With a program like that, we can increase that to 
an hour or 2 and actually predict the path of a tornado through 
a city like you see here. This is Fort Worth from 1998.
    A second project is a medical project. This is very similar 
to peer-to-peer, but the content here is medical data, MRI 
data, protein data bases and the point of this project is to 
give people who are investigating brain diseases, give clinical 
researchers and academic researchers access to many more data 
bases than they might be able to have access to otherwise, do a 
single search, ask a complex query of 50 or 60 data bases that 
are federated or connected together using similar to peer-to-
peer technology on the Internet. This is led by the University 
of California at San Diego.
    And the third project is working with EPA and specifically 
the National Exposure Research Laboratory. We're investigating 
whether we can use the same technology that companies use to 
model say airflow over the body of a car, whether we can use 
that air flow model technology to model air flow through a 
city, an urban area. So if we could take a model of a city and 
we have data from a disaster, an explosion, a plume of smoke, 
toxins, airborne toxins, we're investigating the use of peer-
to-peer and Internet technology to be able to bring that 
capability to the point where you might use it to guide 
emergency workers on the ground, if this plume of smoke is 
going to go this way and not that way.
    I'd like to close with just a word or two about H.R. 2885, 
again, I appreciate being able to be here and talk to you about 
this because this is a concern I have as well. I think there's 
some very good ideas in this bill. The required warnings, 
standard notices for consumers allowing me as a consumer to 
make a choice about what the software is doing, not having some 
of the software that sneaks in and does things, I think that's 
excellent.
    I would say also that in the Internet technology, 12 months 
is almost like a decade in other technologies and a lot can 
happen in 12 months. The language in this particular bill 
concerns me slightly because it's very broad and as I read it, 
it actually encompasses almost all of the software that is 
running on my computer right here. So I think with some 
precision, I think this would be very helpful and a strategy of 
working with software providers to actually harness the 
innovation and the technology that's available to combat this 
problem, I think is a very good approach. Thank you very much.
    [The prepared statement of Charles E. Catlett follows:]

Prepared Statement of Charles E. Catlett, Senior Fellow, University of 
    Chicago and Argonne National Laboratory Chair, Global Grid Forum

    Good morning, Mr. Chair and Members of the Committee. Thank you for 
allowing me this opportunity to comment on the use of the Internet and 
distributed computing technologies. I am Charles E. Catlett, a senior 
fellow at the Computation Institute at the University of Chicago and 
Argonne National Laboratory. I am the executive director of the NSF 
TeraGrid project, which is constructing one of the world's most 
powerful distributed computing systems, scheduled to be completed in 
October of this year. I am also the founding chair of the Global Grid 
Forum, an international standards body that brings together distributed 
computing researchers, commercial software providers, and end users to 
create software standards for distributed computing on the Internet. I 
have been involved in the evolution of the Internet since 1984, doing 
research in both advanced network technologies and the practical 
applications that these technologies enable. My work has been aimed at 
providing increasingly powerful information technology tools for the 
science and education community.
    I am also a father of three, and I pay very close attention to what 
my children are able to do with the Internet and Peer-to-Peer software 
in particular. I am very encouraged by your interest in these issues, 
which involve very complex technology and which have far-reaching 
impact on our Nation, and I am honored to speak with you about this 
technology.
    I have prepared some brief remarks regarding what types of 
applications are possible with the increasing availability of broadband 
Internet and distributed computing software capabilities, and several 
examples of the kind of benefit we are seeing from these capabilities.

1. Peer-to-Peer and ``Grid'' Computing
    Many terms have substantial overlap and cause confusion in 
discussions about the Internet and related software, so I would like to 
start with straightforward definitions of four such terms.
    ``Distributed computing'' is a general term that refers to any set 
of computers that work together, using a network, to provide some form 
of capability. Most distributed computing software used on the Internet 
falls into three categories:
    ``Client-Server'' computing involves a person using a program (a 
``client'') on a home or office computer, interacting over a network 
with a larger computer, or ``server.'' The server provides information, 
applications, or services to many clients. A Web browser is an 
illustration of a client, and the Google search site is an example of a 
server. Thus the Web is essentially a client-server system.
    ``Peer-to-Peer'' could fairly be described as ``client-to-client'' 
computing, where the participating clients run on home or office 
computers, and where there may be tens of thousand or even millions of 
computers involved in sharing information or computing capabilities.
    ``Grid'' is a term that is used increasingly often to refer to what 
we might call ``server-to-server'' computing. In a Grid system, shared 
resources such as powerful servers, databases, or scientific 
instruments are integrated to support applications that need powerful 
capabilities not available at a single location. Users of Grid systems 
may access them via client-server approaches.
    All three forms of distributed computing share the Internet as 
their communications utility, and have many attributes in common. It is 
also difficult to classify many applications into only one of these 
three categories, because the most powerful applications tend to 
combine aspects of all three forms.
    For this reason, it is important to consider a wide range of 
application types in order to determine the impact that would be felt 
with the introduction of regulations aimed at a particular software 
genre. This is not unlike the work that we do in the Global Grid Forum, 
where we consider the broader impact of any changes to a protocol or 
interface standard.
    As with other Internet technologies such as the World Wide Web, it 
is difficult to predict what new applications will be enabled with new 
capabilities. Peer-to-peer technology is a good example, and in the 
research community we find a number of promising applications that are 
being developed and evaluated.
    We see potential uses of ``peer-to-peer'' technology in many venues 
where information--whether scientific, clinical, or educational data--
is shared among a large population of potential users. For example, the 
``OceanStore'' project at the University of California-Berkeley is 
using peer-to-peer techniques to provide highly available, virtually 
``indestructible'' storage systems that assume the underlying servers 
will be neither reliable nor secure. Groove Networks is a commercial 
software firm that uses peer-to-peer technology to create secure 
collaboration services for distributed teams, allowing individuals to 
work closely ``together'' despite being spread across many time zones. 
And many Grid applications share some aspects of peer-to-peer, as I 
discuss below.

2. Practical Scientific Applications Using Distributed Computing 
        Technologies
    I would like to focus on three applications of distributed 
computing technology. These are illustrative of the type of 
applications being developed on today's Internet, each of which uses a 
variety of distributed computing technologies. In each of these cases, 
peer-to-peer software has the potential for extending data sharing 
capabilities to a much broader audience than the current scientific 
collaborations, however none are using peer-to-peer software today.
    The first involves predicting and response to severe weather, which 
causes hundreds of lost lives and some $13B in economic loss annually. 
Here I describe the work of Professor Kelvin Droegemeier, director of 
the Center for Analysis and Prediction of Storms, and his colleagues. 
Weather applications are aimed at improving the nation's infrastructure 
for predicting and preparing for severe weather.
    The second involves biomedical research aimed at understanding 
brain-related disease ranging from Alzheimer's to attention deficit 
disorder. Dr. Mark Ellisman, director of the Biomedical Informatics 
Research Network (BIRN), and collaborators at twelve U.S. universities 
are using the Internet to create highly secure, nation-wide research 
and clinical data-sharing capabilities. The BIRN project uses the 
Internet and distributed computing and information technologies to 
create infrastructure aimed at improving biomedical research by 
enabling researchers throughout the United States to collaborate on 
large-scale studies of human disease with unique, multi-resolution 
tools. BIRN uses technology that is quite similar to peer-to-peer 
software, albeit with much greater control over security, access and 
authorization.
    The third application is the analysis of urban air quality and 
airflow, seeking to understand the impact of both existing pollutants 
and potential effects of airborne toxins from events such as fires or 
explosions. This application includes the work of Dr. Alan Huber and 
colleagues from the Environmental Protection Agency's National Exposure 
Research Laboratory, Argonne National Laboratory's Environmental 
Assessment Division, and Fluent, Inc., a commercial software provider.

2.1 Severe Weather Prediction and Early Warning
    The Center for Analysis and Prediction of Storms (CAPS) at the 
University of Oklahoma engages in basic and applied research in storm-
scale data assimilation and numerical weather prediction, with several 
ongoing programs in collaboration with colleagues around the country. 
The work is aimed at integrating weather sensors and computer models, 
using high-performance computers and the Internet, to rapidly model 
evolving weather patterns in order to predict destructive storms in 
time to provide advanced warning.
    Beginning in 1998, for instance, CAPS worked with the University 
Corporation for Atmospheric Research (UCAR) Unidata Program, the 
University of Washington, the National Severe Storms Laboratory (NSSL), 
and the WSR-88D Operational Support Facility (now the Radar Operations 
Center ROC) to establish the Collaborative Radar Acquisition Field Test 
(CRAFT) project. The goal of CRAFT was to demonstrate the real time 
compression and Internet-based transmission of NEXRAD data from 
multiple radars with a view toward nationwide implementation. CAPS is 
currently working with the National Weather Service to transition the 
CRAFT system into an operational service.
    To further advance sensor capabilities, CAPS is working with the 
Center for Collaborative Adaptive Sensing of the Atmosphere (CASA) at 
the University of Massachusetts at Amherst, to revolutionize the remote 
sensing of the lower troposphere, initially via inexpensive, low-power, 
phased array Doppler radars placed on cell towers and buildings. A 
unique component of this project is that the sensors interact with one 
another, using the Internet to dynamically adjust their characteristics 
to sense multiple atmospheric phenomena while meeting multiple end user 
needs in an optimal manner. These communications and data sharing 
techniques are similar to what is typically classified as peer-to-peer.
    Computer models have been used to predict long-term weather trends 
for several years. However, in order to predict severe weather with 
sufficient precision and in a time frame to allow for early warning, 
high-performance computing systems are essential. Several years ago 
CAPS developed computer-based storm prediction capabilities to identify 
severe thunderstorm activity with roughly 4 hours notice. This amount 
of time was sufficient, for example, to inform airlines of pending 
thunderstorms at major hubs, allowing those airlines to delay flights 
prior to takeoff in order to ensure that landing would be possible, 
greatly reducing the cost of diverting aircraft once in the air.
    Today CAPS also leads an NSF-funded project called Linked 
Environments for Atmospheric Discovery (LEAD), which aims to create 
capabilities for analysis tools, forecast models, and data repositories 
to function as dynamically adaptive, on-demand systems. These systems 
will change configuration rapidly and automatically in response to the 
evolving weather, responding immediately to user decisions based on the 
weather problem at hand, and enabling the steering of remote observing 
systems to optimize data collection and forecast/warning quality. The 
goal of such systems is to provide precise information about the 
predicted path of destructive weather, such as tornados, in a timeframe 
that permits citizens to prepare for, rather than react to, such 
weather.

2.2 Nationwide Sharing of Biomedical Research Data
    The Biomedical Informatics Research Network (BIRN) is an initiative 
sponsored by the National Institutes of Health (NIH) and National 
Center for Research Resources (NCRR). BIRN fosters large-scale 
biomedical science collaborations by utilizing emerging distributed 
computing technologies and the Internet, including applications 
distributed among high-performance computers, databases, and new 
software and data integration capabilities developed within the project 
and elsewhere.
    The BIRN currently involves a consortium of 12 universities and 16 
research groups participating in three testbed projects centered on the 
brain imaging of human neurological disease and associated animal 
models. Some
    BIRN groups are working on large-scale, cross-institutional imaging 
studies on Alzheimer's disease, depression, and schizophrenia using 
structural and functional magnetic resonance imaging (MRI). Others are 
studying animal models relevant to multiple sclerosis, attention 
deficit disorder, and Parkinson's disease through MRI, whole brain 
histology, and high-resolution light and electron microscopy.
    These studies are being used to drive the definition, construction, 
and daily use of a ``federated data system.'' Federation presents 
biological data held at geographically separated Internet sites to 
appear as a single, unified and persistent data archive. Data is 
securely accessed across institutional boundaries to address issues of 
data privacy and automatic translation of data formats. Most of the 
groups participating in the BIRN have traditionally conducted 
independent investigations on relatively small populations, using site-
specific software tools.
    The promise of the BIRN is the ability to test new hypotheses 
through the analysis of larger patient populations and unique 
multiresolution views of animal models through data sharing and the 
integration of site independent resources for collaborative data 
refinement. To accomplish these goals, the BIRN project will continue 
to rely on innovative distributed computing technologies on the 
Internet.

2.3 Air Quality and Impact of Airborne Biological or Toxic Agents
    Understanding the pathway of toxic air pollutants from source to 
human exposure in urban areas is of critical interest to the US 
Environmental Protection Agency, and has been an ongoing activity. 
Rapid assessments of risk, such as the migration of toxic gases related 
to major fires or chemical spills, are vital to first responders, local 
officials, federal officials, and the public. The scientific 
shortcomings are especially serious for incidents that occur in an 
urban center where the understanding of airflow around large buildings 
is poor.
    Computational fluid dynamic (CFD) simulations have long been used 
in the aerospace and automotive industries to evaluate airflow around 
planes and cars, and increasingly in biomedical applications such as 
the modeling of blood flow through the heart. CFD techniques also have 
the potential to be employed to describe the flow of pollutants (be 
they a plume from an event such as an explosion or fire, or be they the 
dispersion of some pollutant or agent) in the complex terrain that our 
urban areas represent.
    EPA scientists in the National Exposure Research Laboratory are 
working with Argonne National Laboratory's Environmental Assessment 
Division and Fluent, Inc. in a computational laboratory setting to test 
and use high fidelity CFD simulations of the spread and transport of 
contamination in urban building environments. In addition, the EPA-
Argonne collaboration will also explore the possibility of developing 
or adapting the products from CFD simulations to support rapid exposure 
and risk models to potentially guide urban emergency response and 
emergency management for chemical, biological or radiological attacks 
or accidents.
    As part of this investigation, EPA and Argonne scientists will use 
the Internet to exchange databases, simulation results, and other types 
of data. Experiments will be done using several forms of distributed 
computing on the Internet. One approach to be explored is the use of 
Fluent's Remote Simulation Facility, a Web-based ``portal'' that allows 
users to upload data from their computers to run a simulation on 
Fluent's computers. Another will be to use supercomputers at Argonne in 
client-server mode, and a third approach will attempt to couple 
Fluent's portal with supercomputers in NSF's TeraGrid project. All of 
these approaches are likely to be useful for some types of work, and 
some may employ technology that has functionality similar to peer-to-
peer software.

Concluding Remarks
    As a father and as a citizen I am very concerned about the 
availability of inappropriate material on the Internet. I would like to 
make several comments specifically regarding H.R. 2885.
    The proposed requirements for clear and prominent notice would, in 
my view, be useful for software in general. Typical software end user 
license agreements are incomprehensible to average people. We have 
standard labels on food products to help consumers determine 
nutritional value, and dangers. A similar program for software could be 
designed to cover the disclosure proposed in H.R. 2885 as well as 
disclosure regarding privacy and security risks.
    It is also very important to provide the user with clear and 
prominent notice regarding information sharing status and to require 
that file sharing be explicitly enabled at the user's discretion, not 
without their knowledge. Indeed some of the peer-to-peer software I 
have seen in recent months has already moved in this direction.
    The proposed ``do-not-install'' beacon is an interesting idea, and 
I would encourage the committee to engage leaders from the software 
industry in exploring this idea and possible implementations.
    I note that the H.R. 2885 definition for ``peer-to-peer'' software, 
as written, covers nearly all Internet software that I am aware of, 
including Web software, instant messaging software, and file transfer 
programs. In addition, the exclusion of software that is ``marketed and 
distributed primarily for the operation'' of networks implies that 
functionality built into computer operating systems (such as Windows or 
MacOS) would be excluded from these requirements. In practice, this 
would place a greater software engineering and support burden on small 
companies developing Internet software than would be placed on large 
companies adding new functions to operating systems software. This 
would put small software companies at a distinct disadvantage relative 
to their larger competitors.
    In summary I would like to commend this committee for taking on 
this complex set of issues. I would also respectfully encourage the 
committee to engage leaders and experts from the software industry to 
work together toward achieving what I believe to be a common goal of 
protecting our children, and our privacy, while continuing to encourage 
innovation in this country using the Internet. This will require much 
more precision in the definition of the software to be regulated. Thank 
you very much for the opportunity to speak with you.

    Mr. Stearns. Thank you. Mr. Lafferty. Do you want me to 
take Mr. Dunkel and come back to you? That would be fine.
    Mr. Dunkel, welcome. We'd like your opening statement, if 
you could.

                 STATEMENT OF NORBERT W. DUNKEL

    Mr. Dunkel. Thank you, Mr. Chairman, and members of the 
subcommittee. Good morning. I am Norb Dunkel, Director of 
Housing and Residence Education at the University of Florida. 
Thank you for the opportunity to appear before the subcommittee 
in order to provide you with information regarding the 
education of resident students and providing stewardship to our 
technological resources.
    Many of you likely lived in a residence hall while 
attending college or university. Today's residence halls 
possess many, many more amenities and services than when I or 
you went to college. The electric typewriter that I brought was 
a hit to the guys on the floor. Well, now students are each 
bringing color TVs and stereo DVD players and refrigerators and 
videogame systems and desktop computers and laptop computers, 
along with their blackberry or cell phone or their PDA or other 
devices.
    Now there are approximately 2 million students living in 
residence halls on campuses in the United States. One of the 
greatest additions to residence halls in the recent years is 
high speed ethernet connection. This high speed connection is 
used to support the institution's mission by allowing students 
to access online classes, replaying video classes, accessing 
class syllabi, signing up for classes online and the like. We 
are seeing connection speeds that only 6 or 8 years ago were 
the slow dial up modems to now 1,000 megabits which equals one 
gigabit connection.
    As a comparison, with a dial modem it would take a person 
about 29 hours to download a 2-hour movie. With a gigabit 
connection, it takes about 6 seconds to download that same 2 
hour movie. Downloading music files are inconsequential at that 
speed. The speed and efficiency is tremendous and will only get 
better and faster.
    As housing professionals, we have two duties regarding the 
data connections we provide for residence students. First, we 
have a duty to educate our residence students as to the 
acceptable use of their computer and the network. Second, we 
have a duty to be good stewards in maintaining the 
technological infrastructure that we provide to students. 
Housing operations need to take an active role in educating 
residence students. A colleague and I recently found that 93 
percent of institutions with high speed connections actively or 
passively educate their students. Some institutions, such as 
the University of Delaware, require students to take a 
responsible computing exam before they can obtain a network ID 
and password. The exam covers copyright resources, computer 
security, spam and harassing e-mail, bandwidth measurement and 
commercial and charitable use. The University of Hawaii in 
Manoa has residents sign for handbook accepting responsibility 
for reading and following the rules contained within.
    At the University of Florida, residents register their 
computer online and electronically sign that they have read, 
understood and will abide by the policies governing acceptable 
use. For many students, this is all they will ever need. They 
will accept the policies and make no attempt to circumvent the 
policies. For other students, we need to be more active. To be 
good stewards of our technological infrastructure, my staff 
developed software to serve as a new network management 
program. We had to develop this software because the network 
could no longer support the academic needs due to high peer-to-
peer volume. One tool available through this program mitigates 
peer-to-peer file sharing, while continuing to simultaneously 
educate students all while maintaining a network service free 
of illegal copyright sharing behaviors.
    We wanted residents to understand that when they arrive on 
campus, and move into a residence hall, a new level of personal 
behavior and responsibility on the use of their computers and 
Internet would be expected. Most freshmen students arrive on 
campus having unabated access to the network. No knowledge of 
installing virus protection and they would allow anyone to use 
their computer. The education taking place on campuses stresses 
that students need to take responsibility for their computer 
and the use of their computer.
    With me today is Mr. Rob Bird, the architect of the 
software program called ICARUS. I have sent you an advance, 
more detailed information on this program and its features, as 
well as the very successful outcomes. Rob is also available to 
answer your questions surrounding the technology and I would be 
happy to respond to your questions regarding the education. 
Thank you.
    [The prepared statement of Norbert W. Dunkel follows:]

   Prepared Statement of Norbert W. Dunkel, Director of Housing and 
  Residence Education and Rob Bird, Coordinator for Network Services, 
  Department of Housing and Residence Education, University of Florida

    I want to thank you for the opportunity to appear before the 
subcommittee to provide you information regarding the education of 
resident students and a new approach to mitigating Peer To Peer (P2P) 
file sharing. With me is Mr. Rob Bird the architect of the software 
program ICARUS which is an acronym for Integrated Computer Application 
for Recognizing User Services.
    Many of you likely lived in a residence hall while attending a 
college or university. Today's residence halls possess many more 
amenities and services than when I attended Southern Illinois 
University at Carbondale. I came with a suitcase, box, and electric 
typewriter. The other students could not believe I had an ``electric'' 
typewriter.
    There are approximately 2 million students living in residence 
halls on campuses in the United States. Today, students are moving into 
residence halls where suites and apartment style living is becoming 
increasingly available. The amenities that exist in residence 
facilities today include enhanced studying and recreational facilities; 
contemporary dining accommodations; and larger rooms with more storage 
to name a few. However, one of the greatest additions to residence 
halls is high speed Ethernet connection.
    The primary purpose for providing Ethernet connection in residence 
halls is to support the academic mission. Many institutions, including 
the University of Florida, utilize this high-speed residential 
connection for on-line classes; accessing on-line services (i.e., class 
registration, room sign-up, ordering class textbooks, etc.); replaying 
video classes; accessing class syllabi; and working on group projects.
    We have seen connection speeds grow in six or eight years from slow 
dial up modems to 10 MB to 100 MB to 1000 MB (1 Gigabit) speeds. As a 
comparison, with a dial up modem it would take a person about 29 hours 
to download a two hour movie. With a Gigabit connection, it takes about 
6 seconds to download a two-hour movie. The speed and efficiency of 
this technology is tremendous.
    As housing professionals, we have two duties regarding the data 
connections we provide to students. First, we have a duty to educate 
our resident students as to the acceptable use of their computer and 
the network. Second, we have a duty to be good stewards in maintaining 
the technological infrastructure that we provide students.

                               EDUCATION

    In educating the resident students, we see many of our housing 
operations across the United States having integrated the academic 
community within the residential setting. Institutions have residence 
halls with live-in faculty, ``smart'' classrooms, faculty offices, 
space for tutoring, and space for academic advising. We see science-
based (i.e., engineering, math, etc.); education-based (teaching, 
etc.); and fine arts-based (i.e., architecture, dance, theatre, etc.) 
residential academic communities. These types of arrangements and 
others lead to increased grade point averages for residents, increased 
graduation rates, increased respect for faculty, and increased 
psychosocial development. The education of our students is no longer 
taking place only in the classroom environment. The classroom 
environment is now in the residential setting.
    Accompanying the residential academic environment is the need for 
housing operations to assist in the education of resident students on 
acceptable uses of the technology available to them. In an on-going 
study (J. Haynes and N.W. Dunkel, 2004), we have found that of the 
institutions surveyed with high speed connections in residence halls, 
92% actively or passively educate their residents on the acceptable use 
of their computer and the Internet.
    There exist a number of different approaches to this education. The 
information that is shared with residents may be as simple as defining 
terms and providing answers to frequently asked questions. The 
information may provide a general overview of the various aspects of a 
network and computer usage. At the University of Delaware, students 
must take a responsible computing exam before they can obtain a network 
ID and password. The exam covers copyright resources, computer 
security, spam and harassing e-mail, bandwidth measurement, and 
commercial and charitable use. At the University of Hawaii in Manoa, 
residents sign for the handbook accepting responsibility for reading 
and following the rules contained within. At the University of Florida, 
residents register their computer on-line and electronically sign that 
they have read, understand, and will abide by the policies governing 
acceptable use.
    We know that for some students, reading the policies is all they 
will ever need. They will accept the policies and make no attempt to 
circumvent the policies. For other students, we need to be more active 
in our oversight and education.

                         STEWARDS OF TECHNOLOGY

    Housing professionals must be good stewards of the technological 
infrastructure provided to students. The information that follows 
provides a summary of the ICARUS program developed by Mr. Rob Bird. 
ICARUS is a network management tool and one of the tools available is 
the mitigation of P2P file sharing.

Introduction
    The University of Florida Department of Housing and Residence 
Education's Mission Statement is to provide well-maintained, community-
oriented facilities where residents and staff are empowered to learn, 
innovate, and succeed. As staff worked to develop a software program to 
mitigate P2P file sharing, discussion continued on how to 
simultaneously educate resident students while maintaining a network 
service free of illegal copyright sharing behaviors. This was a 
daunting task as most first-year students arrive to campus having 
practiced P2P file sharing at home during their high school years. 
According to students, during high school years very little education 
on illegal file sharing was provided and student behavior remained 
unchecked. University of Florida housing staff wanted resident students 
to understand that when they arrive on campus, a new level of personal 
behavior and responsibility on the use of their computer would be 
expected.

ICARUS
    ICARUS ``pulls information from commercial and open-source tools 
used to monitor the network and spots traffic patterns that look like 
P2P transfers. ICARUS then tracks down the user's IP address, flashes a 
pop-up warning and limits its access to the internal campus network. An 
e-mail alert is sent to the student, who must agree to suspend use of 
the offending P2P desktop software to regain full Internet access'' (p. 
40, Network Computing). ``There is no debate about ICARUS' 
effectiveness. Before it was turned on, there were as many as 3,500 
simultaneous violators at any given time on the Gainesville campus, 
school officials say. On the day the switch was flipped, 1,500 
violators were caught. There were only 19 second time violators and no 
third-time violators. Purged of the digital cholesterol of media files, 
the network saw an 85% drop in uplink data volume'' (p. 42, Network 
Computing).

Department of Housing and Residence Education Network Architecture--
        Technical
    The University of Florida Department of Housing and Residence 
Education computer network (DHNet) consists of Cisco Catalyst 4000/
5000/6000-series switching equipment, and supports standards-compliant 
TCP/IPv4-services for its residents. The fully-meshed OC12 ATM LANE 
core network consolidates edge switches via OC3 & OC12 connections. A 
campus-wide VTP domain is maintained, managed by multiple central VMPS 
servers. Virtual LANs are deployed on a per-building basis to provide 
proper segmentation and encompass multiple levels of access granularity 
(Table 1). Specific services are subsequently provided by the UF DHNet 
and UF HRE web sites, depending on the source of access.

                                                                         Table 1
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                         Requires     Destination                  TCP/IP  Services
            Access Level              Registration?  Restrictions?   Routed?          Provided?          DHNet  web site  role            Notes
--------------------------------------------------------------------------------------------------------------------------------------------------------
Guest...............................          No            Yes          Yes   Yes, private IP          Network registration,    Allows access to HRE
                                                                                addressing.              computer configuration   registration &
                                                                                                         support and policy       information sites only
                                                                                                         education.
Restricted..........................         Yes            Yes          Yes   Yes, private IP          Judicial policy          Allows access to
                                                                                addressing.              violation handling.      University resources
                                                                                                         Automatic recognition    only
                                                                                                         of restricted user.
Quarantine..........................     Special            Yes           No   Yes, private IP          Distribution of tools,   Allows access to local
                                                                                addressing; DNS          patches and updates.     network quarantine
                                                                                redirection; local web   Automatic recognition    resources
                                                                                services via 802.1q      of quarantined user.
                                                                                trunks.
Black Hole..........................     Special            Yes           No   No.....................  None, no local or        Provided to leave
                                                                                                         routed access provided.  systems actively
                                                                                                                                  connected for security
                                                                                                                                  analysis
Normal..............................         Yes             No          Yes   Yes, public IP           Network information,     Typical user
                                                                                addressing.              user forums, security,
                                                                                                         network policy and
                                                                                                         configuration
                                                                                                         information.
Terminated..........................  No Service     No Service           No   No Service.............  No Service.............  Last resort
                                                                     Service
--------------------------------------------------------------------------------------------------------------------------------------------------------

Development and Deployment of ICARUS
    Beginning in December of 2002, the Department of Housing and 
Residence Education Network Services group initiated the development of 
a system to aid in the enforcement of its computer security policy. The 
system that was created was known as ICARUS, (Integrated Computer 
Application for Recognizing User Services).
    ICARUS was designed to meet three primary design goals. First, to 
create a framework that allows for the collection of information from a 
variety of disparate sources so that the data can be evaluated and 
acted on in a unified fashion. Second, to create a system that allows 
for the real-time identification, containment, and education of managed 
network users while striving to minimize the impact on their academic 
use. Third, to leverage the use of GPL and BSD-licensed software, where 
possible. To this end, ICARUS consists of three main modules: (a) a 
data collection and parsing module intended to homologate information 
from SNMP, security tools, logging sources and non-traditional data 
sources such as debug output into a central database; (b) a data mining 
and analysis module which references external databases, performs 
signature analysis and other pertinent tasks; and (c) an action module 
that allows for the execution of any Perl-scriptable action.
    Initial development of ICARUS focused on three core tasks. First, 
it was necessary to build a system for identifying users and tracking 
hardware movement within the network while allowing for the flexibility 
required of a residential system. The initial system comprised three 
levels of access and did not include a registration process for 
residents. While this system was adequate for private residence port 
authorization in light of the UF HRE judicial responsibility policy, it 
did not adequately support the use of public access ports, nor did it 
provide for a bulk way to handle the containment of security outbreaks. 
This solution was also deemed inefficient due to its heavy reliance on 
SNMP. Later, this system was expanded to six levels of access to 
address these additional operational requirements, and moved to 
leverage VMPS for superior access management. User registration was 
also added to more positively establish authorization without the use 
of network logon technologies, which are often cumbersome in ``always-
on'' residential environments. Second, development was focused on 
containing P2P application use as an example of ICARUS' ability to 
detect and react to complex network management situations. By combining 
data from a variety of tools, it became possible to take a multi-
faceted approach to application recognition. This approach allows 
ICARUS to react very quickly to both changing applications and policy 
requirements by removing reliance on a single application's ability to 
fully identify and contain unacceptable P2P use. In essence, it 
establishes a framework which allows for the ready automation of 
analysis and action that traditionally had to be performed with manual 
intervention. Third, development was focused on building Pearl actions 
for ICARUS to take, namely those involving VMPS, Windows Messenger 
Service, SMTP (internet email), and assorted SNMP actions. These 
actions were then customized to support the active network education 
plan created by HRE.

Education of Resident Students
    The education of resident students takes place passively and 
actively. The passive educational program includes four steps: (a) 
Staff distributes an acceptable network use brochure during the check-
in process. This brochure contains information on the overview of the 
housing network; relays the fact that housing aggressively enforces its 
ISP policies; briefs the student on servers, copyrights, and the DMCA; 
provides information on the housing network monitoring and service 
restriction process; provides answers to frequently asked questions; 
and provides information on how student computer behavior is a part of 
the University of Florida Student Code of Conduct. (b) Staff places 
informational stickers by each housing data port. These informational 
stickers provide instructions to resident students on how to register 
on to the housing network. (c) The paraprofessional residence hall 
staff are trained prior to student check-in. These training sessions 
provide basic information so that staff are able to answer many of the 
student questions regarding the housing network. (d) The UF DHNet web 
site contains all the information regarding HRE Network Services. 
Students can read the information prior to their arrival at the 
University of Florida to understand what is expected and necessary when 
they register on to the housing network.
    The active educational program designed by HRE is powered by ICARUS 
and supported by the UF DHNet and HRE websites. When ICARUS detects 
user activity deemed unacceptable by policy, an appropriate series of 
actions are performed. In the case of a violation of the HRE P2P 
policy, for example, the user in question is sent a notification pop-up 
message to their machine, a notification email to their official 
University email account, and all the computer systems owned by that 
resident are promptly restricted to campus-only network access (Table 
2). This restriction is in effect regardless of where the resident 
physically goes within the HRE network, preventing abuse by those using 
public access ports. Simultaneously, an entry is created in the DHNet 
violation system, HAMMER. A snapshot of the user's activity, including 
all evidentiary data, is then added to the database, and correlated 
with past violations (if any). Residents are required to then visit the 
DHNet website in order to restore their access. When the resident 
visits the website with any of their computers, the page automatically 
recognizes them, and presents the resident with the list of violations. 
Instructions are provided for remedying each violation, and then a 
violation-dependent policy presentation is provided. Student violators 
are then presented with the terms of their restriction. It should be 
noted that the time counter for restriction does not officially begin 
until they have signed the on-line form with their University ID 
(access was still restricted before, however).

                                 Table 2
------------------------------------------------------------------------
                                                          Additional
         Violation Level          Duration of Campus-  Requirements for
                                   Only Restriction       Restoration
------------------------------------------------------------------------
1*..............................  0--Immediate        None
                                   restoration
                                   following
                                   completion of
                                   educational
                                   presentation.
2*..............................  5 days............  None
3...............................  Indefinite........  Meeting with the
                                                       HRE Coordinator
                                                       of Judicial
                                                       Affairs
------------------------------------------------------------------------
*Special Handling Exception--Any resident with a prior DMCA complaint is
  automatically escalated to level 3 if the violation is sharing related
  in any way. Violators with new DMCA complaints are automatically level
  3 for the purposes of ICARUS.

Residents who ignore the restriction and take no action automatically 
have their network access terminated after 10 days.
    Similar action scenarios exist for a variety of situations from 
virus/worm quarantining to the active notification about available 
operating system patches to the active control of malicious activity.

Outcomes of ICARUS Deployment
    The impact of ICARUS' deployment has been profound and immediate. 
Over the course of the six week Summer A term (608 Resident Users) and 
six week Summer B term (2435 Resident Users), 863 total P2P violations 
were detected and restricted by ICARUS. What is most striking, however, 
is the recidivism rate at each violation level for P2P use (Table 3).

                                                     Table 3
----------------------------------------------------------------------------------------------------------------
                                                                       Recidivism Rate vs.   Recidivism Rate vs.
                Violation Level                 Number of Violations     Previous Level        Total User Base
----------------------------------------------------------------------------------------------------------------
1.............................................                  769   ....................                25.3%
2.............................................                   90                 11.5%                  2.9%
3.............................................                    4                  4.4%                 0.13%
----------------------------------------------------------------------------------------------------------------

    Additionally, ICARUS had a marked effect on overall internet 
bandwidth utilization. The HRE network experienced a drop in upload 
utilization of almost 83%. Perhaps more impressive was the 3% increase 
in download utilization versus previous periods. Analysis demonstrated 
conclusively that the slight increase was due to people searching for, 
and finding, new legitimate sources of rich content. Furthermore, there 
was a notable increase in the viewing of online streaming video 
content.
    I am pleased to provide you with this information. Housing 
professionals do have a responsibility to educate resident students on 
the acceptable use of their computers and the network. There exists 
numerous opportunities for students to use technology with legitimate 
purposes. Educating students to these purposes is part of our 
responsibility and stewardship.

                               References

    Haynes, J., & Dunkel, N.W. (in process). P2P resident education in 
the United States.
    Joachim, D. (2004, February 19). The enforcers. Network Computing, 
pp.40-54.

    Mr. Stearns. Thank you and we obviously want to welcome Rob 
here and if we have more technical questions on this software 
works relative to the dorms and how you filter it out, we'll be 
doing that.
    Mr. Allen, I'll come to you next.

                    STATEMENT OF ERNIE ALLEN

    Mr. Allen. Thank you, Mr. Chairman. In 1982, the Supreme 
Court of the United States said that child pornography was not 
protected speech, it was child abuse. And as a result, child 
pornography largely disappeared. It disappeared from the 
shelves of adult bookstores, the Customs Service crackdown on 
its importation, the Postal Service focused on its distribution 
through the mails. With the advent of the Internet, all of that 
has changed.
    Since the advent of the Internet, we at the National Center 
have been operating the congressionally mandated CyberTipline. 
We have handled to date, 240,000 leads regarding child sexual 
exploitation; 215,000 of those leads have related to child 
pornography. In fact, we are convinced that its explosion on 
the Internet has been a direct result of the relative anonymity 
that a distributor or a trader could have online. And in fact, 
that's why we're so concerned about the problem with child 
pornography via P2P. We have handled, as was mentioned earlier, 
about 2100 reports. Now as a share of the 215,000, that's very 
low, but it's clear to us from anecdotal reports and 
discussions with law enforcement leaders around the world, that 
thousands of individuals are currently trading child 
pornography via peer-to-peer programs. And that these 
distributors could be found in every State and worldwide.
    Why? Peer-to-peer programs make it more difficult to 
identify the users. In the past, we were able to easily 
identify offenders on the web because their Internet protocol 
of IP addresses were visible and they were required to reveal 
their e-mail addresses. That's no longer the case. When we 
receive P2P reports via our CyberTipline, it's almost 
impossible to identify the perpetrators responsible for trading 
the files. And law enforcement faces numerous challenges. 
There's no central data base of files, nor an organized 
network. There are no centrally held logs on these systems to 
record activity. Most of the popular file sharing programs are 
free, so there's no subscriber information available to 
subpoena to determine the user's true identity. Content and 
users change very rapidly. And this often requires law 
enforcement officers to be online at the very moment that the 
offense occurs.
    As Keith Lourdeau from the FBI mentioned earlier, tracking 
users trading illegal content on peer-to-peer is difficult, but 
not impossible. Savvy computer users can use certain commands 
to attain an IP address of a user sending a file. Also, 
proactive law enforcement agencies have begun to use secondary 
programs to identify the IP address of the perpetrator sharing 
the illegal files. However, these programs must be active at 
the exact moment of the file transfer and depending on the 
particular peer-to-peer program, if a user accidentally 
downloads an illegal file, there is no way for that user to 
document where the file originated. Considering the massive 
amounts of files being shared at any given moment, this 
anonymity provides a cloak of security for those criminals 
trading images of children being sexually abuse.
    In our judgment, the extensive swapping of child 
pornography images on peer-to-peer would be reduced if users 
knew that recipients of the images or movies could easily 
attain their IP address.
    Mr. Chairman, we don't come here today with quick, easy 
solutions, but it is our conclusion that the use of peer-to-
peer networks for the distribution of child pornography is 
growing dramatically and further, we suspect that it will 
continue to increase as child pornographers search for lower 
risk avenues where the possibility of being identified is far 
less.
    Federal, State and local law enforcement are more 
aggressive on this issue than ever before, but they face 
significant barriers. I hope you can help us remove some of 
those barriers and help us identify and prosecute those who are 
misusing the Internet and misusing a very positive technology 
resource for criminal purpose.
    Thank you, Mr. Chairman.
    [The prepared statement of Ernie Allen follows:]

   Prepared Statement of Ernie Allen, President and Chief Executive 
       Officer, National Center for Missing & Exploited Children

    Mr. Chairman and members of the Committee, I am pleased to appear 
before you today and express the views of the National Center for 
Missing & Exploited Children (NCMEC) regarding the issue of Peer-to-
Peer networks and the distribution of child pornography.
    Let me first provide the Committee with some general background on 
NCMEC and why we are so concerned about this issue. NCMEC is a not-for-
profit corporation, mandated by Congress and working in partnership 
with the U.S. Department of Justice as the national resource center and 
clearinghouse on missing and exploited children. NCMEC is a true 
public-private partnership, funded in part by Congress and in part by 
the private sector. NCMEC's federal funding supports specific 
operational functions mandated by Congress, including a national 24-
hour toll-free hotline; a photo distribution system to generate leads 
regarding missing children; a system of case management and technical 
assistance to law enforcement and families in the search for and 
recovery of missing children; training programs for federal, state and 
local law enforcement; and much more.
    While we are perhaps best known for our work in the field of 
missing children, NCMEC is also a leader in the battle against child 
sexual exploitation and has become the epicenter of the war against 
child pornography. How did we become such a central figure in the child 
pornography battle?

 The Child Porn Tipline was launched in June 1987 as a service for the 
        U.S. Customs Service and subsequently for the U.S. Postal 
        Inspection Service. In partnership with the U.S. Customs 
        Service and U.S.P.I.S., NCMEC has received and processed 11,000 
        such leads.
 In 1994, months before the nation or the news media viewed online 
        victimization as a problem, NCMEC first printed the brochure, 
        ``Child Safety on the Information Highway,'' a publication 
        discussing online child safety. Subsequently, a number of 
        children were lured away to meet adults they'd met online, and 
        suddenly online victimization became front-page news. Because 
        we were the only child advocacy group at the time with solid 
        tips on how to prevent online victimization, the news media and 
        families turned to NCMEC for help.
 On January 31, 1997, in response to the increasing prevalence of 
        child sexual victimization, NCMEC officially opened its 
        Exploited Child Unit (ECU). The ECU is responsible for receipt, 
        processing, initial analysis and referral to law enforcement of 
        information regarding the sexual exploitation of a child.
 In 1997 the Director of the FBI and I testified before the Senate 
        Appropriations Subcommittee on Commerce, Justice, State and the 
        Judiciary. The committee asked how serious was the problem of 
        Internet-based child sexual exploitation. Director Freeh and I 
        agreed that it was a serious and growing problem that we were 
        just beginning to recognize and address, and that much more 
        needed to be done at the federal, state and local levels. As a 
        result of that hearing, Congress directed NCMEC to establish an 
        Internet-based, reporting mechanism for child pornography, 
        online enticement of children, child molestation, child 
        prostitution and child sex tourism. Congress also directed the 
        Justice Department to establish multi-jurisdictional Internet 
        Crimes Against Children Task Forces across the country.
 On March 9, 1998 NCMEC launched its new CyberTipline, 
        www.cybertipline.com, the ``911 for the Internet,'' to serve as 
        the national online clearinghouse for investigative leads and 
        tips regarding child sexual exploitation. NCMEC's CyberTipline 
        is linked via server with the FBI, Homeland Security's Bureau 
        of Immigration and Customs Enforcement (ICE) and the Postal 
        Inspection Service. Leads are received and reviewed by NCMEC's 
        analysts, who visit the reported sites, examine and evaluate 
        the content, use search tools to try to identify perpetrators, 
        and provide all lead information to the appropriate law 
        enforcement agency and investigator. The FBI, ICE and Postal 
        Inspection Service have ``real time'' access to the leads, and 
        all three agencies assign agents who work directly out of 
        NCMEC, and review reports. The U.S. Secret Service has assigned 
        three analysts who assist in the review and prioritization 
        process. The results: to date (through May 2, 2004), NCMEC has 
        received and processed 237,147 leads, 215,599 of which were 
        reports of child pornography, resulting in hundreds of arrests 
        and successful prosecutions.
 In December 1999, Congress passed the Protection of Children from 
        Sexual Predators Act, mandating that Internet Service Providers 
        report child pornography on their sites to law enforcement, 
        subject to substantial fines for failure to report. Again, 
        Congress asked NCMEC if it could handle the reports through its 
        CyberTipline. NCMEC agreed. While the reporting mechanism is 
        being formalized, NCMEC has entered into agreements with 122 
        major ISPs, including industry leaders America Online and the 
        Microsoft Network, who are already reporting child pornography 
        on their sites voluntarily.
 Currently, NCMEC receives and analyzes CyberTipline leads in seven 
        categories, the final category added as a result of passage of 
        the PROTECT Act in 2003:
     possession, manufacture, and distribution of child pornography;
     online enticement of children for sexual acts;
     child prostitution;
     child-sex tourism;
     child sexual molestation (not in the fam)ly);
     unsolicited obscene material se.t to a child; and
     misleading domain names
    Today, NCMEC is receiving hundreds of reports and tips re#arding 
child pornography from across America and around the world each week, 
and it is pursuing those leads agressively with the appropriate law 
enforcement agencies. We are proud of the progress. Following the 
Supreme Court's 1982 Ferber v. New York decision holding that child 
pornography was not protected speech, child pornography disappeared 
from the shelves of adult bookstores, the Customs Service launched an 
aggressive effort to intercept it as it entered the country, and the 
U.S. Postal Inspection Service cracked down on its distribution through 
the mails. However, child pornography did not disappear, it went 
underground.
    That lasted until the advent of the Internet, when those for whom 
child pornography was a way of life suddenly had a vehicle for 
networking, trading and communicating with like-minded individuals with 
virtual anonymity and little concern about apprehension. They could 
trade images with like-minded individuals, and in some cases even abuse 
children ``live,'' while others watched via the Internet.
    However, in recent years law enforcement began to catch up, and 
enforcement action came to the Internet. The FBI created its Innocent 
Images Task Force. The Customs Service expanded its activities through 
its Cyber Crimes Center. The Postal Inspection Service continued and 
enhanced its strong attack on child pornography. The Congress has 
funded forty Internet Crimes Against Children Task Forces at the state 
and local levels across the country. Child pornography prosecutions 
have increased an average of 10% per year in every year since 1995. We 
were making enormous progress.
    On the subject of today's hearing, the trading of child pornography 
via peer-to-peer networks, NCMEC's Cyber Tipline has received 2,100 
reports. However, we are convinced that is in no way descriptive of the 
real scope of the problem. Through anecdotal reports and conversations 
with law enforcement officials across the country, it is clear to us 
that thousands of individuals are trading child pornography via peer-
to-peer programs, and that the people utilizing this method of 
distribution can be found in every state and in countries around the 
world.
    Peer-to-peer programs have made it more difficult to identify the 
users. In the past we were able to easily identify offenders trading 
child pornography using peer-to-peer programs because their Internet 
Protocol (IP) addresses were visible and they were required to reveal 
their email addresses. This is no longer the case. When we receive 
reports to the CyberTipline, it is almost impossible to identify the 
perpetrators responsible for trading the illegal files. The anonymity 
of recent peer-to-peer technology has allowed individuals who exploit 
children to trade images and movies featuring the sexual assault of 
children with very little fear of detection.
    Law enforcement agencies face numerous challenges including:

 There is no central database of files nor organized network
 There are no centrally-held logs on these systems to record activity
 Most of the popular file-sharing programs are free so there is no 
        subscriber information available upon subpoena to determine the 
        user's true identity
 These are dynamic systems where content and users change very 
        rapidly. This often requires law enforcement officers to be 
        online at the very moment the offense occurs.
 Individuals from all over the world use these peer-to-peer programs.
    While tracking users trading illegal content on peer-to-peer has 
become increasingly difficult, it is not impossible. Savvy computer 
users can use certain commands to attain an IP address of a user 
sending a file. Also, several proactive law enforcement agencies have 
begun to use secondary programs to identify the IP address of the 
perpetrator sharing the illegal files.
    However, these programs must be active at the exact moment of file 
transfer. Depending on the particular peer-to-peer program, if a user 
accidentally downloads an illegal file, there is no way for that user 
to document where the file originated. Considering the massive amounts 
of files being shared at any given moment, this anonymity provides a 
cloak of security for those criminals trading images of children being 
sexually abused.
    It is quite likely that the extensive swapping of child pornography 
images on peer-to-peer networks would be reduced if users knew that 
recipients of the images/movies could easily attain their IP address.
    At NCMEC we have had some success when we learn about child 
pornography trading via peer-to-peer networks. Let me cite two recent 
cases where there was a successful resolution from peer-to-peer 
CyberTipline reports:

 The CyberTipline received an anonymous complaint about a website in 
        which one could share media files using a peer-to-peer network. 
        The reporting person indicated that images of child pornography 
        were available on this site. NCMEC analysts found numerous 
        images of child pornography and determined that one of the 
        suspects posting and distributing child pornography was using 
        an IP address registered to the University of California. NCMEC 
        analysts contacted Campus Police. Because the images were found 
        on the peer-to-peer network, detectives were initially unable 
        to locate the images because the suspect was off-line. As a 
        result, analysts worked with a university detective and 
        assisted in locating the images.
      Subsequently, university detectives, working with detectives from 
        the Santa Barbara Co. Sheriff's Department High-Tech Crime 
        Unit, were able to verify the existence and location of the 
        operation. A 21-year old suspect was identified and detectives 
        executed a search warrant at his apartment located off campus 
        and seized his computer. A forensic search of the computer 
        found numerous child pornography images. The suspect confessed 
        and the District Attorney's Office filed felony charges of 
        distributing child pornography.
 NCMEC received a CyberTipline report indicating that a suspect was 
        offering child pornography through a peer-to-peer program. This 
        reporting person was highly skilled with computers and used 
        commands to document the IP address of the person trading the 
        child pornography images. Using detailed information provided 
        by the reporting person, ECU analysts determined that this IP 
        address originated in Kansas.
      NCMEC contacted Kansas law enforcement officials and provided 
        documentation of the suspected illegal files being traded. The 
        police apprehended the suspect and charged him with 500 counts 
        of possession/distribution of child pornographic material, 
        sexual exploitation of a child, and indecent liberties with a 
        child. The suspect admitted to raping, sodomizing and sexually 
        abusing his own daughter.
      It is unlikely this predator would have been arrested if a 
        concerned citizen hadn't known the steps to take when she 
        accidentally received one of his images. It is troublesome to 
        imagine the number of offenders who are not reported because 
        the average citizen does not know how to collect the necessary 
        information. Peer-to-peer program developers could make great 
        strides in protecting children if they allowed the software 
        programs to allow users to log the origination of files.
      Mr. Chairman, I don't come before you today with a quick, easy 
        solution to this problem, but I can state unequivocally that 
        the problem of illegal child pornography has exploded with the 
        advent of the Internet and that the use of peer-to-peer 
        networks for the distribution of child pornography is growing 
        dramatically. Further, we suspect that it will continue to 
        increase as child pornographers search for lower risk avenues 
        where the possibility of being identified is far less.
      Federal, state and local law enforcement are more aggressive than 
        ever before, but they must overcome significant barriers. I 
        hope that you can help us remove some of those barriers and 
        help us identify and prosecute those who are misusing the 
        Internet for insidious, criminal purposes. Too many child 
        pornographers feel that they have found a sanctuary, a place 
        where there is virtually no risk of identification or 
        apprehension.
      In the area of peer-to-peer dissemination of child pornography, I 
        fear that we have only scratched the surface. Far more must be 
        done. NCMEC is willing and eager to play an even larger role in 
        addressing this problem.

    Mr. Stearns. Thank you, Mr. Allen. Thank you for all that 
you do.
    Ms. Nance, welcome.

                 STATEMENT OF PENNY YOUNG NANCE

    Ms. Nance. Thank you, gentleman and ladies, for convening 
this hearing. It's very important. I appreciate it.
    My name is Penny Nance, I'm the President of the Kids First 
Coalition which is a nonprofit educational and advocacy group.
    Mr. Stearns. Penny, I'm going to have you move it just a 
little closer.
    Ms. Nance. That I founded with the idea of protecting 
children and families. I sit before you not only a pro-family 
advocate, but also a mother of two small children and also as a 
victim of attempted rape by someone who was deeply involved in 
pornography.
    I also represent Concerned Women for America Today who has 
over 500,000 members across the country and I have with me the 
Salvation Army, American Association of Christian Schools, it's 
a broad group of pro-family people who really feel strongly 
about this issue.
    Most of you are probably unaware from May is Victim of 
Pornography month and I guess it's sadly no more appropriate 
than we discuss this issue at this time.
    Today is the wild west of the Internet with an estimate by 
Forbes Magazine of $1.5 billion in global sales per year. One 
must understand exactly what defines hard core pornography and 
obscenity that are on these kind of sites. It's not Playboy. It 
encompasses depiction of bestiality, bondage, domination, gang 
rape, urine and excrement, sexual murders, child sex and 
torture. It's vile and it's hurtful. It is not loving and sexy. 
And all of it is just a click away from our kids. We as parents 
know instinctively that simply viewing pornography of any kind 
can be damaging to children.
    Illegal obscenity is overwhelming available on the internet 
and a long with this vile image await large numbers of 
disturbed individuals, huge strides in this area.
    Thank you for allowing me to testify today.
    [The prepared statement of Penny Nance follows:]

    Prepared Statement of Penny Young Nance, President, Kids First 
                               Coalition

    Hello, my name is Penny Nance and I am the President of Kids First 
Coalition, which is a non-profit educational and advocacy group I 
founded with the goal of protecting children and advancing pro-family 
legislation. I sit before you not only as a pro-family advocate but 
also a very concerned mother of two young children and a victim of an 
attempted rape that was connected to pornography. I am sincerely 
passionate about this issue. Most of you probably are unaware but May 
is ``Victims of Pornography Month'' and a sadly appropriate time to 
discuss Internet safety.
    Today is the wild west of the Internet with an estimate by Forbes 
of $1.5 billion in global sales per year. One must understand what 
exactly defines hard-core pornography or obscene material on the 
Internet. It's not Playboy! It encompasses the depiction of bestiality, 
bondage, domination, rape, gang rapes, urine and excrement, sexual 
murders, child sex and torture. It is vile and hurtful, not sexy and 
loving. And all of it is just one click away from our kids. We as 
parents know instinctively that simply viewing pornography of any kind 
can be damaging to children.
    The 1986 Meese Commission on Pornography, and countless law 
enforcement and behavioral scientists say there is a direct link 
between pornography and sexual violence. My experience of attempted 
rape by a strange man deeply involved in pornography confirms this 
belief. A topic for another day is the undeniable connection between 
pornography and violence against women and children.
    Today, I am here to represent the members of my organization, 
(mostly moms who have downgraded professional careers to raise kids) as 
well as the countless parents in this country who seek to protect their 
children from graphic sexual images on the Internet.
    Although this hearing today is centered on peer-to-peer 
pornography, Kids First Coalition is also concerned about all types of 
Internet pornography and the safety of children. We have worked to 
combat this pervasive problem in a number of areas including advocacy 
for Truth in Domain names, tighter laws on porn spam, a ban of virtual 
child porn and better enforcement of current law.
    Kids First Coalition has worked closely with the Bush 
administration and the Department of Justice to urge a reversal of the 
Clinton Administration's policy to ignore obscenity crimes on the 
internet. I am pleased to say that DoJ listened and is currently 
actively prosecuting cases that four years ago would have gone 
unnoticed. We urge each of you to support the President's Budget which 
contains about $33 million and about $13.8 million in new funds to 
specifically pay for law enforcement. The budget contains $14.5 million 
for the Internet Crimes Against Children (ICAC) program, which helps 
state and local law enforcement agencies develop effective responses to 
Internet child enticement and child pornography cases. It also contains 
$3 million for the Innocent Images National Initiative, which will 
support existing Innocent Images undercover operations and 
investigations designed to ferret out child predators.
    Illegal obscenity is overwhelmingly available on the internet. And, 
along with these vile images await large numbers of disturbed 
individuals seeking to prey on our children. Predators lurk in chat 
rooms, instant messaging, websites and peer to peer sites. Today's 
parents must be more vigilant in protecting the safety and innocence of 
their children then ever before in our history.
    Most children are not looking for pornography, but far too often 
pornography is looking for them. Pornography will come uninvited and 
unannounced into your home and will prevail upon your unsuspecting 
children the moment you turn your back even for a second. The Kaiser 
Family Foundation found that 70 percent of online youth between the 
ages of 15-17 say they have stumbled across pornography online, and of 
those exposed to such content, 49 percent were upset by the experience. 
The study also found that young people agree: ``[Stumbling upon 
pornography] is upsetting to many young people--especially young 
girls--and most think it is a serious problem.''
    The most common ways kids stumble into porn is by innocent searches 
on computers without filter. Pornographers use misspelled search terms 
to lure young people into their sites. The pornography industry was way 
ahead of Joe Camel in working to addict customers at an early age.
    Fortunately, most internet service providers are actively working 
to provide both filters that shield kids from viewing explicit 
materials and closed systems that would disallow kids to even enter 
parts of the internet. Protectkids.com is a great resource for parents 
to educate themselves on safety resources. Unfortunately, most 
estimates show that about half of all family computers lack any safety 
precautions.
    And those parents that do utilize filters may still not be doing 
enough to protect their kids. Peer to peer computer sites do not use a 
central server so normal filtering will not keep kids out.
    They are a source of serious concern to American parents. I've 
spoken to hundreds of concerned parents around the country, and 
conducted over fifty radio interviews on this subject, I have 
discovered that peer-to-peer networks are a place where unsuspecting 
kids can access pornography far too easily.
    As a way of background, peer-to-peer networks are programs that 
allow computer users to share electronic files with one another, 
usually in the form of downloading free music or images. KaZaA is the 
most popular site (with over 4 million users at any one time) but other 
sites include Grokster, Morpheus, and Gnutella. While many parents 
assume their children are downloading free, non-offensive music or 
images on these networks, in actuality these children can be in direct 
contact with child and adult pornography and sexual predators. A recent 
GAO study said that kids searching with innocent keywords like Britney 
Spears or Pokemon would find either graphic adult pornography or child 
pornography 56% of the time. (This report is available on gao.gov, 
report number GAO-03-351).
    The owners of peer to peer sites like to say that only a fraction 
of the child and adult porn available on the Internet exist on their 
sites. This doesn't absolve them of the problem nor does it take into 
account some factors that make peer to peer sites in some ways more 
dangerous than the Internet overall. As one dad told me, ``On Google 
you have to ask to see something. On Kazaa, you ask for Elmo and they 
push porn at you . . .''
    1) According to a GAO study, normally Internet users must actually 
pay to view pornography (using a credit card), but peer-to-peer sites 
are generally free.
    2) since peer-to-peer files do not go through a center server, most 
child-protection filters are ineffective and the filters on the peer-to 
peer sites are flimsy and can be easily dismantled by computer-savvy 
kids, and
    3) Most importantly, these sites are considered hip and popular 
places for kids to go and are therefore more heavily visited by 
children. According to the GAO, 4 million people are on Kazaa alone at 
any one time and 40% of those are kids. Therefore about 1.6 million 
kids are on KaZaa at any one time and who knows about all the other 
sites.
    Pedophiles are not ignorant of this. What is more alarming is that 
instant messaging is also available on these networks, which gives easy 
access to child predators to communicate with unsuspecting children. 
Pedophiles can pose as kids in order to begin a dialogue with children 
on-line.
    Let me walk you through a scenario that will help you to understand 
what is happening in America numerous times every day. Jenny is a 
spunky ten-year-old who is sitting in her mom's bedroom, typing on her 
mother's lap-top computer with the intention of downloading the latest 
song that her friends are singing in school. She goes onto a peer to 
peer website and, in just a few seconds, several ``hits'' are received. 
She double-clicks on the first one, and in an instant, she downloads a 
virus that automatically downloads child pornography onto her computer 
that saves it as a permanent screensaver! This is a true story that was 
told to me by a caller on a radio show.
    Here's another true story. A very intelligent dad, who is a former 
judge with an M. Div and a Juris Doctorate shared with me that his 
computer is down. I asked him why and he sheepishly said his kids had 
been playing on a site called KaZaa and a virus ate his hard drive. I 
thought he would faint when I informed him that the site contains often 
mislabeled porn. He kept saying, ``I had no idea.''
    David Wilson, professor of criminology at the University of Central 
England in Birmingham, said: ``Peer-to-peer facilitates the most 
extreme, aggressive and reprehensible types of behavior that the 
Internet will allow.'' (Tuesday November 4, 2003--The Guardian)
    I would like to close my testimony by stating, we know from volumes 
of research that people who view child pornography often eventually act 
out their fantasies and molest or rape children. We also know that 
pedophiles usually share graphic porn with young children to break down 
their modesty and resistance.
    New technology is so valuable to us as a country, but with it comes 
new challenges and responsibilities. I always tell parents that they 
must be the first line of defense and remain vigilant against all 
threats including dangers on the Internet. The family computer should 
be kept in the family room where parents can intervene if a problem 
occurs. Computers in homes, schools and libraries need to utilize 
filters to block graphic images. Children should be kept from chat 
rooms and instant messaging without direct parental supervision.
    The companies profiting from the technology must also share in the 
responsibility. Just as the ISPs are working to tighten its content and 
shield kids so must the peer to peer systems take responsibility. The 
FTC should use its authority to force companies to give parental 
warnings and to screen viewers of pornography by requiring ID. We 
should also make illegal the free teasers that pornographers use to 
lure in viewers without ID
    Last July our country was sickened by an AP story on the indictment 
of twelve Suffolk, NY residents on charges of child pornography. 
Apparently the pedophiles had been using Kazaa, a peer to peer file 
sharing program, as a means to pass around vile images of their own or 
someone else's rape of toddlers. Congress needs to answer with passage 
of H.R. 2885, ``The Protecting Children from Peer to Peer Pornography 
Act'' or P4 bill by Joe Pitts (R-PA). Thank you for allowing me to 
testify before you today.

    Mr. Stearns. I thank you.
    Mr. Lafferty, you think you're all set? Welcome you for 
your opening statement.

                 STATEMENT OF MARTIN C. LAFFERTY

    Mr. Lafferty. The DCIA is a trade group founded last July 
to commercially develop peer-to-peer file sharing for 
legitimate purposes. Our charter calls for balanced membership 
among content providers, software suppliers and platform 
companies. We currently have 15 members and are actively 
expanding.
    The internet is of great value as a productivity tool, 
enabling low cost conductivity, fast data transfers and a 
highly efficient marketplace. But it is neutral as whether such 
commerce may be legal or not.
    Peer-to-peer file sharing, one of the internet's newest 
advances, replaces costly and relatively slow centralized 
servers with client software search engines that access other 
PCs for both discovery and delivery of content. The 
entertainment industries have generally failed to stay current 
with technology. And in the absence of authorized mainstream 
content, the internet so far as attracted a disproportionate 
amount of pornography. Dissemination of criminally obscene 
content, as well as legal adult material is facilitated by 
internet browsers, search engines, e-mail, instant messaging, 
websites, peer-to-peer software, chat rooms and news groups 
used regularly by tens of millions of U.S. citizens.
    And with an increasingly decentralized internet, users 
themselves are frequently the sources of content and 
distribution. Porn websites have increased by 17 times since 
the year 2000, from 88,000 to 1,600,000 today. Thirty-four 
million Americans visit them monthly. But reports of peer-to-
peer child pornography are down. From 2 percent in 2002 to 1.4 
percent in 2003 with the vast majority of the remaining 98 
percent coming from websites and chat rooms. And unlike 
websites, there is no commercial child pornography on peer-to-
peer.
    To demonstrate, leading file sharing software suppliers 
provide tools enabling parents to protect their children to 
exposure to undesirable content. Users can choose options to 
block adult content which is a default setting, add more key 
words to be blocked, prevent all video and images from being 
downloaded and password protect their filter settings.
    Use of these tools and monitoring of use by parents must 
remain the primary means protecting children. The peer-to-peer 
family filters set at the maximum levels, no files retrieved on 
searches for terms like Britney, Pokeyman or Olson Twins will 
contain pornography or child pornography. by contrast, MSN will 
return nearly 9,000 Olson Twins porn results; Google, some 
820,000 Pokeyman porn results; and Yahoo, 1,260,000 for Britney 
porn.
    Peer-to-peer companies have also worked proactively with 
law enforcement to prosecute criminals, abusers of their 
technology and on deterrence and education to further combat 
child pornography. Companies distributing file sharing software 
have responded to other issues identified by Congress with 
steady improvements. Examples include the integration of 
powerful anti-virus software and the implementation of default 
settings to prevent inadvertent sharing of private data.
    The DCIA is now working with the FTC and others to address 
spyware. Leading peer-to-peer companies certify that their 
programs are spyware free. They offer consumers a choice of 
paid or ad supported versions. Their targeted ads collect no 
personally identifiable information and up to 40 times more 
efficient than traditional online ads.
    But the real obstacle to realizing the potential of file 
sharing is the refusal of major labels and movie studios to 
license their content for legitimate paid distribution by peer-
to-peer and it is this which deserves to be examined by 
Congress. At 50 million licensed files per month, DCIA members 
alone are now the web's largest legal distributors of 
copyrighted music, movies and games. This is accomplished 
through agreements with small, independent suppliers while the 
majors continue their boycott.
    The entertainment industries lobby Congress with claims 
that file sharing is perilous to children. At the same time, 
these entities intentionally bombard them with shameful 
material. But it cannot be supposed that major labels have 
taken on partner and substance abuse, child abandonment, 
robbery, date rape or homicide as social missions. The 
entertainment industries' campaign to destroy peer-to-peer 
companies and to strangle file sharing technology is based on 
the assertion that they are suffering great economic harm 
through copyright infringement by individuals and that is 
simply not true.
    Their emphasis on peer to peer pornography is unreflective 
of the much larger amount transmitted by e-mail and instant 
messaging, not to mention far greater risk of obscenity on 
websites and predatory dangerous in chat rooms and it is so 
dismissive of peer-to-peer suppliers' efforts to work with law 
enforcement and provide parental controls that takes on the 
character of a red herring.
    Both copyright infringement and exposure of children to 
pornography are real problems and we condemn them, but how much 
more beneficial for all parties it would be if Congress adopted 
an alternative such as rights holders who wish to monetize 
digital distribution of their copyrighted works, must provide 
nondiscriminatory terms and conditions for all media.
    Once the carrot of licensed content distribution can be 
offered, then the stick of enforcement focused where it should 
be on creators and disseminators of illegal material to be 
revisited.
    Thank you. I'll be glad to answer your questions.
    [The prepared statement of Martin C. Lafferty follows:]

 Prepared Statement of Martin C. Lafferty, CEO, Distributed Computing 
                      Industry Association (DCIA)

    Chairman Stearns and Members of the Subcommittee, thank you for the 
opportunity to testify at this hearing. The Distributed Computing 
Industry Association (DCIA) is a trade organization, established in 
July 2003, for the purpose of commercially developing peer-to-peer file 
sharing and more advanced distributed computing applications for 
legitimate purposes. Our charter calls for representative membership 
among content providers, software suppliers, and platform companies. We 
currently have fifteen (15) members (listed alphabetically with links 
to their websites on the Join page at www.dcia.info) and are actively 
recruiting to expand our balanced and solutions-focused membership.
    (1) The Internet is of immense value to society, particularly 
through its evolving and increasingly varied and decentralized usage as 
a tool for productivity, enabling exponentially faster and lower-cost 
means for connecting individuals globally, facilitating the exchange of 
all types of data, and creating a radically more efficient marketplace 
for commercial transactions. As with prior great communications 
inventions, Internet technology is neutral--facilitating communication 
without regard to whether content, or a transaction itself, may be 
deemed legal or illegal. Peer-to-peer file sharing, one of the newest 
advances of the Internet, is accomplished by client software search 
engines, returning queries from file directories, replacing costly and 
relatively slow centralized servers for both discovery and delivery of 
content, with an infinitely scalable number of participating PCs.
    (2) Some content rights holders in the entertainment industries 
have failed to stay current with technology advancements, and not taken 
reasonable precautions to protect their products from unauthorized 
copying and online redistribution. They have confused the public by 
selectively enforcing their rights, and have boycotted prospective and 
willing new distributors rather than licensing them. In the absence of 
their broadly authorizing mainstream content online and labeling it to 
protect users from inadvertent exposure to inappropriate material, as 
in offline media, the Internet overall has attracted a disproportionate 
amount of pornographic content, and adequate safeguards to consumers 
are for the most part not yet being provided.
    (3) Many computer users believe that the content they encounter on 
the Internet has been licensed and authorized as in other media that 
they routinely use such as television, radio, online subscription 
services, and various recording and playback devices. In Congressional 
hearings, computer users who have been sued by the record industry for 
alleged copyright infringement associated with online music 
redistribution, for example, have testified that they felt abused, 
prompting at least one US parent to sue the RIAA under RICO laws. 
Pornography on the Internet was initially limited by low bandwidth and 
limited sources. Those restrictions disappeared as modem speeds 
increased, broadband services proliferated, and pornography websites 
and chat-rooms multiplied. It has been challenging for Congress to 
balance consumer protection from undesired exposure with First 
Amendment rights issues. Credit-card routines intended to keep under-
age users from accessing commercial pornography, for instance, have 
unfortunately proven easy to circumvent.
    (4) More broadly, the dissemination of pornography, ranging from 
legal adult material to criminally obscene content, including the most 
pernicious category of child pornography, is facilitated online by such 
increasingly sophisticated electronic means as Internet browsers, 
search engines, e-mail, instant messaging, websites, peer-to-peer 
software, chat-rooms, and news groups, which technologies are now used 
regularly by tens of millions of US citizens.
    (5) Such trafficking in pornography creates new challenges for 
content rights holders, computer manufacturers, software developers, 
and Internet service providers, to help protect minors from inadvertent 
exposure to such material online, and to educate the public, deter 
potential abusers, and enforce laws against dissemination of illegal 
material.
    (6) In light of these considerations, responsible content providers 
and legitimate technology companies have an increasing opportunity to 
collaborate to protect consumers from inadvertent exposure to 
undesirable and illegal content, through appropriate and applicable 
technical solutions, business practices, and educational programs. All 
stakeholders should be encouraged to explore such measures in good 
faith as well as adopting business models for legitimate content to be 
digitally distributed.
    (7) With the increasingly decentralized topology of the Internet, 
users themselves, including consumers of pornography, now serve 
frequently as the sources of content being entered into distribution, 
as well as being the recipients of it. Therefore, unfortunately, it is 
not remarkable that pornography is being distributed through many 
online technologies. As this activity has grown, it has become more 
difficult to obtain accurate data as to exact quantities and the 
precise nature of such content. Nevertheless, the following studies and 
reports demonstrate salient facts regarding such pornography on the 
Internet:
          (A) April 2004 reports from Websense, Nilesen/NetRatings, 
        BigChampagne, and WebSpins indicate that pornography websites 
        have increased seventeen-fold (17X) from eighty-eight thousand 
        (88,000) in 2000 to nearly one-million six-hundred thousand 
        (1,600,000) today; thirty-four million (34,000,000) people or 
        about one-in-four US Internet users visit them monthly, and 
        thirty-seven percent (37%) have visited a porn-site at work; 
        approximately four and one-half percent (4.5%) of downloaded 
        peer-to-peer content is pornographic images, while 
        approximately nineteen and three-tenths of a percent (19.3%) is 
        pornographic videos.
          (B) A November 2003 supplemental report from the General 
        Accounting Office (GAO) to the Senate Judiciary Committee 
        stated that the risks of inadvertent exposure to pornographic 
        content using peer-to-peer file-sharing software are no greater 
        than those posed by other uses of the Internet (such as 
        browsers, e-mail applications, instant messaging, websites, 
        chat-rooms, news groups, or commercial search engines). Some 
        840 instances of reported child pornography were attributed to 
        peer-to-peer software usage out of a 62,000 yearly total. 
        45,035 were on the Web, 12,043 were by e-mail, and 1,128 were 
        on Usenet bulletin boards.
          (C) According to the National Center for Missing and 
        Exploited Children (NCMEC), reported child pornography on peer-
        to-peer was down from 2% in 2002 to 1.4% in 2003, with the vast 
        majority of the remaining 98%+ coming from websites and chat-
        rooms.
          (D) Further, as confirmed by DCIA member reports, unlike 
        websites, there is no commercial child pornography distributed 
        by means of peer-to-peer applications.
    (8) Thus, while the use of file sharing software for the 
distribution of pornography is regrettable, it is less of a problem 
than activity in many other online environments. Finally, the leading 
file-sharing software suppliers provide tools enabling parents to 
protect their children from exposure to undesirable content. Users can 
choose options to block adult content, which is the default setting, 
add more keywords to be blocked, prevent all video and images from 
being downloaded, and password-protect their filter settings. While 
parental controls designed for search engines and other Internet 
applications, or distributed as stand-alone programs, may not 
automatically work with peer-to-peer software applications, the 
customized filtering solutions that have been incorporated in the 
leading file-sharing software programs are unexcelled in the levels of 
protection they provide and are setting the standard. Use of these 
tools and monitoring of use by parents and custodians must remain the 
primary protection of children from inappropriate Internet content.
    (9) Beyond the provision of parental control tools, leading peer-
to-peer software companies have also worked cooperatively and 
proactively with law enforcement agencies on programs to facilitate 
prosecution of abusers of their technology, who attempt to distribute 
criminally obscene content. It should soon become apparent to 
distributors of such material that sharing it via peer-to-peer public 
folders is the best way to expose themselves to identification and 
prosecution. Leading peer-to-peer software companies are also working 
voluntarily on deterrence and education programs to further combat 
child pornography before enforcement actions are necessary. The DCIA, 
for example, is focusing its resources on a collaborative program to 
enable peer-to-peer users to recognize, report, and remove criminally 
obscene content from their computers.
    (10) While no amount of child pornography can be tolerated, the 
charge made by entertainment interests that peer-to-peer software 
exposes even children conducting unfiltered searches to a greater 
amount of pornography than those using an unfiltered Internet search 
engine is unsupported by evidence. Furthermore, in contradiction to 
these disingenuous allegations, using family filters included with 
leading peer-to-peer software applications set at the maximum level, in 
direct refutation of specific entertainment industry allegations, no 
files retrieved on searches for popular terms like ``Britney'', 
``Pokemon'', and ``Olsen Twins,'' will contain pornography, child 
pornography, or child erotica. By contrast, searching on these same 
terms using unfiltered search engines will yield many thousands of 
pornographic and criminally obscene results.
    (11) Entertainment industry comparisons of relative growth of 
pornographic files are also misleading. Their cited peer-to-peer 
figures typically correspond to the period of greatest growth in the 
consumer adoption of peer-to-peer software and actually represent a 
more than fifty percent (50%) reduction in the complaint-to-user ratio. 
By contrast, websites, chat-rooms, news groups and bulletin boards, 
already well established and relatively mature, represented more than 
ninety-seven percent (97%) of reported incidents in this period. The 
record demonstrates that these issues have been and are being 
addressed, despite the greater challenges posed by a decentralized, 
user-generated file-sharing environment, resulting in a user experience 
comparable to, if not better than, that of surfing the Internet 
generally. While this concludes comments on the specific subject of 
this hearing, the following addresses other issues raised by the 
Subcommittee.
    (12) The innovative companies developing and distributing publicly 
accessible file-sharing software have also responded to other issues 
identified by Congress and through self-regulatory processes by making 
steady improvements. Additional relevant examples of their commendable 
track record include the integration of strong anti-virus software with 
peer-to-peer file sharing applications, and the implementation of 
default settings and procedures to prevent inadvertent sharing of 
private or confidential data. Users can flexibly select the frequency 
of updating virus definitions; leading peer-to-peer companies promptly 
alert users of known attacks; and protected users help shield other 
users of file-sharing applications. With respect to safeguarding 
private information, current leading peer-to-peer software requires 
users to take multiple affirmative steps in order to share files that 
may include personal data. Peer-to-peer software suppliers have 
affirmed their commitment to further reduce risks and enhance both the 
safety and value of the user experience on behalf of their consumers 
and the public at large.
    (13) The DCIA is currently addressing spyware/adware, in part by 
working with two DCIA member companies in the Center for Democracy & 
Technology (CDT) led Consumer Software Working Group (CSWG) since its 
inception. The DCIA also testified at the Federal Trade Commission's 
workshop in April 2004. At this event, it was made a matter of public 
record that leading peer-to-peer file-sharing suppliers, in addition to 
integrating powerful anti-virus software, now also certify that their 
programs are spyware-free. In addition, these suppliers offer consumers 
a choice of paid or ad-supported versions of their programs, with no 
pop-up ads appearing in the paid versions. Targeted advertising in the 
ad-supported versions collects no personally identifiable information, 
provides clear attribution as to its source, and is up to 40 times more 
efficient than traditional online advertising, meaning far fewer 
intrusions for users. Notifications are provided to consumers pre-
installation, at download, and during operation; and the uninstallation 
of peer-to-peer programs, along with any associated advertising 
software, follows the same standard add/remove procedure as other 
legitimate applications. The DCIA readily acknowledges that more needs 
to be done to achieve its goal of establishing best practices in this 
area, and welcomes the opportunity to also coordinate with Congress on 
this issue.
    (14) As noted earlier, however, the real obstacle to realization of 
the full potential of peer-to-peer technology is the refusal of key 
content owners to license their content for legitimate, paid 
distribution via peer-to-peer file sharing. In this regard, the DCIA 
commends the Subcommittee for scheduling a hearing on HR 107 ``The 
Digital Media Consumers' Rights Act'' on May 12, 2004, in contrast to 
the Judiciary IP Subcommittee's introduction and reporting in a single 
day, with no hearing, of HR 4077, a measure that could criminalize 
millions of young Americans, given its vague negligence standards, for 
merely storing digital music on a networked device. The entertainment 
industries' strategy is to combine their refusal to license content 
with their aggressive attempt to demonize peer-to-peer technology, in 
an attempt to crush what they erroneously view as a threat to their 
interests. This is the same time-dishonored strategy they tried in the 
futile fight against photocopiers, video recorders, and many other 
innovations that have brought great benefits both to consumers and to 
the companies that at first opposed them. And it is this which deserves 
to be the subject of Congressional investigation.
    (15) DCIA members alone represent, with an average of 50 million 
licensed files now distributed monthly, the largest form of 
distribution of legally traded copyrighted music, movies, software, and 
video games on the Internet. This is accomplished primarily through 
agreements with small independent content suppliers, while the major 
studios and music labels continue their boycott of peer-to-peer. 
Nevertheless, licensed content distribution continues steadily to 
increase via peer-to-peer software programs. The challenges presented 
by digital content are indeed multifaceted, and no single response is 
sufficient. But among the different solutions that have been tried by 
the major music and movie rights holders, the most glaring omission is 
the most obvious one--providing consumers with legitimate choices in 
each digital medium, including peer-to-peer.
    (16) However, the continuing failure of the major labels and movie 
studios to license the peer-to-peer distribution channel exposes these 
users to potential lawsuits from the record industry for copyright 
infringement. This is the only unique threat that users of these 
applications face, and Congress should urge major labels and movie 
studios to swiftly license their content for all digital media, 
including peer-to-peer, in furtherance of the public interest.
    (17) The full potential of peer-to-peer technology to benefit 
consumers has yet to be realized, and will not be achieved until 
content rights holders license their copyrighted works on a non-
discriminatory basis for legitimate distribution by means of file-
sharing applications. The ongoing boycott by major music labels and 
movie studios poses an increasingly serious threat, causing substantial 
damage to consumers, who are being harassed and threatened 
unnecessarily with lawsuits; to their shareholders, to whom they are 
denying a promising new revenue stream; and to content creators, 
particularly the independent labels and filmmakers seeking to monetize 
their copyrighted works using peer-to-peer distribution channels. The 
widespread availability of unprotected content from the majors severely 
disadvantages the independents from competing to sell their products 
using this most advanced and cost-effective distribution method.
    (18) The companies that develop and distribute peer-to-peer file-
sharing software have made energetic efforts to license content from 
the major labels and movies studios, but have been consistently 
rebuffed, in what may constitute a collusive refusal to deal. Related 
to this, a technical amendment to HR 1417, providing a blanket anti-
trust exemption for music in all digital media, was passed without 
hearing, resulting in a thousand-fold windfall benefit to record 
labels.
    (19) The current legitimate digital music marketplace is inadequate 
to properly serve consumers. Pricing at now licensed online music 
stores, for example, is maintained at artificially high levels so as 
not to compete with offline CD sales through an entrenched distribution 
infrastructure. Online store technology represents an older generation, 
less efficient centralized architecture. The quantity and quality of 
digital files made available for online sale are kept low so as not to 
be competitive with CD sales. Comparatively few users access these 
stores and fewer purchase files from them. The legitimate digital music 
marketplace needs to be expanded to encompass current and future 
technologies, including not only the latest Internet-based application, 
peer-to-peer file sharing, but also future technologies, with the 
requirement that music rights holders, and copyright holders generally, 
who wish to monetize their content in the digital realm, license it on 
non-discriminatory terms for all digital media.
    (20) Returning to the subject of this hearing, the entertainment 
industries are lobbying Congress with claims that file sharing is 
perilous to children and that peer-to-peer companies, though they have 
no control over user actions, should be responsible for the content of 
files some users independently share. At the same time, these entities 
intentionally and continuously bombard impressionable children and 
youth with shameful material. Major labels peddle hate-filled and 
reprehensible lyrics condoning, even promoting, criminal conduct, from 
drug trafficking and matricide to rape and theft. By their actions, 
these companies demonstrate they are motivated by a determination to 
protect their revenues and not by any tenderness for the young. Their 
conduct goes beyond unclean hands to a pernicious business model that 
should be reviewed by Congress as part of its media indecency 
initiative. Can it be that to incentivize the creation of a wide range 
of responsible entertainment we must at the same time make wealthy 
those bloodless cynics who shamelessly trade children's innocence for 
money and who undermine values such as faithfulness, work, sacrifice, 
selflessness, tolerance and self-discipline? Is this what the framers 
of the Constitution had in mind when they authorized the creation of 
copyright laws?
    (21) There can be no doubt that the ultimate motivation for such 
works is money. It cannot be supposed that any artist or corporate 
official has taken on partner abuse, child abandonment, robbery, date-
rape, homicide, or revenge as social missions that they would pursue 
absent the lure of dollars. Yes, such expressions are protected under 
the First Amendment, but where is the policy that says we must also 
facilitate the enrichment of their creators and promoters by imposing 
draconian measures on the citizenry? While this last line of argument 
takes us beyond the parameters of this hearing, the astonishing 
hypocrisy of the entertainment industries in this regard had to be 
pointed out.
    (22) A primary reason the DCIA has felt compelled to comment at 
such length is that the entertainment industries' ongoing campaign to 
destroy the peer-to-peer software companies and to strangle file-
sharing technology has gone largely unanswered. It is based upon the 
unproven assertion that labels and studios are suffering great economic 
damage through the copyright infringement of individual users. The 
DCIA's mission is to develop and promote the legitimate uses of P2P 
functionality, and to help foster business models that make partners, 
rather than litigants, of content owners, technology companies, 
Internet service providers, peer-to-peer software companies, and 
consumers.
    (23) The entertainment industries' continuing emphasis on peer-to-
peer pornography is unreflective of the much greater relative presence 
of pornography on the Web, and of the much greater ease of transmitting 
pornography via e-mail and instant messaging attachments, not to 
mention the far greater risks of criminally obscene content available 
on websites, and of predatory dangers in chat-rooms. And it is so 
dismissive of peer-to-peer providers' efforts to work with law 
enforcement and to incorporate parental control software into their 
products that it starts to take on the character of a red herring. The 
inaccurate pornography charge too, is one of the pillars of the 
entertainment companies' platform for destroying the nascent 
distributed computing industry, oblivious to the damage wrought by 
their own intentional and shameful role.
    (24) Both copyright infringement and exposure of children to 
pornography are real problems, and we condemn them. However, we also 
encourage Congress to consider the possibility that the entertainment 
industries' ceaseless chant of piracy, and their unbalanced and 
diversionary claim of pornography, are not such issues as demand an 
inexorable tightening of the legislative screws on millions of 
Americans, young and old, by an angry Congress on behalf of unworthy 
supplicants. Instead, we commend to you the idea that these campaigns, 
on which so much money and so many words have been spent, are excuses 
that serve the purpose of shielding poor management from investor 
scrutiny, and of substituting for a lack of strategic business vision 
and for a lack of artistic creativity, and for an inability to learn 
from the lessons of the past regarding the development of earlier media 
distribution technologies.
    (25) How much more beneficial and constructive it would be for the 
United States and all of its citizens, and for the entertainment 
companies themselves and their shareholders, if as the next step in 
development of the new and rapidly changing decentralized digital 
distribution marketplace, Congress were to adopt an alternative along 
these lines: ``To be effective on the date of initial publishing of a 
copyrighted work, any rights holder who wishes to monetize the digital 
redistribution of such work on the Internet and otherwise, shall be 
required to provide in advance terms and conditions on a non-
discriminatory wholesale basis to all distributors, including software 
suppliers and individuals, who may wish to engage in such 
redistribution.'' Once the law has been modified in such a way to 
ensure that the ``carrot'' of legitimate licensed content 
redistribution can be supported given the realities of technical 
advancements now affecting the topology of the Internet itself, then 
the ``stick'' of enforcement could reasonably be revisited, with more 
appropriate requirements for commercial parties who may then be 
expected to bear increased responsibilities for protecting the new 
forms of commerce so enabled. These would logically include appropriate 
labeling and warnings for adult content, actions to combat criminally 
obscene content, and other measures to fully legitimize online 
entertainment distribution.
    Thank you for the opportunity to provide this testimony. We would 
be pleased to answer your questions and arrange a peer-to-peer 
technology demonstration at your convenience.

    Mr. Stearns. I thank you. Well, I think we have a classic 
debate here between the P2P, peer-to-peer here saying that it's 
a neutral technology and has great worth and we're not sure 
that some of the solutions perhaps that have been offered in 
the Pitts Bill are practical, isn't that what you're saying, 
Mr. Lafferty? You're saying that the Pitts Bill is not 
something that you support?
    Mr. Lafferty. Well, we've worked with----
    Mr. Stearns. Yes or no, would you support the passage of 
his bill?
    Mr. Lafferty. We'd like to work with them on it more so. In 
its current form, we can't support it.
    Mr. Stearns. You could not support it in its current form.
    Mr. Lafferty. I'd like to explain.
    Mr. Stearns. Let me ask you this, though, you can put 
filters on it, but can the filters actually look into the 
content of a file? I mean I can put the filters on all day 
long, but if I'm--if the server, the IP is--he can put a name 
and that name comes in and then bingo, you've got pornography, 
child pornography. So the filters really don't work in the 
sense that they can't detect what's actually the image or the 
graphics or what's inside. Isn't that true that the content 
can't be detected through a filter?
    Mr. Lafferty. Correct. These are key word filters. The 
parents can add their own key words as they discover content 
that's problematic to block out both the title of the file and 
the metadata that goes to describe the file. So the best 
solution right now is for parents of young children to use the 
block all video and images mode where everything is blocked.
    Mr. Stearns. So all images would have to be blocked to make 
the filter work right.
    Mr. Lafferty. Which it does have.
    Mr. Stearns. Mr. Dunkel, you at the University of Florida 
now had this peer-to-peer in all the dorms. The University of 
Florida has 46,000 students and you can imagine before you got 
involved with the program you had all this pornography and 
movies and everything going and you found it so disruptive, as 
you told me, that it slowed down the whole system because 
everybody was downloading all the time. So you put in your 
software and I guess the obvious question would be would the 
software that you use be effective for the family? Maybe you 
can talk about that you and your associate on how that would 
work for a family and should this be a software program that 
they can buy and how would it actually prevent the content and 
give a filter--how did you do it so that you just blocked all 
video, is that the way you did it?
    Mr. Bird. What we chose to do was we chose to prohibit the 
mass distribution of content from individual machines. We felt 
that that was an appropriate use.
    Mr. Stearns. What does that mean, the mass distribution of 
content?
    Mr. Bird. Well, many years ago, in fact, about seven years 
ago, we created policy that said we're not going to allow 
servers to run in our residence halls and that essentially 
means is at that time we were facing a problem of commercial 
abuse of our resources in the residence halls. So as an 
extension of that, we noticed that there was rampant abuse of 
these peer-to-peer applications for one person's ability to 
distribute content to millions of other folks. And what we 
found is that the connections are so significantly faster than 
your average home broadband user that actually residential 
users on college campuses have tremendous opportunity to 
distribute in a way that even your best home user cannot.
    What we chose to do was we chose to stop the distribution 
of essentially all files by those mechanisms, so we stopped 
websites, we stopped peer-to-peer applications, we stopped a 
large number of things and redirected the residents to 
appropriate resources for their needs.
    Mr. Stearns. So you just put up a wall?
    Mr. Bird. We basically put up a wall, but that wall is very 
difficult to maintain without an application like this.
    Mr. Stearns. And I don't know if that would be a practical 
application. I guess it could be for a family if young 
children, but that wall also prevents peer-to-peer for music if 
a student wanted to download music or a video, for legitimate 
concerns.
    Mr. Bird. Correct. The one thing that we found is that the 
wall that we have in place at the University of Florida is not 
specific to ICARUS, so the application itself can be used in a 
variety of different ways. It's not specifically a block all or 
nothing sort of scenario. It could easily be customized for 
home use and in fact, the version that we're working on 
presently does just that.
    Mr. Stearns. That seems to me the key that if you had a 
software that's not either or that it could still have the 
nuance to allow legitimate--
    Mr. Bird. Correct.
    Mr. Stearns. I guess the real key would be to be able to 
actually survey the content. You could have a filter that says 
okay, based upon name, but once a name came up and allowed it 
in, it actually looked at the content. Now I don't know how you 
technologically, that's not available yet where you can 
actually survey the content of these downloaded programs.
    Mr. Bird. It would be possible to build a variety of 
databases that might cover certain file formats, for example, 
that's been done in the copyrighted music industry. Certain 
commercial companies have built databases that will detect the 
transmission of copyrighted materials explicitly, but it 
essentially is impossible to monitor and block explicitly on 
content because content can be compressed, it can be encrypted 
and there's no way to actually analyze that.
    Mr. Stearns. Well, my time has expired, but I would say to 
Mr. Allen, I guess a hopeful sign would be if the University of 
Florida can detect and prevent peer-to-peer in a negative way, 
and ISPs are required by law to report any child pornography on 
its sites, perhaps two of these processes could come together 
to help you, wouldn't you think?
    Mr. Allen. Mr. Chairman, I think it would be enormously 
helpful and let me thank you and the Members of the Committee. 
The fact that Congress mandated in 1999 in the Protection of 
Children From Sexual Predators Act that ISPs have to report 
child pornography on their sites to law enforcement. Through 
our CyberTipline at the National Center has produced hundreds 
of prosecutions and arrests and is generating thousands of 
leads. So I think the combination of technology and we're very 
much in support of filters and other technologies. Ms. Nance 
pointed out most parents still don't use them. But I think it's 
a great tool. It's just not a panacea. Enforcement has to be a 
key element to the equation.
    Mr. Stearns. Thank you. My time has expired. Ranking 
Member?
    Ms. Schakowsky. Thank you, Mr. Chairman. Mr. Lafferty, a 
few moments ago you noted that you couldn't support the Pitts 
Bill in its current form and I wondered if you just take a 
minute to explain what legislation you could or what changes 
you feel need to be made.
    Mr. Lafferty. We welcome the opportunity to work with 
Congressman Pitts' staff on those issues. A couple of points, 
one is that that bill seemed to say in its subtitle, it singled 
out peer-to-peer, the subtitle was to ban peer-to-peer. So of 
course, that's a problem for us.
    When we talked about the real intent of the bill which is 
to protect children, given that there's so much more of child 
pornography and obscene content on websites and chat rooms, we 
felt strongly that that bill should be broadened to cover other 
instances of child pornography and criminally obscene content 
on other parts of the internet. And there's some technical 
questions about the notion of a beacon which the bill contains. 
So we think the way to go is to continue on the path of 
developing more and more powerful family filters as we've been 
discussing this morning and apply it to the internet as a 
whole. And we would welcome the chance to work more on a bill 
to protect children from pornography on the internet.
    Ms. Schakowsky. You also had a different interpretation of 
what was available on the internet. And that the Google 
searches that you were talking about produced a good deal of 
pornography. Was the filter in place when you did that? How 
come there's such a discrepancy between what Ms. Nance found 
and what you found, Mr. Lafferty?
    Mr. Lafferty. The commercial search engines generally don't 
provide a filter, so it's a third party filter like the 
NetNanny that could be added as separate software, where as the 
P2Ps actually integrate a family filter into their software 
that downloads it into default position. I didn't do that 
search. I can't comment. We did the one that we did and we 
compared using the family filter integrated with Kazaa with 
just a straight search on Google, Yahoo and MSN and those were 
the results.
    Ms. Schakowsky. Ms. Nance, you said that a filter was in 
place when you did the Cinderella search.
    Ms. Nance. It was in place and it was the adult filter that 
Kazaa provides, but I want to say even if parents were able to 
think of all the possible search terms that some person could 
possibly some twisted person could come up with to try to snare 
in kids, if I could think of all of those and I could passport 
it and I could put it on there, the only thing that happens is 
that the kid put in the password is a popup dialogue box that 
says would you like to disable the filter and it's a yes or no. 
Or, if you've got a savvy, curious 13-year-old that gets on 
there and it popups and says or he can't get into what he 
wants, all he has to do is redownload Kazaa or one of these 
sites and in two minutes he's back in business without any kind 
of filter at all.
    Ms. Schakowsky. Mr. Catlett, you were suggesting all these 
really wonderful uses of the P2P network. What would happen to 
those if, as written, the legislation were to pass?
    Mr. Catlett. I'm frankly not sure that the applications 
that I showed would be impacted by this bill. I'm not a 
lawmaker, and so I may not be reading it correctly, but so I'm 
not sure my applications that I showed would be impacted, but I 
think it's possible depending on the implementation of the bill 
that--I'll give you an example, the bill describes peer-to-peer 
software in a way that, as I said, includes instant messaging 
and other things on my computer.
    It has an exclusion for operating system software like the 
McIntosh operating system I run here or Windows on this 
machine, as I read it. And that would make me a little bit 
nervous because if we exempt the operating system then a large 
company that provides an operating system could build new 
technology into their operating system under a different set of 
rules than a small company developing software whether it's 
peer-to-peer or something else.
    I look at that bill and I read the bill and I just 
absolutely am thrilled that you are taking this one and I see 
some very good ideas in there and I think with the turn of a 
crank, with collaboration with some software companies that it 
could be a reasonably good bill.
    Ms. Schakowsky. So that even those of you who oppose the--
who have some problems anyway with the legislation as written, 
feel that technologically we can address adequately the 
situation of children getting access to this pornography?
    Mr. Catlett. If I can answer, I think one of the things 
that we're seeing here is peer-to-peer technology is very new 
compared to web searches and it doesn't have the jump. Web 
searches have been around for 10 years. Ten years ago when my 
16-year-old daughter was in second grade I had her whole 
classroom come in to where I worked at the time at the 
University of Illinois and I wanted to use our classroom there 
was internet connected to do a scavenger hunt to show the kids 
the internet. The night before I typed into one of the search 
sites ``Barbie'' and I forgot to put the E on the end and I got 
a different kind of Barbie that I thought I was going to get. 
So I worked the whole curriculum to constrict what the kids 
were able to search for the next day when they did that.
    I wouldn't have to do that today the way I did before, but 
I would if I were using peer-to-peer technology say a year ago. 
I'm not sure what's happening lately with peer-to-peer 
technology, but it does change a lot in a short amount of time.
    I also did extensive research last week in that I asked my 
16-year-old how this works for her. I said how often is it that 
you are using Kazaa and she like to downtown television shows 
that she missed and things like that. How often do you get 
inappropriate content when you search? She said well, at first 
I saw some inappropriate things maybe last year, but I've built 
up my filters to the point where I never get inappropriate 
things any more with one exception, she said, there was one 
time she downloaded what was supposed to be a sitcom, a Friends 
show or something like that and it was actually something else 
and she figured out from the title when the movie started that 
it wasn't the kind of the thing--so it's not full proof, but 
it's come a long way and that's what I said earlier. Harnessing 
the innovation and technology in the software field to address 
this problem I think is really a good approach. And also the 
idea--so my 8-year-old can pick up a snack and he says Dad, 
this has a lot of fat in it because he understands these simple 
labels. What I wish my 8-year-old could download software and 
say hey, Dad, I think this software has some privacy issues, 
maybe we shouldn't install it. So simple labels and 
notification would be tremendous and not just for this 
software, but all software.
    Ms. Schakowsky. Thank you.
    Mr. Stearns. The gentlelady's time has expired. The 
gentleman from Pennsylvania, Mr. Pitts.
    Mr. Pitts. Thank you, Mr. Chairman, thank you to the 
witnesses for your testimony.
    Mr. Catlett, first of all, I appreciate your comments on 
our Bill, H.R. 2885, in your written testimony. In your opinion 
is it technologically possible to develop a do not install 
beacon?
    Mr. Catlett. I think it is. I read that part of the bill 
and I was intrigued by that idea. Depending on how it's 
implemented, it just simply has an impact on the software 
engineering costs and support costs of companies that are doing 
software and operating systems. And so is it technically 
possible, certainly. Depending on how it's implemented, it 
could be either very easy or it could be very onerous for 
software developers.
    Mr. Pitts. You expressed concerns about how peer-to-peer is 
defined. Would you be able to provide us in writing your 
recommended revisions to the definition? I'd like to work with 
you to ensure that the definition is not so broad as to have 
unintended consequences for legitimate peer-to-peer uses.
    Mr. Catlett. Certainly, I'd be happy to try to look at that 
and even engage some of my colleagues. One of the things about 
that is it's very difficult to precisely define software, but 
I'm not if it's impossible or not, but it's very difficult. I 
made my comments because I would like to help, yes.
    Mr. Pitts. Thank you. Mr. Lafferty, in your testimony you 
mentioned the music industry, they should also be held 
accountable. I know that the music industry has to go before 
the FTC for the approval on their content. Do peer-to-peer 
distributors go before the FTC for the content they distribute?
    Mr. Lafferty. The peer-to-peer software does not distribute 
content. It's a technology. The content is put there by the 
consumers. We appeared on the FTC panel on spyware. We're 
working closely with the FTC on that issue and expect to 
continue to work on that to establish industry best practices 
that will be acceptable to society.
    Mr. Pitts. Now you mention in your written testimony that 
there 840 instances of reported child pornography that were 
attributed to peer-to-peer software usage. Have your member 
groups acted proactively to make sure pornographic material is 
not on their network? If so, what steps have you taken to 
proactively help law enforcement?
    Mr. Lafferty. We've been working with the FBI for a number 
of months and not to step on anything, covert operations that 
can't be disclosed, it should be apparent to all that P2P is 
the dumbest place to put illegal materials like standing in the 
middle of a town square and saying look at me, I have something 
illegal. You will get caught and quickly and prosecuted. So 
we're very pleased with that aspect of it.
    We're also working with them on deterrence and education 
programs to help users recognize, remove and report criminally 
obscene content and using new technology that's not the keyword 
filter, but a collaborative filtering approach to be able to 
cleanse the P2P services from objectionable content with the 
users engaged in doing so.
    Mr. Pitts. You mentioned users again choose options to 
block adult content which is the default setting. How does the 
adult filter work? The filter works by blocking search terms, 
right, not actual files based on content. And, what search 
terms trigger the adult filter on Kazaa?
    Mr. Lafferty. And it is a bit of a blunt instrument at this 
point. Yes, it's a very new industry. We're less than 10 months 
old, not to make excuses, because no amount of child 
pornography is acceptable, but it works in two modes. You can 
enter key words that are in the title of the file, put there by 
the individual who distributed that file and the metadata that 
describes the file. So if there are adult words in that, it 
will block it out.
    The second mode which is what I recommend for parents with 
young children, it blocks all images, blocks all video. So 
really two modes, blocking words up to a certain point and then 
stronger mode, maximum level to block all video and images to 
fully protect children.
    Mr. Pitts. If you search by a term that does not trigger 
the adult filter, such as baseball. Does the filter block 
pornographic material?
    Mr. Lafferty. Only if the metadata had some reference in it 
that would trigger that adult level or if the parent had added 
the word baseball to block that. Again, it's a keyword filter. 
It has limitations. I think it's been developed as far as it 
can be to be as effective as it is, which is why the separate 
higher level of blocking all video images is also provided.
    Mr. Pitts. Now if you use the maximum level, I think you 
used that term which means images and video filter set, you 
can't download movies or concert videos or pictures of Barry 
Bonds hitting his 600th home run, right?
    Mr. Lafferty. Correct.
    Mr. Pitts. What is a parent or child for that matter, 
doesn't want to block all images. They want maybe a G-rated 
movie. Is the adult filter the only other way to block adult 
content?
    Mr. Lafferty. Currently, that's correct. We're working on--
we're not resting on any laurels here by any means and member 
firms are working on collaborative filtering which I mentioned 
which is a new technology that allows users to tag a file as 
being objectionable or criminally obscene and then it will be 
pushed out of distribution on a particular P2P software 
application. That's new and it's coming along. In addition, 
working with the FBI on deterrence popups to warn users and on 
education programs, further education programs to help 
consumers recognize, report and remove content.
    Again, it's a new technology and certainly we're pleased to 
see that the incidents dropped from 2 percent of all of the 
reports to 1.4 percent last year, but we won't be satisfied 
until it's zero. It's just a continuing effort to fight, to 
combat child pornography and get it off of these services.
    Mr. Pitts. My time is up. Thank you, Mr. Chairman.
    Mr. Stearns. I thank the gentleman. The gentleman from 
Ohio, Mr. Strickland.
    Mr. Strickland. Thank you, Mr. Chairman, and I want to 
thank the witnesses. Mr. Lafferty, if I understood your answer 
correctly to Mr. Pitts, you are responsible for the peer-to-
peer technology. You are not responsible for materials that may 
be made accessible or available through the use of that 
technology. Is that correct?
    Mr. Lafferty. We're a trade association, but answering for 
my members who are peer-to-peer software suppliers, speaking 
for them, that's correct. They provide the software and then 99 
percent of the content is put there by users, put in a shared 
folder and shared with other users.
    Mr. Strickland. So you accept no responsibility for 
whatever content may be made available through the use of your 
technology? Is that a correct statement?
    Mr. Lafferty. I wouldn't, no. There's a difference between 
knowledge and control of what the content is and providing 
parental tools to protect children. There are warnings, clear, 
conspicuous warnings about copyright infringement. There are 
any number of things being done to try to have this software be 
implemented for proper, legal uses, legitimate uses. That's 
what we're dedicated on doing.
    Mr. Strickland. Excuse me for interrupting you. I didn't 
intend to do that. You don't feel though that you should be 
held liable for illegal materials. I'm talking about child 
porn, specifically, that would be made available to children 
through the use of your technology. It's not a trick question. 
I'm just trying to discern what your position is.
    Mr. Lafferty. Not to answer a question with a question, but 
it's--should Microsoft Windows Outlook be accountable for every 
single e-mail that all of its hundreds of millions of users can 
sort every day. The nature of the software is that individuals 
can put whatever they want on there and that's the problem 
we're having with the music industry that popular music is 
ripped and put online with no copy protection, no upload 
protection and it's there.
    Mr. Strickland. That brings me a question that I have for 
Mr. Dunkel.
    Mr. Dunkel, you talked about the University of Florida's 
student body overwhelming downloading music and movies before 
you changed your policy. And I know we're here to talk about 
child pornography, but I think we cannot talk about this 
technology without bringing up another relevant matter which 
involves honesty and legality and all of that. And that has to 
do with copyright protections. I would be interested in hearing 
a little more, if you could tell me, what you at the University 
of Florida are doing in regard to your computer policy and 
steps you may be taking to educate students regarding the 
morality or legality of their behavior regarding copyright 
laws.
    Mr. Dunkel. Certainly. When ICARUS was originally turned on 
to date which is less than one year, we had discovered 3,700 
first time violators. So these were students who were using 
their desktop knowingly or unknowingly as a server with music, 
video or images and once we identify a student so Mr. 
Strickland, we've identified your computer and whether you knew 
it or not, you had a file server program working on your 
computer, we would then terminate you from the internet. You 
would still have access to the University of Florida, so you'd 
have access to your courses and teachers and so forth, but not 
the greater internet. We would direct you to a website within 
our operation and it would take you through educational 
information to identify why what you're doing is not within our 
acceptable use policy, what you need to do and walk you through 
the steps to take care of that. We would then time you out for 
30 minutes. So you've had a first time violation. You have 30 
minutes now that you're no longer on the internet. If we find 
you violating that a second time, you go through the same steps 
and you're timed out for five days. A third time, and you go 
through the University of Florida's Judicial Affairs process. 
So a record then, in Judicial Affairs is maintained by the 
University and a sanction is applied accordingly.
    For most students, those 3,700 first time students, that 
would be the only time they ever hear of that. Three hundred 
fifty were second time violators and only 32 were third time 
violators and that included students who had viruses and worms 
hosted on their computers and they wouldn't take the steps to 
clean their computers. So we also deal with viruses and worms 
going through that program.
    Mr. Strickland. Let me congratulate you. It sounds like 
you've taken appropriate action to deal with what I consider a 
very legitimate problem.
    If I could ask any other member of the panel, do you think 
that there's any responsibility on the part of those who make 
this technology available to also provide some kind of 
educational component to the user regarding what is and is not 
legal and appropriate in terms of copyright infringements?
    Mr. Lafferty. We clearly think there is and we're working 
with our members and glad to work with Congress, the FTC and 
others to do that, do exactly that.
    Mr. Allen. Yes.
    Mr. Dunkel. I would add just a further word that clearly 
the University of Florida as any other institution of higher 
education is in the business of educating students. We have to 
do that actively. We have to do that passively, so whether 
we're handing a brochure out or placing a sticker on their 
dataport or doing something on line, clearly, we have a 
responsibility to educate.
    Mr. Strickland. Thank you. Thank you, Mr. Chairman. My time 
has expired.
    Mr. Stearns. I thank the gentleman. Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. I'm glad I had a 
chance to make it up here after my--the other hearing we had.
    Let me ask--all of you are really tech savvy and understand 
what's out there. Let me ask a question to each one of you.
    Is there a spot on the worldwide web where a parent can 
direct their children to go that is safe, that's reviewed, that 
does not allow peer-to-peer, would not allow spyware 
applications and is safe by the Federal definition, not harmful 
to minors under the age of 13?
    Mr. Catlett, do you know of a place like that?
    Mr. Catlett. Well----
    Mr. Shimkus. Basically, yes or no. Is there a site right 
now where parents can go for kids under the age of 13 to search 
for information that has no hyperlinks, in essence, no internet 
messaging, no chat rooms available?
    Mr. Catlett. I think you could set up a web browser so that 
it would----
    Mr. Shimkus. The question is is there a site now, do you 
know?
    Mr. Catlett. Sure.
    Mr. Shimkus. Do you know the name?
    Mr. Catlett. I would guess somewhere like I'll say lego.com 
wouldn't have any links off the site, but I couldn't verify 
that.
    Mr. Shimkus. I would doubt that.
    Mr. Catlett. It may have links off the site.
    Mr. Shimkus. It sure does. They all do. Let's just go down, 
Mr. Lafferty?
    Mr. Lafferty. I am encouraged by KidsOnline which is a 
service of AmericaOnline, a subsidiary of AOL and we would like 
to have such a site using the P2P technology with the filter 
fully engaged, a kids Kazaa, which is completely safe and where 
the content is absolutely locked and----
    Mr. Shimkus. You failed the test too. Mr. Dunkel?
    Mr. Dunkel. Our work does not venture in that area. I could 
not answer that question.
    Mr. Shimkus. You should know them and we're going to 
educate you in a minute. Members usually don't educate.
    Mr. Bird?
    Mr. Bird. I'm not aware of any technology like that.
    Mr. Shimkus. Mr. Allen?
    Mr. Allen. No.
    Mr. Shimkus. Ms. Nance?
    Ms. Nance. There is no place I can turn my back on my 
children and allow them alone on the computer.
    Mr. Shimkus. The answer there is a site, enacted in the 
law, signed by the President, 18 months ago. It's interesting 
that we have competing hearings today because we just came from 
the hearing. Kids.us. Safe site for kids on the internet. 
Doesn't allow peer-to-peer. Doesn't allow instant messaging. No 
hyperlinks. Information-based only. It's positive, voluntary 
and it's a site where we need help in getting people who want 
to provide safe information for kids. So pro-family 
organizations and groups ought to be hounding the private 
sector and the public sector to get up on the site. We have 13 
active sites. They go from the smithsonian.kids.us, abckids.us. 
We have--in essence, there's 13 in total.
    And what we are fighting is the chicken and the egg battle. 
NewStar manages the site. They have, I think, kids.net oversees 
the site. NTIA can pull down the site if there's anything that 
sneaks on that is inappropriate. Part of the job that I'm 
doing, as part of the author, along with Chairman Upton and 
Chairman Markey, Ranking Member Markey and then Ranking Member 
Dingell and Chairman Tauzin at the time when we passed this 
legislation is when you pass legislation you just can't let it 
go, I mean if you really want it to be successful. So I use the 
bully pulpit. I'm allowed to do that and that's what I'm doing 
now.
    When we had the pornography hearings on the Super Bowl I 
looked at the network guys and I said how come you don't have a 
.kids site, a kids.us site? Guess who is now up, abckids.us.
    So my plea is--the University of Florida ought to have one. 
If you want to educate children about the great aspects of the 
University of Florida in a safe arena for kids, so that maybe 
one day they may want to be a Gator, you ought to be there and 
so this is--I know you're here to educate us. There's serious 
problems.
    In the hearing today I asked the question when I ended up 
and it was a very good hearing because it's the difference. 
Here we're trying to react to problems. We have a safe site now 
for kids and we're not promoting it. No spyware. You can't put 
spyware on a kid who is on the kids.us site. No peer-to-peer, 
information-based only and is reviewed by both the government 
and private sector contracted agency with ability to pull the 
plug.
    So I'm using the bully pulpit. Thank you for being here. 
Spread the word.
    Mr. Chairman, I yield back my time.
    Mr. Stearns. Gentlemen, we have your site right up on the 
screen to help you promote the site that your legislation 
originated and that you support and we're a strong advocate and 
the President signed your legislation and I thank you for your 
comments.
    Gentlelady, Ms. McCarthy?
    Ms. McCarthy. Thank you, Mr. Chairman. I thank the Panel 
and apologize for being late to your testimony. I had another 
full committee and subcommittee simultaneously.
    But I am intrigued by the thought that there might be 
wisdom on other legislative alternatives that we could employ 
to address this, not only the unauthorized download of 
copyrighted information which is an infringement and 
punishable, but also to require porn sites to enforce laws or 
be terminated. And the RIAA recently brought lawsuits against 
university students for copyright infringement.
    I wondered if any of you, particularly, Mr. Dunkel and Mr. 
Bird from the University, I'm very impressed with your effort. 
I wonder what the effect on students it might have potentially 
or have had with regard to the private sector weighing in with 
consequences just as you have chosen as an administration and a 
university and whether that is something that we should be 
looking at as a legislative alternative, the encouraging of 
such partnerships and such efforts, and what role the Federal 
Trade Commission could have or what more power they would need 
to be an effective partner in such an alternative. I would just 
welcome your thoughts.
    Mr. Lafferty, you're welcome to weigh in.
    Mr. Dunkel. Certainly, I could share with you that prior to 
last summer, there are various agencies that would send out 
notice to educational institutions that a particular user is 
violating a copyright law and they would send out a DMCA 
violation letter. So a digital millennial copyright act 
violation letter. It would say Ms. McCarthy at this certain 
port and so forth, you're violating a certain part of the 
copyright law.
    When we deployed ICARUS, prior to deploying ICARUS, our 
institution was receiving approximately about 60 or 70 of those 
per month. When we deployed ICARUS, we have not received one 
since that time. So I think we've worked very effectively with 
industry in helping to educate the residents and the program 
seems to be working well.
    Ms. McCarthy. Any other ideas from any panelists on what 
other legislative alternatives we should be pursuing with the 
private sector and government regulatory bodies?
    Ms. Nance. I would just suggest, you know, there are 
probably things within Mr. Pitts' bill that we could all agree 
on like perhaps parental warnings. I mean they're willing to 
put up parental warning for copyright infringement, why not 
pornography?
    Very simply things that can just alert parents to what is 
happening. I would urge people to sit and talk to Mr. Pitts and 
for all of us to come together on the areas that we can agree 
on and to go forward because it's a serious problem.
    Ms. McCarthy. Thank you very much, Ms. Nance.
    Mr. Lafferty. You brought up the copyright issue. We have 
helped convincing the major labels and large movie studios to 
embrace this new technology and begin licensing their content 
for legitimate distribution so it can commercially develop. I 
mean the only unique threat that users have on P2P now, given 
all the other threats of other aspects of the internet is an 
RIAA lawsuit and the notion of bludgeoning your customers and 
trying to terrorize consumers is the wrong approach.
    We need to have them legitimately license their content for 
pay distribution. We'd love to be working with the RIAA members 
on a program for this fall for college, to provide college 
students with a way to purchase songs, legally, at attractive 
prices and that would be a terrific solution. It will be a 
revenue generator on a voluntary basis, not some kind of a tax 
on students that the university has to put in place and not a 
cost, an expansion of commerce.
    Ms. McCarthy. Thank you and I quite agree. My concern 
remains that a young person would be going up on a peer-to-peer 
situation to download a Britney Spears song and while there, is 
confronted with pornographic pictures of a Britney Spears of 
some sort and how to separate those two. But I don't know that 
that's a legislative solution as much as it is just the 
industry and others working together as they have been doing to 
try to address it and I thank you, Mr. Chairman.
    Mr. Stearns. Thank you. The gentleman from New Jersey, Mr. 
Ferguson.
    Mr. Ferguson. Thank you, Mr. Chairman. I have a couple of 
questions for Mr. Lafferty.
    Mr. Lafferty, it's common for one of these services and I 
begin by saying that I'm not familiar with Kazaa. I've never 
used it, so I'm a little bit ignorant on the actual use of some 
of these and peer-to-peer technology as well, but frequently, I 
would imagine for some of the folks that you represent and I 
know for some of these services there are these end user 
license agreements and they say, one of them that I saw says 
that you state that they do not allow their users to distribute 
obscene or illegal material to other users of the product. 
That's pretty common, I would imagine.
    Mr. Lafferty. Correct.
    Mr. Ferguson. How is that enforced? It's obviously not 
true. There are obscene materials being distributed from one 
user to another. How is that agreement enforced? It sounds 
hollow to me.
    Mr. Lafferty. The way to enforce it is working with the 
FBI, as we are, on these covert operations to identify, capture 
egregious users who are inserting criminally obscene content 
into the system in which case they'll be terminated because 
they're in violation of the agreement, but it's, as I mentioned 
to Congressman Strickland, the sheer volume of content, think 
of if you had to deal with Windows Outlook on all the e-mails 
being written every day and somehow have knowledge and control 
of that, probably Microsoft would go into bankruptcy trying to 
do that. It's that type of issue. So when we see a problem work 
with law enforcement, identify it, prosecute the abusers and 
terminate them.
    Mr. Ferguson. How many folks have been terminated?
    Mr. Lafferty. I can't comment on that because it's 
private--it hasn't been announced yet.
    Mr. Allen. Could I comment?
    Mr. Ferguson. Could I ask, have any? Is that private?
    Mr. Lafferty. So far the number of busts, prosecutions have 
been not great, but that's going to change and I think you soon 
will see that P2P is the dumbest place to try to disseminate 
criminally obscene content.
    Mr. Ferguson. Why is the bust rate, as you call it, why has 
it not been very good?
    Mr. Lafferty. I think we're getting into some 
confidential--we'd like to talk about it privately with the FBI 
and not public.
    Mr. Ferguson. By your own description, the monitoring of 
this has not been particularly good, is that a fair 
characterization?
    Mr. Lafferty. I think law enforcement thinks that 
perpetrators of illegal content on P2P, it's like--in their 
words, it's like shooting fish in a barrel.
    Mr. Ferguson. But what has the industry done to monitor 
itself?
    What have the companies done to monitor--if--what does the 
FBI do to monitor these things? They get people to start 
surfing the net and being users. Can't companies do that as 
well? If the company has an agreement that says you're not 
allowed to do this, doesn't the company have some 
responsibility to monitor itself?
    Mr. Lafferty. Sure.
    Mr. Ferguson. And do the companies do it at all?
    Mr. Lafferty. The companies are most familiar with the 
technology and see the scale of the issue and so they attack it 
through other technology means such as the family filters which 
have come to a point of blocking all video and images.
    Mr. Ferguson. Forgive me, my time is short. The filters 
tend to be useless, don't they? I mean can't kids go in and 
can't you just download Kazaa again if your parents have put a 
filter on it? Can't you just go and download it again and get 
around the filter?
    Mr. Lafferty. That's really an operating system, a browser 
issue.
    Mr. Ferguson. But the question is doesn't that render the 
filter useless?
    Mr. Lafferty. Once the parents put the password in it locks 
that particular setting and you need to know the password to be 
able to break that setting.
    Mr. Ferguson. Can children get around these settings?
    Mr. Lafferty. There's always going to be hackers----
    Mr. Ferguson. I'm talking about a 12-year-old kid?
    Mr. Lafferty. Unless they find out the password, it works.
    Mr. Ferguson. But do the companies feel like their 
responsibility has been met simply by putting filters on that 
can be hacked through?
    Mr. Lafferty. Absolutely not. This is a moving target. 
We're not going to rest until we've really defeated child 
pornography and cleanse these networks. It's abhorrent and 
horrendous. So that's why other steps are being taken and 
deterrence, education, additional forms of filtering that are 
more sophisticated and the work continues. It's a very new 
industry. It's less than a year old. It's 10 months old.
    Mr. Ferguson. I appreciate that. And as you can tell and as 
I've said I'm not familiar with it, partly because it is so 
new.
    Mr. Lafferty. What's happened is the consumer adoption rate 
has been fantastic. This has taken everyone on the content side 
of the table and the technology side of the table by surprise. 
It's taken our breath away and we're playing catch up to 
civilize it and to do the right thing.
    Mr. Ferguson. Let me just close since my time has ended, 
let me just close by urging you to work with your companies to 
take a more active role in monitoring themselves to help the 
FBI. I know you're working with law enforcement to do that. But 
if law enforcement can do that, the private sector has a 
responsibility here too and we're talking about legislation now 
and you've said that you can't support the legislation as it's 
currently written.
    I don't speak only for myself. There are a lot of Members 
on both sides of the aisle in this body and certainly on this 
committee who are very concerned about this issue, feel that 
the industry has a real responsibility to continue to monitor 
itself, to do a better job of monitoring itself and it's our 
hope that you can continue to make progress on that and working 
with law enforcement because legislation is coming and if you 
don't like the legislation you've got to be willing to either 
work with us to make that legislation better and/or make it so 
that legislation is not necessary by doing the work yourself. 
If, in fat, you don't like the legislation that we're 
considering, you can help that. You can change that. The 
industry can do it itself and I would urge you to work with 
your members and the folks that you represent to do that.
    Thank you, Mr. Chairman.
    Mr. Allen. Mr. Chairman, could I comment, just very 
briefly?
    Mr. Stearns. Absolutely, sure. Go ahead.
    Mr. Allen. I think Mr. Ferguson's point is incredibly 
important because this has not been like shooting fish in a 
barrel. Working these cases on P2P has been very difficult and 
it's very important and encouraging that this industry has 
stepped up in the last few months and is working with law 
enforcement, but the reality is people are fleeing, those 
predators who prey upon children and use child pornography are 
fleeing websites because of the increasing presence of 
enforcement. The ISPs now have an obligation to report child 
pornography on their sites. What we have to do to preserve the 
integrity and the potential of peer-to-peer and distributed 
computing is to make sure that it is not allowed to become a 
sanctuary for those who are seeking ways to operate in 
anonymity and violate and avoid the law. I think the steps 
they've taken are really important, but your message is one 
that the whole industry needs to hear loud and clear.
    Mr. Stearns. I thank the gentleman. Mr. Allen, just 
following up on that, do you think that--would you advocate 
that the peer-to-peer companies have to register with the 
Federal Trade Commission?
    Mr. Allen. I think that's really beyond our expertise. The 
one thing that I think is really important and in the early 
days of the internet, the ISP community was concerned as well--
--
    Mr. Stearns. You advocate, you support the idea of the 
ISPs, have been mandated by Congress to report pornography and 
child pornography. Do you support that kind of idea for the 
peer-to-peer?
    Mr. Allen. I think it's an excellent model that ought to be 
examined.
    Mr. Stearns. Well, Mr. Lafferty, I think you've heard sort 
of Mr. Ferguson's comments and I think everybody in this room 
has agreed in the goals of this subcommittee is to protect our 
children from pornography, child pornography. How we do it, 
whether we do it through Federal legislation or we do it 
through best practices, how many companies are there in the 
peer-to-peer organization now that you have?
    Mr. Lafferty. We have 15 members and about 5 of them are in 
the peer-to-peer space. Five are content, five are service 
support.
    Mr. Stearns. How many do you think there are in the United 
States peer-to-peer?
    Mr. Lafferty. Internet is global, so I can't--120 known 
peer-to-peer software service----
    Mr. Stearns. And that's another point I point out to my 
Members, cross-border fraud is very prevalent and this is a 
global market, so you have companies outside of the United 
States. It's very difficult. We passed a cross-border fraud and 
deception out of this committee at the request of the Federal 
Trade Commission. It's gone to the House. We don't have it out 
of the Senate. We'd like to pass that bill which would give the 
Federal Trade Commission reciprocity with other nations where 
we could actually go after those companies, bad actors. But it 
is all going to come down, I think as Mr. Ferguson has pointed 
out is whether your association is going to have a best 
practice, have a standard and actually work hard to make sure 
that the peer-to-peer technology is used in a useful way and we 
don't have the bad actors, but I think as you can see, we're so 
strong about this issue, all of us having children, that we're 
willing to consider legislation.
    And Mr. Catlett, I'd appreciate if you would talk to Mr. 
Pitts and perhaps you can suggest things that would make it 
more feasible for it.
    Is there anything in concluding? Ms. Nance, anything that--
Mr. Allen, anything anyone would like to say before we close?
    Ms. Nance. Thank you again for convening this hearing and 
yes, I just want to agree with your last point. I think it 
absolutely--they should be obligated to report back to the DOJ 
any incidents they find of obscenity or pornography, and I just 
think that's the minimum they can do to help our families. So 
thank you.
    Mr. Ferguson. Mr. Chairman, can I just add one thing? I 
just want to thank Penny Nance, too, for the work she's done. 
She's done an enormous amount of work, pro family work for a 
number of years here on the Hill and around the country and 
starting this organization, she speaks for so many moms and 
dads and folks across this country who are working so hard, 
concerned about their kids, worried about what they're seeing 
on the internet. Our kids, as I say, are not old enough for 
using the internet yet, but they will and it's coming. It's--
there are certain things we can do on the legislative side, but 
as we know, there are certain things that need to be done by 
moms and dads and groups and associations of families who will 
speak up for people around the country who frankly sometimes 
feel like they don't have quite that voice that they want. We 
try to give them that voice through our representation, but 
there are organizations like hers which are doing a great job 
and I thank her for that as well.
    Mr. Stearns. Any other comments before we close? Mr. Pitts, 
anything?
    Mr. Pitts. I'll just second those comments. Thank you very 
much, Mr. Chairman.
    Mr. Stearns. Thank you very much for your patience during 
this hearing and the subcommittee is adjourned.
    [Whereupon, at 12:31 p.m., the hearing was concluded.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
